<html>
<title> - REMOVING BARRIERS TO WIRELESS BROADBAND DEPLOYMENT</title>
<body><pre>[Senate Hearing 114-264]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-264

                     REMOVING BARRIERS TO WIRELESS 
                          BROADBAND DEPLOYMENT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                           U.S. GOVERNMENT PUBLISHING OFFICE
20-043 PDF                     WASHINGTON : 2016                           

________________________________________________________________________________________    
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7215021d32110701061a171e025c111d1f5c">[email&#160;protected]</a>  
  
      
      
      
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                           
                           
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 7, 2015..................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................     2
Statement of Senator Wicker......................................    36
Statement of Senator Moran.......................................    39
Statement of Senator Gardner.....................................    40
Statement of Senator Daines......................................    43
Statement of Senator Manchin.....................................    45
Statement of Senator Ayotte......................................    48
Statement of Senator Udall.......................................    50
Statement of Senator Blumenthal..................................    52
Statement of Senator Klobuchar...................................    56
Statement of Senator Markey......................................    58
Statement of Senator Johnson.....................................    60

                               Witnesses

Douglas Kinkoph, Associate Administrator, Office of 
  Telecommunications and Information Applications, National 
  Telecommunications and Information Administration, U.S. 
  Department of Commerce.........................................     4
    Prepared statement...........................................     5
Hon. Jonathan S. Adelstein, President and CEO, PCIA--The Wireless 
  Infrastructure Association.....................................     9
    Prepared statement...........................................    11
Hon. Gary Resnick, Mayor, Wilton Manors, Florida.................    17
    Prepared statement...........................................    19
Cory J. Reed, Senior Vice President, Intelligent Solutions, Deere 
  & Company......................................................    21
    Prepared statement...........................................    23
Bruce Morrison, Vice President, Operations and Network Build, 
  Ericsson Inc...................................................    27
    Prepared statement...........................................    29

                                Appendix

Hon. Marco Rubio, U.S. Senator from Florida, prepared statement..    67
Letter dated July 29, 2015 to Hon. John Thune and Hon. Bill 
  Nelson from Steven K. Berry, President and CEO, Competitive 
  Carriers Association...........................................    68
Letter dated October 6, 2015 to Hon. John Thune and Hon. Bill 
  Nelson from David F. Melcher, Aerospace Industries Association.    71
Response to written questions submitted to Douglas Kinkoph by:
    Hon. Deb Fischer.............................................    73
    Hon. Dan Sullivan............................................    73
    Hon. Steve Daines............................................    74
    Hon. Cory Booker.............................................    76
Response to written questions submitted to Hon. Jonathan S. 
  Adelstein by:
    Hon. Marco Rubio.............................................    76
    Hon. Deb Fischer.............................................    77
    Hon. Dan Sullivan............................................    77
    Hon. Cory Booker.............................................    78
Response to written questions submitted to Hon. Gary Resnick by:
    Hon. Deb Fischer.............................................    78
    Hon. Steve Daines............................................    78
    Hon. Cory Booker.............................................    80
Response to written questions submitted to Cory J. Reed by:
    Hon. Deb Fischer.............................................    82
    Hon. Steve Daines............................................    83
    Hon. Cory Booker.............................................    84
Response to written questions submitted to Bruce Morrison by:
    Hon. Marco Rubio.............................................    85
    Hon. Deb Fischer.............................................    85
    Hon. Dan Sullivan............................................    86
    Hon. Steve Daines............................................    87
    Hon. Amy Klobuchar...........................................    88
    Hon. Cory Booker.............................................    88

 
           REMOVING BARRIERS TO WIRELESS BROADBAND DEPLOYMENT

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Ayotte, 
Fischer, Moran, Sullivan, Johnson, Heller, Gardner, Daines, 
Nelson, Cantwell, Klobuchar, Blumenthal, Schatz, Markey, Udall, 
Manchin, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. This hearing will come to order. I want to 
welcome our panel and thank you all for being here this 
morning. Our committee meets to examine policies related to 
spectrum and wireless broadband.
    As I mentioned at our July hearing on Wireless Broadband 
and the Future of Spectrum Policy, we have an opportunity to 
develop meaningful legislation to further promote economic 
development and the many benefits fueled by increased mobile 
connectivity. Similar to the feedback from our last hearing, I 
look forward to hearing from my many colleagues and our 
witnesses about ideas that they may have for such legislation.
    I also invite stakeholders not here today to share their 
ideas with the Committee in the coming days and weeks. Opening 
more spectrum for commercial use can bring in revenue to pay 
down our national debt and fund other priorities. But, the more 
lasting economic benefits spurred by spectrum availability--new 
jobs, technological innovation, and increased consumer 
welfare--depend on spectrum actually being used by individuals 
across the country. That requires the design, construction, 
deployment, and maintenance of physical facilities, including 
towers, antennas, fiber optic cables, and servers.
    The benefits of increased wireless deployment go well 
beyond the value of improving mobile connectivity for 
individuals where they live. There's also tremendous potential 
in bringing connectivity to unserved areas where people may not 
reside, but where they do work and play, like farmland and 
parklands. Facilitating personal mobile devices and machine-to-
machine communications in these areas holds great promise to 
improve public health and safety, increase agricultural 
productivity, and better manage natural resources.
    Telecommunication and broadband connectivity in rural 
America not only opens doors for individuals and families, but 
also enables new opportunities for farmers and ranchers when it 
comes to the millions of acres of land that they actively 
manage. Machine-to-machine and machine-to-farm communication is 
already delivering new productivity gains and promises much 
more benefit for American farmers, environmental stewardship, 
and the economic future of rural communities. I look forward to 
hearing testimony today about some of these innovative 
solutions and how public policy can facilitate their ongoing 
development.
    Improving broadband infrastructure deployment has received 
increasing legislative, administrative, and regulatory 
attention in recent years. Most recently, the Broadband 
Opportunity Council concluded a months-long review among 25 
Federal agencies led by the Departments of Commerce and 
Agriculture to produce recommendations to increase broadband 
deployment through existing agency programs, missions, and 
budgets. We are pleased to have NTIA before us today to explain 
the recent report and discuss its role as a facilitator of 
interagency activities related to broadband.
    Universal broadband connectivity is a national objective, 
but its pursuit ultimately involves thousands of decisions made 
at the local level. These decisions are made by private 
enterprises determining where to deploy facilities and where to 
risk capital. They also are made by local and Federal 
Government authorities who are charged with protecting their 
constituents' interests, authorities like city planning 
officials, military base personnel, and forestry managers. 
Today, we're going to hear more detail about what goes into 
these decision processes, how they operate in practice, and how 
Congress can help to improve their efficiency.
    I'm encouraged by the broad engagement of members on this 
committee in efforts to promote wireless broadband deployment. 
Members on both sides of the aisle are working on a bipartisan 
basis to develop pragmatic concepts and actionable legislation 
as well as trying to identify new and bright ideas.
    I invite all of our members to continue working with one 
another to understand these issues, to create a fulsome record, 
and to craft broadband deployment legislation for action in 
this Congress. I'm committed to these efforts and believe it is 
among the most important work that can be done by this 
committee.
    Thank you. And I want to recognize now our Ranking Member, 
Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    And what you said about having to rely on State and local 
governments is one of the reasons that I requested that we have 
one of my mayors, the Mayor of Wilton Manors, Mayor Resnick, be 
part of the panel.
    And just to back up what you said, Mr. Chairman, we're all 
here because of the demand for and the reliance on wireless 
broadband. And the additional need for spectrum always seems to 
gather most of the attention, but we also, as we adopt a 
forward-looking wireless policy, we've got to look at the 
infrastructure side of the wireless situation.
    As we continue to hear concerns about delay and the 
processes required for getting additional wireless 
infrastructure deployed, this is a part of the discussion that 
we're going to have to tackle. And that's because building 
these networks implicates a number of very important issues, 
from historic preservation and environmental concerns to State 
and local land-use policies to tribal sovereignty and to 
national security. And so, our hope is that all the 
stakeholders in this can work together to help us find ways to 
balance these competing demands and, therefore, to meet, 
ultimately, what the public must have.
    And I also look forward to hearing from our NTIA witness 
about the steps the administration is already taking to 
increase opportunities for deployment of wireless 
infrastructure on Federal lands and buildings.
    The recent Broadband Opportunity Council report includes a 
number of recommendations on ways to speed this deployment on 
Federal lands. Just last week, GSA, under the guidance of 
Congress, took significant steps to improve processes for 
seeking access to Federal lands. And as we said in a previous 
hearing, we stand ready to work with Chairman Thune and all the 
stakeholders to find areas of bipartisan consensus so that we 
can address the future of U.S. wireless policy.
    Thank you.
    The Chairman. Thank you, Senator Nelson.
    And we are, as I said, joined by a great panel today. And, 
starting on your right and my left, we have Mr. Douglas 
Kinkoph, who is the Associate Administrator of the Office of 
Telecommunications Information Applications for the National 
Telecommunications and Information Administration--put that on 
a business card----
    [Laughter.]
    The Chairman.--Mr. Jonathan Adelstein, who is currently the 
President and CEO of PCIA, the Wireless Infrastructure 
Association, and also formerly the Administrator of the Rural 
Utilities Service, and a Commissioner at the Federal 
Communications Commission, and, I might add, a native South 
Dakotan--so, Jonathan, welcome, good to have you here; Mayor 
Gary Resnick is the Mayor, as Senator Nelson noted, Wilton 
Manors, Florida; and Mr. Core Reed is the Senior Vice President 
of Intelligent Solutions for Deere & Company, which will have, 
I think, some interesting thoughts on applications in 
agriculture, which is of great interest to many of us on this 
panel; and Mr. Bruce Morrison, and he's the Vice President of 
Operations and Network Build for Ericsson, in North America.
    So, welcome, to all of you. It's great to have you with us. 
Please feel free to begin with your remarks. And, if you could 
confine them as closely to 5 minutes as possible, and then 
we'll get into our questions.
    And we'll start on my left with Mr. Kinkoph.

            STATEMENT OF DOUGLAS KINKOPH, ASSOCIATE

          ADMINISTRATOR, OFFICE OF TELECOMMUNICATIONS

             AND INFORMATION APPLICATIONS, NATIONAL

               TELECOMMUNICATIONS AND INFORMATION

          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Kinkoph. Thank you, Chairman Thune, Ranking Member 
Nelson, and Committee members. I welcome other opportunity to 
testify before you today on behalf of the National 
Telecommunications and Information Administration.
    My name is Doug Kinkoph, and I'm Associate Administrator at 
NTIA and lead the agency's efforts related to broadband, 
including leading NTIA's new Broadband USA Initiative.
    As President Obama has declared, access to high-speed 
broadband is no longer a luxury, it is a necessity for American 
families, businesses, consumers, and critical to U.S. economic 
growth and competitiveness. At NTIA, we have been working hard 
over the past 6 years to advance broadband availability 
nationwide through our $4 billion Broadband Grant Program.
    We oversaw roughly 230 projects across the country that 
have built critical network infrastructure, opened or upgraded 
public computer centers, established broadband adoption and 
digital inclusion programs. NTIA's State Broadband Initiative 
invested another $300 million to help states collect broadband 
data for the National Broadband Map and expand their statewide 
broadband capacity.
    Six years ago, when Congress funded this program, we made a 
promise to communities across the country that they would 
benefit from this funding. The Obama administration's 
investment in broadband would create jobs, stimulate economic 
development, spur investment, and open up new opportunities in 
employment, education, and healthcare. Today, I'm proud to say 
we've delivered on those pledges. Our broadband grantees 
deployed more than 114,000 miles of new or upgraded network 
miles, connected nearly 26,000 community anchor institutions, 
such as schools and hospitals, connected--and installed or 
upgraded more than 47,000 personal computers and public access 
centers. And our grantees enrolled hundreds of thousands of 
people as subscribers to broadband services for the first time.
    As we move beyond these projects, we recognize that more 
work needs to be done to ensure that no one is left behind. 
Nearly 51 million Americans still do not have access at home to 
a wired broadband connection in their homes today, and we 
expect the need for speed to continue to increase.
    Even though the Recovery Act Grant Program is coming to an 
end, President Obama has continued to emphasize the importance 
of broadband. Over the past several months, he has outlined a 
series of initiatives aimed at closing the digital divide and 
fostering investment in our Nation's broadband infrastructure. 
Last March, the President created the Broadband Opportunity 
Council, made up of over 20 Federal agencies, and directed it 
to determine what actions the Federal Government could take to 
eliminate regulatory barriers to broadband deployment and to 
encourage investment in broadband network and services. NTIA 
Administrator Larry Strickling served as the Co-Chair of the 
Council at the designation by Senate--Secretary Pritzker.
    On September 21, the White House released the Council's 
report, which described concrete steps that 25 Federal agencies 
would take over the next 18 months to eliminate barriers and 
promote broadband investment and adoption. Four key themes 
framed the recommendations and action items:
    One, modernize Federal programs to expand program support 
for broadband investment;
    Two, empower communities with tools and resources to 
attract broadband investment and promote meaningful use;
    Three, promote increased broadband deployment and 
competition through expanded access to Federal assets;
    And finally, improve data collection and analysis and 
research on broadband.
    Once implemented, we believe that the recommendations will 
make meaningful difference to communities seeking to expand and 
enhance their broadband capacity. For example, more funds will 
be available to support broadband projects, and local 
governments will have new tools and resources at their 
fingertips to bring broadband to their communities.
    The recommendations of the Broadband Opportunity Council 
represent an important next step in the administration's 
ongoing campaign to expand broadband access and adoption. But, 
what matters is--now is that the agencies implement the 
recommendations and continue to identify additional steps that 
can be taken and barriers that can be tackled.
    At NTIA, we play an ongoing role in ensuring that the 
Council's important work is carried out. NTIA's Broadband USA 
Initiative will continue to work closely with communities 
seeking to expand their broadband capacity. NTIA has learned a 
lot over the past 6 years overseeing this broadband portfolio 
of broadband infrastructure and adoption grants. NTIA has 
learned that there is no one-size-fits-all approach. Through 
our Broadband USA Initiative, we are now leveraging that 
knowledge and expertise to help communities in their broadband 
expansion efforts. We are offering them technical assistance 
and support they need to overcome their unique challenges 
through publication of products, workshops, and direct 
technical assistance.
    And I thank you again for the opportunity to participate in 
today's hearing. And I will be happy to answer any questions.
    [The prepared statement of Mr. Kinkoph follows:]

    Prepared Statement of Douglas Kinkoph, Associate Administrator, 
  Office of Telecommunications and Information Applications, National 
 Telecommunications and Information Administration, U.S. Department of 
                                Commerce
    Chairman Thune, Ranking Member Nelson, members of the Committee, 
thank you for this opportunity to testify on behalf of the National 
Telecommunications and Information Administration (NTIA) regarding 
removing barriers to wireless broadband deployment. As President Obama 
has declared, access to high-speed broadband is no longer a luxury; it 
is a necessity for American families, businesses, and consumers and 
critical to U.S. economic growth and competitiveness. NTIA contributed 
to advancing broadband availability throughout the Nation by financing 
roughly 230 projects across the country that have built critical 
network infrastructure, opened or upgraded public computer centers and 
established broadband adoption and digital inclusion programs from $4 
billion from the 2009 Recovery Act. NTIA's State Broadband Initiative 
Program invested another $300 million to help states collect broadband 
data for the National Broadband Map and expand their statewide 
broadband capacity.
    Six years ago, when Congress funded this program, we made a promise 
to communities across the country that would benefit from this funding: 
the Obama Administration's investment in broadband would create jobs, 
stimulate economic development, spur private-sector investment, and 
open up new opportunities in employment, education and healthcare. Most 
important, it would improve lives. Today, I am proud to say we 
delivered on those pledges. Our broadband grantees deployed more than 
114,000 miles of new or upgraded network miles, connected nearly 26,000 
community anchor institutions such as schools and hospitals and 
installed or upgraded more than 47,000 personal computers in public 
access centers. And our grantees enrolled hundreds of thousands of 
people as subscribers to broadband services.
    These projects have already had a significant impact on economic 
development. We commissioned an independent study from ASR Analytics 
looking at the social and economic impact of our broadband grant 
program and released that report earlier this year. The report showed 
that on average, in only two years, communities that received our 
broadband grant funds experienced an estimated 2 percent greater growth 
in broadband availability than non-grant communities. The report also 
concluded that the additional broadband infrastructure built by our 
grantees could be expected to create more than 22,000 long-term jobs 
and generate more than $1 billion in additional household income each 
year. The report also showed that community anchor institutions, like 
schools and libraries, served by our broadband infrastructure grantees 
experienced significantly increased speeds and lower costs. As an 
example, the median price paid by libraries in the sample was $233 per 
megabit per month before the grant program, at a median speed of 3 
mbps. As a result of the grant program, the median price dropped to $15 
per megabit per month and median speed increased to 20 mbps.
    With our infrastructure projects, one of our major goals was to 
prime the pump for private-sector investment by supplying critical 
middle-mile infrastructure that local providers can use to deliver 
affordable broadband to more homes and businesses. That is why all 
networks built with Recovery Act dollars are subject to open-access 
rules that let all other carriers interconnect with these networks on 
fair and non-discriminatory terms. Open access middle-mile fiber can 
also be used for wireless tower backhaul. We also encouraged our 
grantees to connect directly to the key anchor institutions in these 
communities due to the higher bandwidth needs of schools, libraries and 
other institutions.
    In Massachusetts, there is a great example of a public-private 
partnership that laid the foundation for broadband expansion throughout 
the state. The $45.4 million grant to the Massachusetts Technology Park 
(MassTech) delivered affordable, high-speed Internet to 123 communities 
in rural western Massachusetts. The project was completed in January, 
2014 and built 949 miles of new fiber and connected 1,233 community 
anchor institutions. For this project and the Open Cape project, the 
state of Massachusetts provided the project matching funds. In building 
on the success of the Recovery Act projects, the state is making 
funding available to 45 communities to support their community 
broadband projects.
    Another Recovery Act success story is South Dakota Network, LLC 
(SDN), a partnership of 27 independent telecom companies covering most 
of South Dakota. SDN used its $20.6 million grant to add 397 miles of 
new middle-mile spurs that connected 512 community anchor institutions, 
including schools, hospitals, libraries, clinics, public safety 
agencies, courthouses, government buildings, and National Guard 
facilities, to high-speed broadband. The new and improved broadband 
access helped these institutions provide services that were previously 
unavailable due to lack of access or slow connections speeds. 
Healthcare providers can now offer telemedicine services and public 
schools and libraries now provide distance learning opportunities.
    To foster wireless broadband deployment, NTIA awarded a $9.5 
million Recovery Act grant to Pine Telephone Company to deliver 
affordable wireless broadband service to the underserved tribal lands 
of the Choctaw Nation and its ten counties in rural southeastern 
Oklahoma. Through its grant, Pine Telephone leveraged the power of 
broadband to create economic growth and jobs and to enhance education 
and public safety. Upon completion in June 2013, Pine Telephone had 
constructed a new high-speed 344-mile network that used 3G universal 
mobile telecommunications systems (UMTS) technology. In addition, Pine 
Telephone constructed a last-mile wireless network that included 42 new 
wireless links, 37 new towers, and 6 new/upgraded interconnection 
points. Pine Telephone connected 22 community anchor institutions 
(CAIs), including six K-12 schools and 16 public safety entities, and 
provided last-mile broadband services to 497 residential subscribers 
and 33 businesses. It also donated space on the new towers for 
placement of emergency responder radio systems, which will help to 
improve critical public safety communications during emergencies.
    NTIA also awarded $32.2 million to the Navajo Tribal Utility 
Authority (NTUA) to build out telecommunications infrastructure 
throughout the Navajo Nation in northern Arizona, northwestern New 
Mexico, and southeastern Utah. Completed in 2013, NTUA constructed over 
1,345 miles, including 570 miles of aerial fiber and 775 wireless 
miles. It also built 32 new towers to expand its existing microwave 
network and provide broadband access over 15,120 square miles of the 
Navajo Nation's 27,000 square mile area. It directly connected 50 
chapter houses, which are the heart of each community and serve as 
municipal buildings and central community meeting places. In addition, 
NTUA's subrecipient, NTUA Wireless (dba Choice Wireless), provides 
last-mile services via a 4G Long Term Evolution (LTE) network. Through 
this LTE network, NTUA provides high speed broadband access to both 
fixed and mobile customers to include 30,000 households (approximately 
135,000 people) and 1,000 businesses in 15 of the largest communities 
on the Navajo Nation, including Window Rock, Shiprock, Kayenta, Chinle, 
and Tuba City.
    In addition to the goal of economic development, NTIA also focused 
on inclusion issues--how to make broadband available to all Americans. 
We cannot lose sight of the importance of adoption. Once the facilities 
are built, we need for people to subscribe to use the service. Today, 
only 74 percent of Americans overall subscribe to broadband service. 
Through our adoption programs, we have learned important lessons about 
what works and what does not. An important takeaway is that digital 
literacy is fundamental to sustainable broadband adoption. Our grantees 
around the country have demonstrated that successful digital literacy 
training must be tailored to the specific needs of the community and 
the individual. Based on our grants, we now have developed a portfolio 
of innovative approaches to offering this training. Sustainable 
broadband adoption projects are reaching people who may never have even 
turned on a computer--a group that includes a disproportionate number 
of lower income Americans, senior citizens, and members of minority 
groups--and teaching them how to navigate the Internet, set up an e-
mail account, write a resume, and even apply for jobs over the 
Internet.
    Through the Recovery Act, NTIA funded $250 million of sustainable 
broadband adoption grants. A program called TechGoesHome provides an 
illustration of one of these grants. The City of Boston's Department of 
Information Technology partnered with a nonprofit called Open Air 
Boston to provide digital literacy training, subsidized netbooks or 
mobile devices and low-cost Internet access to low-income middle and 
high school students and their families. TechGoesHome served 62 middle 
and high schools and 35 community sites, and it equipped Boston 
teenagers with valuable digital literacy skills that will help them 
compete in a job market that takes these skills for granted.
    As we move beyond these projects, we recognize that more work needs 
to be done to ensure that no one is left behind in this digital 
revolution. When we started the Recovery Act grants program in 2009, 
the Federal Communications Commission (FCC) still defined broadband at 
a speed less than 1 Mbps. Today the FCC recommends download speeds of 
25 Mbps. At that rate, nearly 51 million Americans still do not have 
access to a wired broadband connection. And we can expect the need for 
speed to continue to increase.
    Even though the Recovery Act grant program is substantially 
complete, President Obama has continued to emphasize the importance of 
broadband. Over the past several months, he has outlined a series of 
initiatives aimed at closing the digital divide and fostering 
investment in our Nation's broadband infrastructure.
    In 2013, the President launched ConnectEd, a public private 
partnership to connect 99 percent of America's students to the Internet 
through high-speed broadband within 5 years. Since the President's 
announcement, the public and private sectors have committed more than 
$10 billion of total funding and in-kind commitments as part of this 
five-year effort.
    Earlier this year, the President announced ConnectHome, a new 
initiative with communities, the private sector, and Federal Government 
to expand high speed broadband to more families across the country. The 
pilot program is launching in 27 cities and one tribal nation and will 
initially reach over 275,000 low-income households. Through the 
program, Internet service providers, non-profits and the private sector 
will offer broadband access, technical training, digital literacy 
programs, and devices for residents in assisted housing units.
    Last March, the President created the Broadband Opportunity 
Council, made up of over twenty Federal agencies, and directed it to 
determine what actions the Federal Government could take to eliminate 
regulatory barriers to broadband deployment and to encourage investment 
in broadband networks and services. On September 21, the White House 
released the Council's report, which describes concrete steps that 25 
Federal agencies will take over the next 18 months to eliminate 
barriers and promote broadband investment and adoption.
    Many of the agencies involved had never considered broadband to be 
part of their core mission. So an initial part of the task was for each 
agency to look internally at policies and programs to explore whether 
there was flexibility to do more.
    The Council also solicited stakeholder input on ways that the 
Federal Government can incentivize broadband investment, drive 
competition and remove regulatory and policy barriers at the community 
level. We heard from more than 200 parties, including community groups, 
trade associations, broadband experts, state and local governments, 
private entities and individuals. Their feedback was important to 
shaping the report.
    Four key themes framed the recommendations and action items.

        1--Modernize Federal programs to expand program support for 
        broadband investments.

        2--Empower communities with tools and resources to attract 
        broadband investment and promote meaningful use.

        3--Promote increased broadband deployment and competition 
        through expanded access to Federal assets.

        4--Improve data collection, analysis and research on broadband.

    Once implemented, we believe that the recommendations will make a 
meaningful difference to communities seeking to expand and enhance 
their broadband capacity. For example, more funds will be available to 
support broadband projects, and local governments will have new tools 
and resources at their fingertips to bring broadband to their 
communities.
    The first set of recommendations targets modernizing Federal 
programs to expand program support for broadband investments.
    Not all Federal programs fully reflect the changing conditions that 
reflect the need for broadband. In some cases, programs that can 
support broadband deployment and adoption lack specific guidelines to 
promote its use. We asked agencies to clarify whether their programs 
supported broadband investment. As a result, agencies have committed to 
13 actions which clarify or open up additional options for Federal 
funding for broadband in programs totaling $10 billion. Examples 
include the Department of Housing and Urban Development's Community 
Development Block Grant and the Department of Commerce's Economic 
Development Assistance Programs.
    The second set of recommendations relates to empowering communities 
with tools and resources to attract broadband investment and promote 
meaningful use. While Federal leadership is essential, many decisions 
about broadband investment are local. They are made by local 
governments in partnership with industry and guided by state law. To 
address the gaps, the Council recognized the need for Federal agencies 
to provide communities with targeted, easily accessible resources that 
share best practices from their peers around the country.
    NTIA's BroadbandUSA effort has been working with communities across 
the country and we have heard time and again the challenges facing 
these communities to identify sources of funding for broadband, and to 
know where to turn to within the Federal Government for answers to 
their questions. One key action, which NTIA will spearhead, will be to 
create a portal for information on Federal broadband funding and loan 
programs to help communities easily identify resources as they seek to 
expand access to broadband. This will help communities find broadband-
related policy guidance, key agency points-of-contact and best 
practices. Last week, NTIA announced the release of our Broadband 
Funding Guide, which provides a roadmap on how to access Federal 
funding to support broadband planning, public access, digital literacy, 
adoption, and deployment.
    The third set of Council recommendations relates to expanding 
access to Federal assets. Specific actions here include a commitment 
from the Department of Transportation to issue policy guidance to 
leverage highway rights of way for broadband. The White House's Office 
of Science and Technology Policy and National Economic Council will 
also lead the creation of an online open data inventory of Federal 
assets that can help support faster and more economical broadband 
deployments, both wireline and wireless to remote areas of the country. 
Additionally, NTIA will assist the Department of the Interior (DOI) in 
developing an initiative to leverage over 4,000 towers and other assets 
on DOI-managed property to support wireless broadband deployments. This 
effort could reduce barriers to entry, increase competition, and 
improve service over 500 million square acres of land in unserved and 
underserved communities.
    The fourth set of recommendations revolves around improving data 
collection, analysis, and research on broadband. Research on broadband 
deployment, competition and adoption has not kept pace with the massive 
digital changes that permeate our economy and society. To address this 
issue, the Council, led by the National Science Foundation and NTIA, 
will develop a comprehensive broadband research and data collection 
agenda. This will allow Federal and private funders to coordinate and 
prioritize future research plans to support American competitiveness.
    The recommendations of the Broadband Opportunity Council represent 
an important next step in the Administration's ongoing campaign to 
expand broadband access and adoption, but what matters now is that 
agencies implement the recommendations and continue to identify 
additional steps that can be taken and barriers that can be tackled. We 
welcome continued dialogue with all stakeholders in this effort.
    At NTIA, we will play an ongoing role in ensuring that the 
Council's important work is carried out. NTIA's BroadbandUSA initiative 
will continue to work closely with communities seeking to expand their 
broadband capacity. NTIA has learned a lot over the past six years 
overseeing this broad portfolio of broadband infrastructure and 
adoption grants. NTIA has learned that there's no one-size-fits-all 
approach that works. Every community has unique needs and challenges. 
Through our BroadbandUSA initiative, we are now leveraging that 
knowledge and expertise to help communities in their broadband 
expansion efforts. We are offering them the technical assistance and 
support they need to overcome their unique challenges through 
publication of products, workshops, and technical assistance.
    Thank you again for the opportunity to participate in today's 
hearing.

    The Chairman. Thank you, Mr. Kinkoph.
    Mr. Adelstein.

            STATEMENT OF HON. JONATHAN S. ADELSTEIN,

     PRESIDENT AND CEO, PCIA--THE WIRELESS INFRASTRUCTURE 
                          ASSOCIATION

    Mr. Adelstein. Well, thank you, Mr. Chairman, Ranking 
Member Nelson, and members of the Committee. I really 
appreciate the opportunity to testify today, and I appreciate 
the focus on infrastructure. Your opening statements really hit 
the nail on the head. Without it, we can't have wireless 
broadband.
    As you indicated, Mr. Chairman, I'm CEO of PCIA--The 
Wireless Infrastructure Association. We represent the companies 
that build, design, own, and manage wireless telecom 
facilities. Our members include the infrastructure providers, 
wireless carriers, equipment manufacturers, and professional 
service firms that build that network and maintain it. Our 
mission is to expand wireless broadband everywhere. I think 
that's a mission consistent with what this committee has talked 
about and what you've talked about this morning. We help our 
members provide the facilities to meet consumers' growing 
demand for mobile data. Put simply, wireless infrastructure 
enables the delivery of innovative applications, like 
telemedicine, like distance learning. It's a catalyst for 
economic growth and job creation. A PCIA study found that the 
industry's investments--we invest roughly $35 billion a year, 
but they have outsized impact on the economy because of all the 
direct and indirect effects. We're expected to generate $1.2 
trillion in chairman growth over 5 years and 1.3 million new 
jobs out of those investments. But, those investments have to 
flow, and that's what this committee's task that you sent to us 
today is, to figure out how to help that happen.
    This committee has shown great leadership in eliminating a 
number of barriers to infrastructure deployment. Most notably, 
Section 6409 of the Spectrum Act, which you enacted in 2012, 
has had a real and direct impact on speeding the deployment of 
4G infrastructure by eliminating local regulatory barriers to 
upgrading existing wireless infrastructure. And the FCC has 
done an outstanding job of implementing it with a clear 
framework of rules. Our members report real progress on the 
ground. This committee's work has improved the speed, cost, and 
ease of deploying 4G networks. We're grateful for your 
visionary leadership.
    We're also grateful for the cooperative spirit of 
representatives of local governments, like Mayor Resnick here, 
and all the associations that he serves on. We've worked 
together to implement on the ground those provisions that you 
enacted. And I think it has been very effective in helping get 
the word out and getting it done smoothly.
    Still, we face a lot of challenges. Wireless data demand is 
projected to explode by 700 percent over the next 5 years. And 
the question is, How are we going to meet that demand? One way 
is more spectrum, as you indicated this morning. There's a lot 
that we need, in terms of spectrum. We need as much as we can 
get, as fast as we can get it. This committee's done great work 
on that front, as well. Spectrum, of course, is expensive, 
scarce, and takes a lot of time to get into use for consumers.
    Another avenue is through technological efficiencies, which 
also improve data throughput, squeezing more out of existing 
spectrum. But, again, this takes time to develop.
    A third way to address the wireless data crunch is through 
the rapid deployment of infrastructure. Wireless infrastructure 
provides additional capacity as soon as it's deployed. 
Solutions range from tall towers that provide wide coverage and 
capacity to small cells and distributed antenna systems that 
fill the gaps in high traffic areas.
    Despite the assistance this committee has provided, 
roadblocks do remain. For example, some municipalities require 
proof of need before authorizing infrastructure builds. These 
requirements are both unnecessary and costly. Local governments 
shouldn't be in the CTO business of deciding what level of 
service is appropriate, or forecasting demand. Our members 
invest their limited capital where it's needed to serve 
consumers. Localities aren't in a good position to second-guess 
these technical questions.
    Another way Congress could promote broadband is by 
streamlining the process of siting wireless infrastructure on 
Federal lands. GSA finally took a step last week to implement 
Congress's 2012 directive to provide standard forms and 
applications for wireless siting. Despite this law, an 
Executive Order by the President, many challenges remain in 
siting infrastructure on Federal property. Further legislation 
is needed to facilitate access on Federal lands, especially 
because they benefit rural areas so significantly.
    PCIA supports S. 1618, the Wireless Innovation Act, which 
is being considered by this committee, as well as other efforts 
that are being made by this committee to address that.
    Mr. Chairman, you and this committee are rightly focused on 
finding ways to focus on accelerating broadband deployment in 
rural America. PCIA completed a white paper in conjunction with 
our member, John Deere, who's testifying today, on steps to 
enhance private investment. One critical mechanism is the Rural 
Utility Service, provides loans for broadband buildout. And 
these loans need a predictable level of support that enables 
borrowers to plan and invest in infrastructure. The Connect 
America Fund and its wireless component, the Mobility Fund, can 
help rural areas build infrastructure.
    Wireless broadband helps drive America's innovation economy 
and fuels the Nation's economic future. Continuing to upgrade 
America's wireless infrastructure is necessary to connect more 
Americans with broadband. Policymakers from Congress to local 
governments need to eliminate regulatory barriers so our 
industry can invest their capital where it's needed most. We 
can't afford costly burdens and delays that will slow the 
rollout of wireless broadband.
    Our member companies are grateful for the bipartisan 
recognition of the centrality of wireless infrastructure by 
this committee, by Congress, by the administration, by the FCC. 
We look forward to making continued progress together.
    And I thank you for the opportunity to testify.
    [The prepared statement of Mr. Adelstein follows:]

 Prepared Statement of Hon. Jonathan S. Adelstein, President and CEO, 
             PCIA--The Wireless Infrastructure Association
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for holding this important hearing and for the 
opportunity to testify on the urgent topic of removing barriers to 
wireless broadband deployment. I am the President and CEO of PCIA--The 
Wireless Infrastructure Association (PCIA), the principal organization 
representing the companies that build, design, own, and manage 
telecommunications facilities in the U.S. and throughout the world. Our 
over 230 members include infrastructure providers, wireless carriers, 
equipment manufacturers, and professional services firms. PCIA focuses 
on ensuring that the infrastructure is in place to make mobile devices 
work. As mobile devices and applications continue to evolve, they share 
a common requirement of a wireless connection to a wired network--often 
provided through a tower. Our mission is to expand wireless broadband 
everywhere, helping our members provide wireless facilities that enable 
consumers to meet their growing mobile data needs anytime, anyplace.
    The wireless broadband infrastructure industry is honored to work 
with this Committee and Congress on sound policies to encourage 
deployment of broadband for all Americans, regardless of location or 
economic status. The premise of this hearing demonstrates the 
importance of broadband deployment.
Wireless Infrastructure Enables Broadband that Creates Jobs and 
        Economic Growth
    When it comes to meeting the growing wireless data demands of 
Americans and consumers throughout the world, the wireless 
infrastructure industry plays an indispensable role. Put simply, our 
industry enables wireless communication and applications. Similar to 
roads and bridges, which carry physical traffic, wireless 
infrastructure is the essential platform for digital traffic that 
carries innovative applications like Uber, Instagram, Twitter, and 
YouTube, as well as life-altering broadband services like telemedicine, 
distance learning, improved public safety response, mobile banking, and 
a host of industrial and manufacturing functions. Efficient wireless 
infrastructure buildout will promote innovation and solidify America's 
historical competitiveness in the technology sector, and virtually 
every other sector of the economy.
    Wireless infrastructure enables the economic growth and 
technological innovation that accompanies wireless broadband, including 
the Internet of Things, the app economy, and many future efficiencies 
and commercial opportunities that wireless broadband enables. A PCIA 
study found that private investments in wireless infrastructure between 
2013 and 2017 are expected to generate as much as $1.2 trillion in 
economic growth and create 1.3 million net new jobs--including those 
directly attributable to wireless infrastructure and those created by 
it in other American business enterprises.\1\ Sustaining such 
investments will strengthen America's competitiveness and allow the 
U.S. to remain the leader in wireless innovation and thus in the global 
economy.
---------------------------------------------------------------------------
    \1\ Wireless Broadband Infrastructure: A Catalyst For Gdp And Job 
Growth 2013-2017 (2013), available at http://www.pcia.com/images/
IAE_Infrastructure_and_Economy_Fall_
2013.PDF
---------------------------------------------------------------------------
    This Committee has shown great leadership for its work to eliminate 
a number of barriers to infrastructure deployment. Most critically, 
this Committee's work on Section 6409(a) of the Middle Class Tax Relief 
and Job Creation Act of 2012 has made an enormous difference in 
speeding the deployment of wireless infrastructure. Specifically, 
Section 6409(a) established a new Federal law governing state and local 
review of requests for modification of existing wireless towers or base 
stations, including collocations for additional providers of wireless 
services. The Federal Communications Commission's (FCC) outstanding and 
aggressive implementation of this law grounded Congress' work with a 
clear regulatory framework that we are confident the courts will find 
legally sound. Our members report real progress on the speed, cost, and 
ease of their efforts to deploy 4G networks as a direct result of this 
Committee's work, so we are grateful for your visionary leadership.
    Regarding implementation of Section 6409(a), PCIA, along with 
CTIA--The Wireless Association, has worked in good faith with national 
organizations representing state and local governments to implement the 
law at the suggestion of FCC Commissioner Mignon Clyburn. Over the last 
several months, we have met with the National Association of Counties, 
the National League of Cities, and the National Association of 
Telecommunications Officers and Advisors. We formed a working group 
together that has released several educational resources and 
participated on panels across the country. Together, we have produced 
resource materials for local governments, including (1) a checklist to 
streamline review processes; (2) best practices used by jurisdictions 
able to review and approve applications in less than 60 days; (3) 
webinars and contacts for education and assistance regarding 
application process; and (4) a model ordinance and application. Members 
of the working group posted these on their respective websites. It is 
precisely this kind of cooperation that has enabled significant 
progress toward fulfilling the promise of the legislation Congress 
enacted. I commend these organizations, and my fellow witness Mayor 
Gary Resnick, for their commitment to work together to expedite 
broadband deployment for the citizens of their communities.
Mobile Broadband is the Future of Broadband
    As a variety of reports demonstrate, Americans are quickly moving 
towards mobile broadband as their primary way to access the Internet. 
For example, according to Cisco, last year's mobile data traffic was 
nearly 30 times the size of the entire global Internet in 2000. And 
this trend is expected to continue.\2\ Cisco also reports that U.S. 
mobile data traffic will grow two times faster than U.S. fixed IP 
traffic over the next four years and traffic from wireless and mobile 
devices will exceed traffic from wired devices by 2019.\3\ These 
statistics underscore the need for government policies that reflect the 
growing demand for mobile data and address the challenges of meeting it 
by efficiently deploying wireless infrastructure.
---------------------------------------------------------------------------
    \2\ Cisco Visual Networking Index: Global Mobile Data Traffic 
Forecast Update, 2014-2019 1 (2015), available at http://www.cisco.com/
c/en/us/solutions/collateral/service-provider/visual-networking-index-
vni/white_paper_c11-520862.pdf
    \3\ Cisco Visual Networking Index: Forecast And Methodology, 2014-
2019 2 (2015), available at http://www.cisco.com/c/en/us/solutions/
collateral/service-provider/ip-ngn-ip-next-generation-network/
white_paper_c11-481360.pdf
---------------------------------------------------------------------------
    America is facing an economic and technological challenge, which I 
have termed the wireless data crunch. The wireless data crunch refers 
to the need to meet the nearly insatiable and increasing demand for 
wireless mobile data with the network's capacity to deliver it. The 
demand for wireless data will increase 700 percent over the next five 
years. That's on top of the explosive growth we have already witnessed 
in the last five years. This tremendous growth is both encouraging and 
sobering at the same time. The challenge for the wireless 
infrastructure industry, the telecommunications sector at large, and 
for this Committee is: how are we going to meet this demand? The 
projections should serve as a wake-up call that industry and government 
need to continue to work together to maintain the U.S.'s position as 
the global leader in wireless innovation, as this Committee has long 
recognized.
    To ensure capacity meets consumer demand, we need to build and 
deploy all manner of wireless infrastructure including more traditional 
towers, small cells, distributed antenna systems, and 1Wi-Fi offload. 
This integrated infrastructure ecosystem results in greater spectral 
efficiency. Using spectrum, a finite and limited resource, as 
efficiently as possible, allows more data to flow over existing 
frequencies.
    Network engineers recognize three basic ways to deliver more 
wireless data: (1) additional spectrum, (2) increased technological 
efficiency, and (3) expanded wireless infrastructure. I will briefly 
discuss spectrum and technological efficiency. As PCIA's focus is 
providing the infrastructure that makes mobile devices work, I will 
highlight on this aspect of the delivery of wireless data.
Additional Spectrum
    Clearly, more spectrum must be made available--as much as we can 
get as fast as we can get it. And of course, spectrum is of great 
value. Thanks to the excellent work by members of this Committee, the 
FCC was able to auction 65 MHz of AWS-3 spectrum for over $45 billion. 
Let me put that in context. There were already 550 MHz of spectrum in 
commercial cellular use. Thus, we've just increased the amount by 
around 12 percent. The usefulness of this spectrum is affected by the 
lag time between when the spectrum is auctioned and when it is ready 
for use. This includes the need for the spectrum to actually be 
allocated and cleared, antennas and other infrastructure to be 
upgraded, and a whole generation of handsets to be swapped out. 
Significant amounts of time are needed before these bands begin to 
offload traffic from existing frequencies, and it is not likely to be 
fully phased in for up to five years.
    This Committee and the industry are carefully monitoring the next 
auction--the incentive auction for broadcast spectrum. This auction is 
not slated to begin until next year, and will likely take over five 
years to yield any significant spectral relief. Beyond that, 
significant additional spectrum is not yet in the pipeline. Critical 
efforts are underway to clear unused Federal Government spectrum for 
commercial use, including the commitment by the Obama Administration to 
clear 500 MHz by 2020. Notably, Senator Rubio reintroduced the Wireless 
Innovation Act (S. 1618), which seeks to identify and allocate Federal 
spectrum to commercial use. However, as this Committee is well aware, 
it is extremely complicated, and expensive, to move Federal agencies 
off their current frequencies. Clearing and auctioning Federal spectrum 
is necessary, but it will not help ease the wireless data crunch in the 
very near future. We certainly need more spectrum, and I urge you to 
pursue policies to make more available for commercial use.
Technological Efficiencies
    Technological efficiencies also help ease the wireless data crunch. 
Each new network generation brings with it new technologies, more 
network capacity for data per user, and the potential for better voice 
quality, lower latency and greater data throughput. For example, 4G is 
much more efficient than 3G, allowing for more economic use of 
allocated spectrum, and 4G LTE Advanced is yet more efficient. But even 
as we build out 4G, traffic immediately diverted to these new and more 
efficient data channels--there's lag time here, too, with old 3G and 
even 2G handsets still in use. Carriers can incentivize customers to 
use more efficient handsets, but this also takes time. Industry plans 
to begin field testing 5G as early as next year, but the technology is 
not expected to be introduced in the U.S. until around 2020. 
Technological efficiencies are absolutely critical, and more is needed, 
both on the network layer and on the software and content layer. Again, 
however, technological innovation alone will not enable the wireless 
industry to meet growing consumer demand, even when combined with new 
spectrum projected to come online.
Infrastructure
    As noted, additional spectrum and technological efficiencies are 
necessary tools in the effort to address the data crunch. The third 
critical resource is the rapid deployment of the physical network, the 
infrastructure that supports spectrum and any new technological 
upgrades. This is the primary focus of PCIA.
    The physical wireless infrastructure now being deployed and 
upgraded offers a solution that is already carrying an immediate and 
heavy load to address the wireless data crunch. It consists of major 
investments of private capital that ushers this technology to market. 
With the appropriate regulatory guidance, today's wireless industry can 
better plan for the network of tomorrow. Too often, misunderstandings 
and misrepresentations about wireless infrastructure can stall the 
deployment of these life-changing technologies. Wireless infrastructure 
has the power to transform a city in economic decline into an 
innovation hub. It can breathe new life into aging commercial zones, 
and provide rural areas the ability to compete in the innovation 
economy.
    Today, there are an abundance of choices available to network 
planners. The traditional tall towers effectively provide most of the 
coverage and capacity necessary. The industry is also deploying 
distributed antennas systems and small cells to fill the gaps or 
overlay capacity in high traffic markets. Further, the networks 
themselves are getting smarter. Self-optimizing networks and the 
combination of intelligent software and hardware design allows a 
network to anticipate usage and provide greater resources to areas of 
need in real time, providing users with responsive service. Wi-Fi 
continues to play an important role in this system, offloading traffic 
to the wired network and providing greater headroom for cellular 
services.
    The densification of wireless infrastructure plays a critical role 
in meeting wireless data demand. In fact, infrastructure appears poised 
to play the largest role of any of the available solutions in the next 
five years, and perhaps more, to address the wireless data crunch. 
Spectrum and network densification are fungible--roughly speaking, 
doubling the amount of spectrum in an area could provide a similar 
boost to network capacity as doubling the number of cell sites. The 
availability of network densification as an alternative to spectrum 
purchases puts a cap on the cost of spectrum--and carriers regularly 
weigh them against one another. The mobile carriers paid high prices 
for spectrum in the AWS-3 auction, which is understandable because this 
could be one of the only available opportunities for significant new 
spectrum in the near future other than the 600 MHz auction. Today's 
infrastructure will provide the foundation upon which the wireless 
industry will deliver the Internet of Things, 5G, and the applications, 
services, and jobs that will fuel the U.S. economy into the future.
Broadband Opportunity Council
    Earlier this year, President Obama created the Broadband 
Opportunity Council to focus on increasing broadband investment and 
adoption. The Council is co-chaired by Department of Commerce Secretary 
Penny Pritzker, working with the National Telecommunications and 
Information Agency (NTIA), and Department of Agriculture Secretary Tom 
Vilsack, working with the Rural Utilities Service (RUS), where I was 
previously Administrator. It includes over twenty-five different 
government agencies, united around clear policy objectives, including 
identifying regulatory barriers impeding broadband deployment.
    On September 21, the White House released a formal report that 
included recommendations to improve broadband across the country. The 
Council recommended that Federal agencies should further streamline 
access to Federal lands, structures and rights of way in order to help 
speed broadband deployment nationwide. The report also notes that there 
is significant room for improvement in local and state government 
practices. Local and state regulations, the report points out, cannot 
be addressed through executive action, but the Federal Government can 
encourage best practices. The Council has also sought to create an 
online inventory of data on Federal assets, and maintain the points of 
contact tasked with overseeing broadband buildout. Faster and more 
efficient broadband deployment is the goal. Nevertheless, as the report 
notes, many of the recommendations provided by commenters require 
congressional action. This report provides clear recognition of the 
crucial role Congress plays in taking broadband deployment forward.
Congress' Role in Encou raging Br oadband Deployment
    Wireless infrastructure is the backbone of all wireless voice and 
data communications. The industry is constantly innovating with new 
wireless technologies. Without sound regulations and policy at the 
local, state, and Federal levels, the innovation and competitiveness of 
the wireless industry will suffer. Even with all the positive strides 
in broadband deployment over the past five years, there remain a number 
of barriers to broadband deployment for Congress to address.
    We've seen how misinterpretations of congressional intent can cause 
delays in broadband deployment. Too often, local jurisdictions have 
denied siting applications without full reasoning and accountability as 
required by the Telecommunications Act of 1996 (Telecom Act). This left 
capital tied up and broadband projects languishing or abandoned. It 
took action by the Supreme Court in T-Mobile v. Roswell to help resolve 
one roadblock. In January, the Supreme Court agreed with our assessment 
that the Telecom Act requires localities to provide clear, written 
reasons when applications to build wireless facilities are denied. The 
Court sided with industry and found that wireless providers must be 
informed in a clear-cut and timely manner. We were pleased with this 
ruling, but we should not have to petition the highest court in the 
land to resolve these types of delays in the name of broadband buildout 
and all that it enables.
    One suggestion for Congress to consider that would alleviate 
roadblocks to wireless siting at the local level would be removing 
requirements that a provider demonstrate ``proof-of-need'' or show a 
``gap-in-service'' when siting a wireless facility. Proof-of-need is 
used as a barrier to building new facilities because it is simple to 
reject an application based on a local government's subjective 
evaluation that the applicant failed to sufficiently demonstrate that a 
facility serves a purpose. Moreover, varied judicial interpretations of 
Sections 332 and 253 of the Telecom Act allow a jurisdiction to deny an 
application on the basis that ``sufficient'' wireless coverage already 
exists in the area. The test is extremely subjective in practice, makes 
it more difficult to site wireless facilities, and thereby slowing 
broadband deployment and preventing wireless facilities from 
alleviating data capacity constraints. As the need to meet consumer 
demand moves from coverage to capacity, communities are not well 
positioned to second-guess costly investment decisions that are guided 
by experienced radio frequency engineers to improve customer service. 
In many cases, such obstruction can undercut service to the very 
citizens local governments are elected to serve.
    Another way Congress can encourage investment in broadband 
deployment is by maintaining an appropriate regime for the tax 
treatment of Real Estate Investment Trusts (REITs). Long-standing tax 
policies, established in the 1960s, and IRS guidance, have always held 
that communications towers have been considered real estate for REIT 
qualification purposes. Transmission tower companies lease vertical 
real estate--communications towers and the land beneath it--to multiple 
tenants. Tenants own the equipment and lease space on the towers 
generally over a long period of time. Transmission tower companies 
eliminate the need for each tenant to construct its own towers, which 
prevents overcrowding neighborhoods and communities with multiple 
towers. This model enhances competition in the wireless industry by 
lowering costs for mobile wireless service providers and other tenants 
to enter new markets. Transmission tower companies allow these 
competitors to operate without having to raise capital to build their 
own tower networks.
    Today, the properties of tower companies play a critical role in 
broadband deployment. Continued buildout of towers is essential to 
meeting the demand for wireless data, and the current REIT structure 
promotes this necessary capital investment. As the National Association 
of Real Estate Investment Trust (NAREIT) stated in its April 2015 
submission to the Senate Finance Committee, ``Today, investment through 
and by tower REITs is one way the national demand for real estate 
specialized to meet the needs of mobile phone providers and users is 
met.''
    Congress can also encourage broadband deployment by enacting 
bipartisan legislation to promote an open Internet. Only congressional 
action can give the certainty for broadband providers looking to 
invest. As Congress looks to enact open Internet legislation, it should 
provide the FCC the necessary legal authority to map out clear rules of 
the road for broadband providers while encouraging investment in 
broadband networks.
    Another barrier to broadband deployment is the byzantine process of 
siting wireless broadband infrastructure on Federal lands. This 
Committee on a bipartisan basis has expressed interest in this issue 
and we appreciate your leadership. The Federal Government owns or 
administers nearly thirty percent of all land in the U.S., as well as 
thousands of buildings. Broadband providers currently face significant 
challenges when working to secure access to Federal lands and 
buildings. Deploying wireless infrastructure on these properties is 
absolutely critical for public safety and economic development. 
Wireless facilities can be sited on Federal property in an 
environmentally responsible way that is sensitive to areas historic 
significance.
    Predictability and consistency are vital to network planning and 
investment in any arena, but this need is amplified when deploying 
broadband on Federal property, which often requires burdensome 
interagency review and coordination. PCIA is actively working with 
agencies across the Federal Government, Congress, and the White House 
to find ways to expedite the siting process. In 2012, Congress, with 
the leadership of this Committee, put forward a framework to make it 
easier to site communications facilities on Federal lands and 
properties through standard applications and agreements. Also in 2012, 
President Obama issued Executive Order 13616 to promote infrastructure 
buildout on Federal lands and created a cross-agency working group 
charged with meeting the mandate of speeding deployment on Federal 
lands and properties.
    Unfortunately, even with an Executive Order and direction from 
Congress, the process to site wireless infrastructure on Federal lands 
has not sufficiently improved. Further legislation will spur agencies 
to work with the industry to bring broadband service to difficult-to-
reach Federal lands and Federal buildings. As such, PCIA supports the 
Wireless Innovation Act (S. 1618) to address this very issue. By 
facilitating access, the Federal Government can increase revenues 
through lease payments to the Treasury while at the same time improving 
broadband access for its citizens. Better access to Federal lands and 
property will also help increase broadband availability in rural areas. 
The importance of expanding rural broadband is clear. Many of the lands 
and properties that would benefit from streamlined siting are by 
definition rural. We look forward to continuing to work with both 
chambers on legislation to streamline and expedite the process of 
siting broadband infrastructure on Federal property.
    As our member John Deere has indicated in its testimony, along with 
work on Federal lands, it is important for the public and private 
sector to work together to ensure that buildout can accelerate in Rural 
America. One critical mechanism is the loans provided by the Rural 
Utilities Service for broadband buildout. These loans are repaid with a 
significant portion of funding from the Universal Service Fund (USF). 
For these funds to meet their intended purpose there must be a 
predictable level of support to the USF so that loan recipients can 
plan, borrow, and invest in infrastructure. Lastly, the Connect America 
Fund (CAF) is a sustainable cost-recovery mechanism for rural areas 
where subscriber densities are too low to motivate providers to build 
infrastructure and offer service. CAF's wireless component, the 
Mobility Fund, is targeted at the expansion of mobile broadband 
networks. We think these programs will go a long way to accelerate the 
deployment of wireless broadband in rural communities.
    Similarly, more work is needed to provide connectivity to native 
nations so that these communities can take advantage of the benefits 
that broadband provides. PCIA has long worked with tribal leaders and 
communities to promote their access wireless broadband, including 
commenting in various dockets related to historic preservation and 
environmental protection. PCIA has also participated in the FCC's 
annual workshops on this topic, providing a platform for information 
exchange between industry and those representing native nations to 
better understand the cultural differences and shared experiences. In 
the spirit of collaboration, PCIA would urge a reexamination of certain 
tower siting processes at the FCC, whereby, for example, an application 
to site communications facilities in downtown Chicago triggers a full-
day review and fees associated with a tribe many miles away. Our 
industry understands the critical nature of sovereignty and respects 
the value of protecting sensitive historic sites. Still, there must be 
a more efficient and rational approach that is more appropriately 
targeted so that we may all benefit from a stronger network.
    Both state and Federal policies require pole attachment rules that 
promote the deployment of broadband access and the new technologies 
that enable it, while providing fair treatment for pole owners. Among 
other things, Congress added ``provider[s] of telecommunications 
services[s]'' to the category of attachers entitled to pole attachments 
at just and reasonable rates, terms and conditions under Section 224 of 
the Telecom Act. This Section has been modernized through action by the 
FCC, which has helped to provide greater access to poles for wireless 
attachers, shortened timelines for make-ready and other work, and 
established rates in greater harmony with other like attachments. 
However, many jurisdictions have been slow to adopt the FCC's 
standards. In these states, the telecommunications industry must re-
legislate and re-litigate the efforts taken before the FCC. Greater 
national certainty and clarity with respect to the rights of wireless 
attachers in these jurisdictions would spur further broadband 
deployment.
    Last, Members of this Committee have been working on legislation to 
require that broadband conduits be installed as a part of certain 
highway construction projects, also known as ``dig once.'' This 
initiative would help facilitate broadband infrastructure deployment 
and reduce duplicative Federal reviews for work at the same location. 
PCIA looks forward to working with the Committee on this legislation.
Conclusion
    The wireless infrastructure industry faces a number of legal and 
regulatory hurdles that slow investment and deployment. By providing 
certainty and lowering some of the barriers noted above, Congress can 
play a constructive role in ensuring broadband to all Americans. In 
closing, there are number of specific steps Congress can take to 
encourage broadband deployment. This Committee should look to remove 
requirements that a provider demonstrate ``proof-of-need'' or show a 
``gap-in-service'' when siting a wireless facility. Next, Congress 
should look to expedite and streamline the process for citing wireless 
broadband infrastructure on Federal lands. In addition, ensuring that 
the current REIT structure that dates back to the 1960s is maintained 
is another way Congress can increase deployment. Further, harmonizing 
rates and providing greater national clarity on pole attachments would 
promote deployment as well. And finally, installing broadband conduits 
as a part of certain highway construction projects would reduce 
duplicative Federal reviews for broadband deployment.
    Wireless broadband helps drive America's innovation economy and 
fuels the Nation's economic future. The U.S. has always been the global 
leader in wireless broadband innovation, and private investment in 
wireless infrastructure is a big the reason why. Continuing to upgrade 
America's wireless infrastructure is a necessary component of 
connecting more Americans with broadband.
    The mobile broadband revolution holds incredible promise for 
economic growth, job creation, public safety, education, healthcare and 
many other benefits. At the same time, there are warning signs on the 
road ahead. Our industry is determined to meet consumer demand, even as 
it rises swiftly. That is capital intensive, costly and operationally 
demanding. We need policies that allow that allow us to invest that 
capital efficiently, and to target areas that need additional coverage 
and capacity. To maximize the promise of wireless broadband for 
economic growth, job creation and technological innovation, 
infrastructure builders need the capital to invest--and we need 
regulators and Congress to help, as this Committee has long realized 
and as the purpose of this hearing recognizes. We are deeply grateful 
for the bipartisan recognition of the importance of infrastructure by 
this Committee, by Congress, by the FCC and the Administration. All 
have implemented policies to promote wireless broadband deployment, and 
all are working to build on recent successes.
    Thank you again Chairman Thune and Ranking Member Nelson for 
holding this hearing and inviting me to testify. I look forward to 
continuing to work with you and the rest of the Committee to continue 
to make progress on these very important issues.

    The Chairman. Thank you, Mr. Adelstein.
    And we move now to distinguished mayor. Mayor Resnick, 
please proceed with your remarks.

            STATEMENT OF HON. GARY RESNICK, MAYOR, 
                     WILTON MANORS, FLORIDA

    Mr. Resnick. Thank you. Good morning, Chairman Thune, 
Ranking Member Nelson, and members of the Committee.
    I am Gary Resnick, Mayor of the City of Wilton Manors, 
Florida, and long-term member of the National League of Cities 
and the National Association of Telecommunications Officers and 
Advisors. The cities and towns in your states are very likely 
members of NLC and NATOA. I also have the privilege of serving 
as chair of the Intergovernmental Advisory Committee of the 
Federal Communications Commission. In addition, my background 
as an attorney with the Florida firm of Gray Robinson, 
representing businesses and local governments for over 20 years 
in connection with communications issues, and my role as mayor, 
has allowed me to work effectively with public and private 
entities and local citizens to improve wireless communications.
    I want to thank the Committee for calling attention to the 
importance of wireless communications services by holding this 
hearing, and I appreciate the opportunity to provide the unique 
perspective of local governments in our role in ensuring our 
communities have access to wireless broadband services.
    No one wants broadband deployment and competitive choice 
more than local governments. We are not only regulators of the 
deployment of this infrastructure, we are large consumers of 
these services, and often local governments are providers of 
broadband services. For years, communities across the country 
have taken innovative steps to increase the deployment of 
critical infrastructure, including towers, carefully balancing 
the health, safety, and welfare concerns of our residents and 
communities. The recent tragedy in Oregon and events in the 
Carolinas are just the latest examples demonstrating the 
importance for local governments and our first responders to 
have reliable access to vital wireless communications and 
broadband services.
    While various stakeholders' approaches to increasing 
wireless broadband may differ, all of us have the same goal: to 
ensure that all Americans have affordable access to advanced 
broadband services. Our need for additional broadband 
deployments must be balanced with the critical need for local 
governments to maintain reasonable control and authority over 
the placement of these facilities in our communities. Federal 
policies must respect our ability as local officials to manage 
public rights-of-way as well as land uses on public and private 
properties. Disruption to neighborhoods, open spaces, streets, 
sidewalks, and business can have a negative impact on public 
safety and industry as well as on the sustainability of our 
communities.
    The vast majority of projects in our communities are 
reviewed and deployed in a timely manner, respecting both the 
needs of providers and tower owners and also the desires of the 
communities they serve. In fact, many communities with industry 
input have taken steps to streamline their siting practices in 
an effort to provide certainty in the permitting and zoning 
processes. Any assertion that most local governments are 
barriers to wireless infrastructure deployment is simply wrong. 
As mayor, I know firsthand how vitally important communications 
services are to our first-responder, police, and fire 
personnel, the vast majority of whom are local government 
employees.
    In 2009, the FCC adopted a declaratory ruling establishing 
time frames within which local governments must act on tower-
siting applications. Prior to that FCC action, the Florida 
legislature adopted similar time frames for local government 
action. To date, these time frames have worked well in my state 
and throughout the country. In a related facility siting report 
and order adopted in 2014, the FCC declined to adopt an 
additional remedy in the event that time frames were not being 
met, in large part because of a finding that the existing rules 
were working well. In its 2014 wireless broadband facilities 
order, the FCC recognized the vital role that local governments 
play in bringing advanced communication services to all 
Americans. The FCC did so in a way to preserve local land-use 
authority, protect camouflage and concealment measures, and 
allow local communities to protect aesthetic and safety 
interests.
    In conjunction with the 2014 order, NLC, NATOA, and the 
National Association of Counties worked cooperatively with CTIA 
and PCIA on educational initiatives and materials that provide 
communities with resources to encourage increased broadband 
deployment. Cooperation between local governments and industry 
is evident by the sheer number of sites deployed to date.
    There may be instances where deployment does not occur as 
quickly as either industry or local governments would like. If 
there are delays to deployment, it should be understood that 
we, as local leaders, are managing a variety of infrastructure 
needs, just as the industry is managing a variety of issues. It 
would not be productive for the legislative process to portray 
each other as obstacles to wireless broadband deployment. 
Reaching consensus, which is the mainstay of the government 
process at the local level, would be most effective. We look 
forward to continuing our demonstrated effective working 
relationship with the wireless industry and our Federal 
colleagues using a collaborative approach to promote broadband 
deployment in a manner that respects the legitimate interests 
of all interested parties.
    Billions of dollars are being invested in broadband 
projects through various Federal programs. Local governments, 
the government closest to the people and most accountable to 
our joint constituents, want to see these investments succeed. 
We will continue to play an important role in helping to ensure 
that these initiatives are deployed in a timely and efficient 
manner while protecting the unique needs and interests of the 
communities they seek to serve.
    Again, on behalf of NLC and NATOA and local governments, I 
would like to thank the Committee for inviting me to 
participate in this hearing today. I urge you to view local 
governments as strong partners in ensuring that affordable 
broadband services are available to all Americans.
    Thank you again, and I look forward to any questions you 
may have.
    And I want to just acknowledge the presence here today of 
many of my colleague city officials from Florida, and 
appreciate their support in coming to this hearing.
    Thank you.
    [The prepared statement of Mr. Resnick follows:]

 Prepared Statement of Hon. Gary Resnick, Mayor, Wilton Manors, Florida
    Good morning, Chairman Thune, Ranking Member Nelson and Members of 
the Committee. I am Gary Resnick, Mayor of Wilton Manors, Florida and 
long-term member of the National League of Cities (NLC) and the 
National Association of Telecommunications Officers and Advisors 
(NATOA). The National League of Cities is the Nation's largest and most 
representative membership and advocacy organization for city officials, 
comprised of more than 19,000 cities, towns, and villages representing 
more than 218 million Americans. The National Association of 
Telecommunications Officers and Advisors is the premier local 
government professional association that provides support to its 
members on the many local, state, and Federal communications laws, 
administrative rulings, judicial decisions, and technology issues 
impacting the interests of local governments. The cities and towns in 
your states are very likely members of NLC and NATOA.
    I also serve as Chair of the Intergovernmental Advisory Committee 
(IAC) of the Federal Communications Commission (FCC). The IAC provides 
guidance to the FCC on a broad range of issues of importance to state, 
local and tribal governments including cable and local franchising, 
public rights-of-way, facilities siting, universal service, broadband 
access, barriers to competitive entry, and public safety 
communications. My background as an attorney with the Florida firm of 
GrayRobinson, representing businesses and local governments for over 20 
years in connection with such communications issues, and my role as 
Mayor, has allowed me to work effectively with public and private 
entities, and local citizens, focused on improving wireless 
communications.
    I want to thank the Committee for calling attention to the 
importance of wireless communications services by holding this hearing 
and appreciate the opportunity to provide the unique perspective of 
local governments and our role in ensuring our communities have access 
to wireless broadband services. No one wants broadband deployment and 
competitive choice more than local governments. We are not only 
regulators of the deployment of these services for the benefit of our 
residents, we are large consumers of these services and often local 
governments are providers of broadband services. For years, communities 
across the country have taken innovative steps to increase the 
deployment of critical infrastructure--including towers--carefully 
balancing the health, safety and welfare concerns of our residents and 
communities.
    The recent tragedy in Oregon and the preparations for Hurricane 
Joaquin are just the latest examples demonstrating the importance of 
local governments and our first responders having reliable access to 
vital wireless communications and broadband services.
Role of Local Governments in Increasing Wireless Broadband
    While various stakeholders' approaches to increasing wireless 
broadband may differ, it is safe to conclude that all of us have the 
same goals--to ensure that all Americans have universal, affordable 
access to advanced broadband services and that deployment occurs as 
efficiently as possible without compromising the public's health and 
safety. It is undeniable that the growing demand for wireless broadband 
services, coupled with the growing use of personal wireless devices, 
requires the deployment of additional infrastructure. Increased access 
and better wireless broadband services bring a wealth of benefits to 
America's municipalities and counties, including increased economic 
development and job creation, enhanced public safety, telemedicine, 
distance learning, and improved civic engagement.
    Our need for additional broadband deployments must be balanced with 
the absolute need for local governments to maintain reasonable control 
and authority over the placement of these facilities in our 
communities. Because of our responsibility as local leaders to protect 
the health, safety, and welfare of our residents, Federal policies must 
respect our ability as local officials to manage public rights-of-way 
as well as land uses on private and public property. Disruption to 
neighborhoods, open spaces, streets, sidewalks, and businesses can have 
a negative impact on public safety and industry, as well as the 
sustainability of our communities. As such, local governments have, and 
must maintain, authority to regulate land use, zoning and access to 
public rights-of-way.
Not a Barrier to Deployment
    Local governments believe that the vast majority of projects in our 
communities are reviewed and deployed in a timely manner, respecting 
both the needs of providers and tower owners, and also the desires of 
the communities they serve. In fact, many communities, with industry 
input, have taken steps to streamline their siting practices in an 
effort to provide certainty in the permitting and zoning processes. 
Many communities have enacted ordinances that express a preference for 
collocations and encourage such siting requests by limiting government 
review solely to a staff process. Any assertion that most local 
governments are barriers to wireless infrastructure deployment is 
simply wrong. As Mayor, I know firsthand how vitally important 
communications services are to our first responder police and fire 
personnel--the vast majority of whom are local government employees. 
Additionally, wireless broadband is critical for the economic and 
social welfare of our residents, educational institutions, libraries, 
and businesses and we strive to ensure they have affordable, reliable 
access to these services.
    In 2009, the Federal Communications Commission adopted a 
declaratory ruling establishing time frames within which local 
communities must act on tower siting applications. Prior to that FCC 
action, the Florida Legislature adopted similar time frames for such 
local government action. To date, the time frames have worked well in 
my state and throughout the country. In a related facilities siting 
Report and Order adopted in 2014, the Commission declined to adopt an 
additional remedy in the event the time frames were not met, in large 
part because of a finding that the existing rules are working well.
    Furthermore, in its 2014 wireless broadband facilities siting 
order, the FCC recognized the vital role that local governments play in 
bringing advanced communications services to all Americans. While 
taking steps to eliminate what it viewed as unnecessary review 
procedures with respect to small-sized wireless broadband facilities on 
existing structures, the FCC did so in a way to preserve local land use 
authority, protect camouflage and concealment measures, and allow local 
communities to protect aesthetic and safety interests.
    In conjunction with the 2014 order, NLC, NATOA, and the National 
Association of Counties worked cooperatively with CTIA and PCIA on 
educational initiatives and materials that provide communities with 
resources to encourage increased broadband deployment and choice for 
our residents and businesses, consistent with the new Federal rules. We 
are eager to work with all stakeholders. Proof of cooperation between 
local governments and industry is evident by the sheer number of sites 
deployed to date.
    There may be instances where deployment does not occur as quickly 
as industry or local governments would like. We understand that the 
wireless industry is undergoing many changes and has many pressures 
that may delay deployment of infrastructure. Similarly, wireless 
infrastructure is just one of the many responsibilities that fall on 
the shoulders of local governments. If there are delays to deployment, 
it should be understood that we, as local leaders, are managing a 
variety of infrastructure needs, just as the industry is managing a 
variety of issues. It would not be productive for the legislative 
process to portray each other as obstacles to wireless broadband 
deployment. Reaching consensus, which is the mainstay of the government 
process at the local level, would be most effective. We look forward to 
continuing our demonstrated effective working relationship with the 
wireless industry and our Federal colleagues using a collaborative 
approach to promote deployment in a manner that respects the legitimate 
interests of all interested parties.
FirstNet
    Public and private stakeholders are working collaboratively to 
deploy a new nationwide, interoperable, wireless broadband network for 
public safety communications (``FirstNet'') to serve both urban and 
rural America within the next several years. As a result, challenges to 
timely wireless deployment may increase. However, let there be no 
mistake--local governments actively encourage and want the deployment 
of this new network and will strive to ensure it is built in a timely 
manner.
    Any assertion that local governments would act in any manner to 
delay the deployment of FirstNet ignores the long-established role that 
local governments play in providing public safety communications and 
protecting life and property.
Conclusion
    Billions of dollars are being invested in broadband projects 
through various Federal programs, such as the Connect America Fund and 
E-Rate, with much of it in rural parts of our country. Local 
governments--the government closest to the people and most accountable 
to our joint constituents- want to see these investments succeed. We 
fully recognize that local governments will play an important role in 
helping to ensure that these initiatives are deployed in a timely and 
efficient manner, while protecting the unique needs and interests of 
the communities they seek to serve.
    On behalf of NLC and NATOA, I want to thank the Committee for 
inviting me to participate in this hearing today. I offer the ongoing 
assistance of local governments as you examine ways to increase 
broadband deployment across our Nation. I urge you to view local 
governments as strong partners in ensuring that broadband services are 
available to all Americans.
    Thank you again. I look forward to any questions you might have.

    The Chairman. Thank you, Mayor. It's nice to have mayors 
and local officials here, because they're actually people who 
have power to get things done.
    [Laughter.]
    The Chairman. So, next up, Mr. Reed.

 STATEMENT OF CORY J. REED, SENIOR VICE PRESIDENT, INTELLIGENT 
                   SOLUTIONS, DEERE & COMPANY

    Mr. Reed. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, good morning. My name is Cory Reed, 
and I'm the Senior Vice President for Intelligent Solutions at 
John Deere. That's the precision ag business at John Deere. 
Thank you for the opportunity to testify today.
    John Deere is a global manufacturer and provider of 
agriculture, construction, turf, and forestry equipment and 
services. We serve customers around the world who cultivate, 
harvest, and build upon the land to meet the growing need for 
food, fuel, fiber, and infrastructure. Deere has been providing 
innovative equipment and services to serve these customers 
since 1837. Today, Deere is pioneering state-of-the-art data 
and information solutions designed to greatly enhance 
productivity and sustainability.
    This topic is of central importance to the vitality of 
rural America, and, in particular, the U.S. agricultural 
sector. Despite the remarkable growth and innovation in 
broadband technologies nationwide, too many rural communities 
today lag behind in access to those technologies and the 
benefits that they bring. John Deere is acutely aware of this 
gap and the challenges it presents for agriculture.
    The modern economics of farming have transformed production 
agriculture into a technology-driven sector increasingly 
dependent on access to broadband. The Internet of Things in 
rural America includes not only smart meters and appliances, 
but also smart tractors, combines, and production systems. In 
fact, the rapid adoption of data-driven technologies and 
services across the ag economy today is as transformational as 
was the introduction of mechanization to farming nearly 100 
years ago.
    With this in mind, I'd like to share five specific ideas 
that Deere believes can close the gaps between those that have 
access to broadband and those that do not:
    First, rural broadband programs must make deployment in 
agricultural areas a priority to address the needs of U.S. 
farmers and rural communities. Farmers are compelled by long-
term demand trends to achieve and sustain unprecedented high 
levels of productivity by increasing yields and managing input 
costs with finite amounts of land and water. And the stakes for 
the future of the U.S. ag sector are high. As you know, rural 
populations have declined over the last several years, and 
rural economic growth has lagged the country as a whole. These 
pressures in rural America are felt in the ag economy, as well. 
But, we also know that increased agricultural productivity 
arising from technology innovation and adoption can help 
revitalize these same rural communities.
    Second, broadband deployment policies must include mobile 
as well as fixed services. Wherever possible, farmers are using 
precision agriculture technologies, including GPS-enabled 
technologies, that depend on high-speed wireless broadband to 
communicate with customers and vendors to obtain realtime 
information on field conditions, weather, and other 
environmental factors, to follow commodity markets, and to 
manage fleets. New technologies enable more prescriptive use of 
soils, water, fertilizer, herbicides, and fuel. They allow 
farming practices and applications to be tailored to the 
specific conditions of an individual field. With access to 
mobile broadband services, farmers can employ innovative 
machine-to-machine operations in the field and machine-to-farm 
communications from the field, and achieve significant 
improvements in productivity and cost management.
    Mobile broadband services are essential to broadband 
deployment in rural areas where infrastructure, land 
acquisition, and right-of-way cost to serve large areas can be 
high, and the potential subscriber population can be small 
relative to urban and suburban areas. To enable realtime 
sharing of data and communications, including machine-to-
machine and machine-to-field interactions, precision 
agriculture requires access to both reliable wireless and 
wireline broadband services. However, today's reality is that 
access to mobile and fixed broadband coverage in the fields 
where ag equipment operates falls short of what's needed and 
will be needed. For these reasons, Deere supports the retention 
and expansion of the FCC's Mobility Fund and other funding 
sources, as well as infrastructure policies and rules aimed at 
supporting expansion of rural mobile services.
    Third, Federal policies and programs should assess 
broadband coverage goals based on geographic area and 
functional use, including deployment in active croplands. Deere 
believes Federal agencies should review broadband availability 
through an expanded lens, one that incorporates a geographic 
and functional-use metric aimed at advancing deployment to 
commercial and economic activities where access has fallen 
behind. Historically, FCC, NTIA, and USDA funding programs 
supporting broadband deployment have focused on last-mile 
connections to residential consumers and anchor institutions. 
Cropland areas where farming is done have lagged behind in 
adequate mobile coverage. To address this gap, the metric of 
broadband access in active croplands and farm buildings should 
be considered in identifying areas of need. Cropland coverage 
can be assessed using USDA's GIS data for crop operations, the 
U.S. Geological Service's Land-Use Classification, or other 
data bases. Given their economic and commercial importance to 
rural communities, farming operations should receive priority 
in implementing rural broadband support, and should be 
considered anchor institutions for purposes of existing support 
programs.
    Fourth, broadband deployment funding programs need to be 
updated and expanded. Deere endorses the expansion of the 
Universal Service Fund to include backhaul capacity and a 
variety of middle-mile projects. Effective rural broadband 
services require backhaul capacity to keep up with expanding 
broadband demand. Further, all providers should be eligible to 
receive support for middle-mile facilities that support 
wireline backhaul for mobile broadband, not just for middle-
mile facilities that support wired last-mile connections.
    Finally, infrastructure policies should be evaluated to 
promote rural and agricultural access to broadband. Deere 
supports efforts to promote the expansion of the infrastructure 
necessary for wireless broadband deployment in rural and 
agricultural areas. In particular, we would encourage actions 
to streamline procedures for siting wireless towers and 
infrastructure and installing conduit. We must ensure that all 
unnecessary barriers are removed.
    In conclusion, let me reiterate that the future of our 
rural communities is closely linked to the strength of American 
agriculture. That future in an increasingly technology-
dependent global environment will be determined by whether 
agricultural operations have full access to advanced wireless 
services, including high-speed wireless broadband.
    Again, thank you for the opportunity to share Deere's 
perspective on this critically important topic, and I look 
forward to your questions.
    [The prepared statement of Mr. Reed follows:]

Prepared Statement of Cory J. Reed, Senior Vice President, Intelligent 
                       Solutions, Deere & Company
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for holding this important hearing and for the 
opportunity to testify today on behalf of Deere & Company. John Deere 
is a global leader in the manufacture of agricultural, construction, 
turf and forestry equipment. Deere provides advanced agricultural and 
other equipment and services to customers that cultivate, harvest, 
transform, enrich and build upon the land to meet the world's 
dramatically increasing need for food, fuel, fiber and infrastructure. 
Deere has been providing innovative equipment and services to customers 
since 1837, and today, is pioneering state-of-the-art data and 
information solutions designed to greatly enhance productivity and 
sustainability.
    This topic is of central importance to the economic vitality of the 
Nation's rural communities, generally, and to the agricultural sector, 
in particular. Today, access to mobile broadband services is an 
essential component of a healthy and growing national economy. Rapid 
developments in broadband technology have not only opened unprecedented 
opportunities for economic activity, but also for education, health 
care services and cultural development. Despite the remarkable 
nationwide growth and innovation in broadband and advanced 
technologies, however, too many rural communities in the United States 
lag significantly behind in access to those technologies and the 
extraordinary benefits that they can bring.
    We at John Deere are acutely aware of this technology gap and the 
special difficulties it presents for the agricultural sector. The 
challenging economics of farming and the need to meet long-term demand 
have transformed agriculture in the U.S. and many other countries into 
a technology-driven sector increasingly dependent on access to 
broadband. The ``Internet of Things'' in rural America includes not 
only smart meters and smart appliances, but also smart tractors, 
combines, and production systems. In fact, the rapid adoption of 
information technologies and services across the agricultural economy 
today is no less significant than was the introduction of mechanization 
to farming almost 100 years ago.
    Deere greatly appreciates this opportunity to discuss with the 
Committee the urgent need that we see for actions that will promote 
rapid deployment of broadband facilities and services in the 
agricultural sector. I am pleased to share several recommendations for 
steps that can be taken to bridge the gaps between those that have 
access to broadband and those that do not.
Rural Broadband Programs Must Make Deployment in Agricultural Areas a 
        Priority to Address the Expanding Needs of American Farmers and 
        Rural Communities
    Megatrends in the today's global agricultural sector make 
accelerated deployment of expanded broadband systems and services 
critical. Farmers are compelled by long-term demand to sustain 
unprecedented high levels of productivity by carefully managing costs 
while increasing yields from a finite amount of land. World population 
is projected to climb from approximately 7 billion today to more than 9 
billion by 2050. This means that every hour, there are an additional 
9,000 new mouths to feed globally, which equates to roughly enough new 
people to fill Washington Nationals Park more than five times each and 
every day. As incomes around the world rise, animal protein becomes a 
larger component of average diets. This, in turn, generates greater 
demand for grains. In most of the world there is a rising trend in farm 
sizes, scale and specialization as economies develop. Environmental 
sustainability and compliance is a growing challenge, and the supply of 
skilled labor for agriculture is not enough to meet the demand.
    The stakes for the future of the Ag sector are high. Agriculture 
and agriculture-related industries contributed $789 billion to the U.S. 
gross domestic product (GDP) in 2013, a 4.7-percent share.\1\ The 
agricultural economy extends to a wide range of other sectors that 
contribute added value to the economy. In 2013, 16.9 million full-and 
part-time jobs were related to agriculture--about 9.2 percent of total 
U.S. employment. Direct on-farm employment provided over 2.6 million of 
these jobs. Employment in related industries supported another 14.2 
million jobs.\2\
---------------------------------------------------------------------------
    \1\ See USDA, Ag and Food Sectors and the Economy, available at: 
http://www.ers.usda.gov/data-products/ag-and-food-statistics-charting-
the-essentials/ag-and-food-sectors-and-the-economy.aspx.
    \2\ See id.
---------------------------------------------------------------------------
    While the U.S. economy is now in its sixth year of recovery from 
recession, it remains fragile in some aspects, especially in rural 
areas. Urban employment now exceeds pre-recession levels but rural 
employment persists at levels well below its 2007 peak.\3\ Rural 
populations have declined over the last several years, and 779 rural 
counties continued to lose jobs in 2014.\4\ The population, economic 
and employment pressures in rural America continue to affect the 
agricultural sector. Between 2007 and 2012, the number of U.S. farms 
decreased by 4.3 percent.\5\ One important bright spot in today's rural 
areas is increased productivity, arising from technology innovation and 
adoption that has fueled growth in U.S. agriculture.\6\
---------------------------------------------------------------------------
    \3\ See USDA, Rural America at a Glance, 2014, at 1, available at: 
http://www.ers.usda.gov/media/1697681/eb26.pdf.
    \4\ See id. at 1.
    \5\ See USDA, Preliminary Report Highlights, U.S. Farms and Farmers 
(Feb. 2014), available at: http://www.agcensus.usda.gov/Publications/
2012/Preliminary_Report/Highlights.pdf.
    \6\ See USDA, Agricultural Productivity, available at: http://
www.ers.usda.gov/topics/farm-economy/agricultural-productivity.aspx.
---------------------------------------------------------------------------
II. Broadband Deployment Policies Must Include Mobile, as Well as Fixed 
        Services
    The impacts of these megatrends are an everyday reality for 
American farmers who face constant pressure to improve efficiency, 
environmental stewardship, and output. For this purpose, farmers look 
to advanced smart farming technology solutions, including solutions 
that take advantage of mobile and fixed broadband access. Today, 
producers are able to farm to within a few centimeters of accuracy 
thanks to innovative GPS-enabled positioning systems that are now 
standard on virtually all modern farming equipment, as supplemented 
with data available from satellite signals. Using these high precision 
techniques, advanced agricultural equipment and services now include 
technology that provides real-time agronomic data that can be analyzed 
to optimize the precise amount of seed, fertilizer and pesticides 
needed, reduce costs for fuel, labor, water, and identify best 
practices for fields in a given location. (Deere's Precision Ag 
Technologies, for instance, gives farmers access to detailed agronomic 
information in the field essential for improved decision-making with 
respect to managing costs and recourses.)
    Where possible, producers using these precision agriculture 
techniques communicate via high-speed wireless broadband with customers 
and vendors, follow commodity markets, obtain real-time information on 
field conditions, weather and other environmental factors, and manage 
fleets and regulatory compliance. With access to mobile broadband 
services, farmers can also employ innovative machine-to-machine 
(``M2M'') operations in the field and machine-to-farm (``M2F'') from 
the field that enable producers to make significant improvements in 
real-time productivity and cost management.
    Today these technologies are making an enormous contribution to 
improved used of limited resources, regulatory compliance and Ag 
sustainability. Precision technologies are enabling more efficient, 
prescriptive use of soils, water, fertilizer, herbicides and fuel by 
allowing producers to tailor farming practices and applications to the 
specific conditions of an individual field.
    For example, when the farmer leaves his field in the fall, he is 
able to share harvest yields directly and immediately with trusted 
agronomist advisors. This helps the advisor to prescribe the 
appropriate amount of nutrients to be added back to the soil, based 
only on what the farmer took off at harvest, and ensure those nutrients 
are added and incorporated before winter. The farmer can also make 
decisions on which seeds to buy for next year, taking advantage of 
early order price discounts. By reducing inputs, improving resource 
management, minimizing land impacts and lowering costs, these 
technologies are delivering the promise of sustainability on the farm.
    The economic impact of these technologies is significant. According 
to recent reports, data-driven decisions about irrigation, 
fertilization and harvesting can increase corn farm profitability by $5 
to $100 per acre, and a recent 6-month pilot study found precision 
agriculture improved overall crop productivity by 15 percent.\7\
---------------------------------------------------------------------------
    \7\ See Kurt Marko, Forbes, Precision Agriculture Eats Data, CPUC 
Cycles: It's a Perfect Fit for Cloud Services (Aug. 25, 2015), 
available at: http://www.forbes.com/sites/kurtmarko/2015/08/25/
precision-ag-cloud/.
---------------------------------------------------------------------------
    We must take steps now to bridge the gap between rural broadband 
availability and urban and suburban broadband availability. Mobile 
services, not only wireline fixed services, are essential to broadband 
deployment in rural and remote areas where infrastructure, land 
acquisition, and right-of-way costs are higher on a per capita basis 
than that of urban and suburban areas. To enable real-time sharing of 
data and communications, including in the context of innovative M2M and 
M2F interactions, precision agriculture technology requires access to 
both reliable mobile and wireline broadband services.
    However, the harsh reality in the rural U.S. is that there is a 
significant lack of access to adequate mobile and fixed broadband 
coverage in the fields where agricultural equipment operates. Today, 
many John Deere customers are challenged by this lack of adequate 
mobile coverage. Deere's JDLink<SUP>TM </SUP>data service, for example, 
currently relies on the cellular telephone network to transmit 
telemetric machine operation data. The lack of coverage needed for 
these solutions to transmit telemetric data from the machines, already 
a concern, will only become more problematic as data volumes increase. 
In rural areas where farm machines operate today, 
JDLink<SUP>TM </SUP>data transmissions have a 70 percent successful 
call completion rate. Without significant improvements in cell coverage 
in agricultural areas, Deere expects that this figure could drop to 
about 50 percent in two to three years as agricultural demand for 
wireless broadband services increases. For these reasons, Deere 
supports the retention and even expansion of the FCC's Mobility fund 
and other funding sources as well as infrastructure policies and rules 
aimed at supporting expansion of rural mobile services.
III. Deployment Policies and Programs Should Assess Broadband Coverage 
        Goals Based on Geographic Area and Functional Use; Croplands 
        Require Coverage and Farms Should be Treated as Anchor 
        Institutions
    Deere believes it is time for Federal agencies with broadband 
deployment mandates to view broadband availability through an expanded 
lens--one that incorporates a geographic and functional usage metric 
aimed at advancing broadband deployment to industries and economic 
activities where access to this key input has fallen behind. Broadband 
access in active croplands, in particular, should be included as a 
metric in identifying areas of need and farm operations should be 
treated as ``anchor institutions'' for the purposes of existing support 
programs. While fixed broadband has penetrated the residential and 
business areas of many rural communities, the cropland areas where 
farming is done lags far behind in adequate mobile broadband access. 
Yet agricultural operations are no less important to the economic 
vitality of these same communities than are those commercial entities 
served by fixed broadband. By supporting increased wireless broadband 
deployment in areas where most farming operations occur (i.e., in the 
fields), rural communities and the U.S. economy will benefit through 
increased economic growth, improved environmental stewardship, and 
enhanced food security.
    Historically, Federal funding programs at the FCC, NTIA and USDA 
aimed at spurring broadband deployment have focused on enabling last-
mile connections to residential consumers and ``anchor institutions,'' 
defined generally to include healthcare providers, schools, and 
libraries, as well as middle-mile facilities that enable last-mile 
connections to these ends. This assessment framework overlooks 
significant geographic and functional-use areas of broadband demand and 
coverage, and the benefits that deployment to such unserved and 
underserved areas can create. Large swaths of agricultural land in the 
United States--where people do not reside, but where they work and 
contribute to the rural and national economy--are wholly lacking 
broadband coverage.
    To address this gap, broadband access in active croplands (and farm 
buildings) should be included as a metric for identifying areas of 
need. There are a number of ways that ``cropland'' coverage can be 
assessed including by using the USDA's GIS data for crop operations or 
the U.S. geological Survey's (USGS) Land Use classification.
    It should be noted that farms represent a significant center of 
rural commercial activity. Owners, employees, buyers and vendors all 
conduct business in farm facilities and thus are important locations in 
rural communities. On that basis, as ``anchor'' institutions, farm 
operations should be given priority in implementing rural broadband 
support programs.\8\
---------------------------------------------------------------------------
    \8\ Although the USDA reports that sixty-seven percent (67 percent) 
of U.S. farms had Internet service (DSL, wireless, cable, and 
satellite) in 2013, compared with sixty two percent (62 percent) in 
2011 these figures do not reflect connectivity acreage under active 
crop production and whether the access that is being detected to the 
farmhouse is in fact sufficient to support today's smart farming 
operations. See USDA, NASS, Farm Computer Usage and Ownership (Aug. 
2013), available at: http://www.nass.usda.gov/Publications/
Methodology_and_Data_Quality/Computer_Usage/08_2013/fmpc0813.pdf.
---------------------------------------------------------------------------
    Deere also recommends that government broadband support programs 
should count machine-to-machine mobile broadband transmissions, by 
agricultural equipment in the field and associated operators' mobile 
devices, when assessing the status of mobile broadband deployment. By 
counting the number of machines with modems working the 300+ million 
acres of cropland in the United States, program administrators will 
have better information to more accurately assess the availability and 
lack of availability of advanced broadband services in rural areas, and 
can then consider targeted ways to strengthen funding to those rural 
areas of the country that need it most. Counting only rural populations 
fails to account for the growth in modems imbedded in agricultural 
machinery or the economic impacts of the Ag sector.
IV. Funding Programs Need to Be Updated and Expanded
    Deere endorses the expansion of the Universal Service Fund (USF) to 
include backhaul capacity and a variety of middle-mile projects. 
Effective rural broadband service requires backhaul capacity to keep up 
with expanding broadband demand. Further, all providers should be 
eligible to receive support for middle-mile facilities that support 
wireline backhaul for mobile broadband, not just for middle mile 
facilities that support wired last mile connections.
    We should also allow USF support for standalone broadband services 
not tied to traditional telephone services. The widespread availability 
of standalone broadband service will give consumers greater choice in 
service and providers and will avoid rules that effectively force 
consumers to purchase services they do not want.
V. Infrastructure Policies Should be Evaluated to Promote Rural and 
        Agricultural Access to Broadband
    Finally, Deere supports efforts to promote expansion of the 
infrastructure necessary to expand wireless broadband deployment in 
rural and agricultural areas. In particular, we would encourage actions 
that streamline procedures for siting wireless tower infrastructure and 
installing conduit. We must ensure that all unnecessary barriers are 
removed, including delays and expense associated with permitting, 
federal, state and local siting approvals, and approvals to access 
highway and other rights of way. ``Dig once'' policies that avoid 
repeated excavations and the attendant costs delays, and disruptions, 
should be encouraged.
Conclusion
    The future of our rural communities is closely linked to the 
strength of American agriculture. Today, the outlook for both is 
challenging but bright given the resourcefulness of American farmers, 
the advent of precision agriculture and other innovative farming 
technologies and the Nation's extensive agricultural resources. Whether 
our rural communities are able to thrive in an increasingly technology-
dependent world will be determined by whether we are successful in 
ensuring that agricultural operations have full access to advanced 
wireless services and technologies including high-speed broadband.
    I appreciate the opportunity to provide the Committee some 
perspective on this critically important topic. Thank you all for your 
work and engagement in exploring solutions. I look forward to answering 
your questions and being an ongoing resource to the Committee. Thank 
you.

    The Chairman. Thank you, Mr. Reed.
    Mr. Morrison.

  STATEMENT OF BRUCE MORRISON, VICE PRESIDENT, OPERATIONS AND 
                  NETWORK BUILD, ERICSSON INC.

    Mr. Morrison. Thank you, Mr. Chairman, Ranking Member Mr. 
Nelson, and good morning to all the members of the Committee.
    My name is Bruce Morrison, and I lead the team that builds, 
deploys, and manages networks for Ericsson here in North 
America. That includes real estate acquisition and permitting 
tower erection, leads base-station radio installation, and 
everything in between. Ericsson has thousands of employees and 
subcontractors handling the deployment of broadband networks in 
the United States, including the integration of tens of 
thousands of communications sites in the last year alone. In my 
15 years of infrastructure deployment, I have seen tremendous 
change in progress, and I look forward to sharing some of that 
experience with you here today.
    At Ericsson, we believe in a networked society, where 
individuals and industries are empowered to reach their full 
potential. Our infrastructure services and software enable and 
improve the efficiency of networks around the globe. Forty 
percent of the world's mobile traffic is carried over an 
Ericsson network. Those metrics indicate just how far Ericsson 
has come since its founding, 139 years ago. Back then, the 
Senate was made up of only 76 members, and the wonder known as 
Mount Rushmore wouldn't break ground for another 50 years. As 
you can imagine, we have learned a great deal since then.
    Mr. Chairman, you understand the importance of networks 
driven by access deficient--sufficient spectrum, and we would 
like to applaud your efforts, and those of this entire 
committee, to identify spectrum for licensed use. Licensed 
spectrum remains the best option available today to meet 
insatiable consumer demand. It also ensures that the networks 
we build and operate handle traffic as efficiently as possible. 
For example, underserved communities will benefit from the 
Federal Communications Commission upcoming 600 megahertz 
auction, spectrum ideally suited for rural communities. That's 
where the importance of unfettered infrastructure deployment, 
the subject of today's hearing, comes into play.
    Decades ago, wireless deployment served only a narrow 
purpose for a narrow constituency. Today, it provides nearly 
limitless ways to make life easier for all people through the 
power of mobility. As we enter the next generation of 5G 
technology, we know that mobility encompasses more than 
telecommunications, and that includes enhanced user experience 
through the Internet of Things and enterprise applications such 
as utility smart grids. The key to all this, however, is 
connectivity through both access and coverage.
    Now more than ever we must think beyond our coverage bars 
on our phones and to bandwidth capable of streaming video, 
supporting wireless applications, and connecting smart 
appliances. With every innovation comes the need for more 
wireless infrastructure, and not simply the 300-foot-towers-
along-the-highway variety. We're talking about small cells, 
low-powered radio access points that mobile operators use to 
extend service coverage and increase network capacity on light 
and power poles, including building facades, and even on bus 
stops, all to provide connectivity on each city block. With 
spectrum being so scarce, it is small-cell technology that will 
allow you to launch your favorite application or stream a video 
in downtown Washington in the year 2020.
    Today, Ericsson's focus is centered on delivering the 
highest-quality speed and service to meet ever-increasing 
customer demand. Ericsson's own statistics, released in August, 
cited a 55-percent growth in data traffic year-over-year 
between the second quarters of 2014 and 2015 alone. To help 
satisfy that need, we're implementing new approaches, like 
using small cells and micro facilities installed on light and 
utility poles, upgrading existing antennas with better capacity 
and the ability to use multiple frequency ranges, replacing 
older T1 backhaul with higher-capacity fiber, and finally, 
deploying temporary facilities for festivals, parades, and 
sporting events to meet short-term demand.
    For its part, the Federal Government has made some 
important strides to help remove existing barriers to broadband 
deployment. For example, the FCC shot clock has reduced to 
months, a zoning and permitting approval process that often 
dragged on for years. In addition, Federal efforts to assist 
local jurisdictions to expedite the deployment of equipment for 
facilities that meet certain criteria have been very helpful. 
And, of course, Federal programs such as the Connect America 
Fund, or CAF, provide badly needed resources for broadband 
services in our rural communities.
    These efforts have been effective, but there's still plenty 
more that can be done. In my submitted testimony, I provide in 
greater detail ways that Congress and the Federal Government 
can even--be even more helpful in removing barriers to 
deployment. But, for the purpose of this statement, I will 
highlight three key suggestions: streamlining access and 
jurisdictional processes for the installation and deployment of 
dark fiber and small-cell technology; streamlining access to 
light and utility bowls to standardize deployments; and 
finally, standardizing the application process for the 
deployment of wireless infrastructure on federally owned 
buildings and property, the idea incorporated into the Wireless 
Innovation Act.
    Mr. Chairman, these steps to reduce regulatory bureaucratic 
red tape may not sound terribly exciting, but they're 
absolutely critical to our ability to carry out our vision and 
your vision to reduce the cost of deploying wireless broadband 
services.
    Looking ahead, the future is exciting and our mission 
remains clear: to transform networks, which will, in turn, 
transform businesses and communities, nations and governments, 
and, most importantly, lives. Ericsson remains committed to 
delivering on this promise, have a networked society, and looks 
forward to working with Congress and the Federal Government to 
accomplish that goal.
    Thank you again, Mr. Chairman, for the opportunity today to 
be here, and I look forward to answering any questions the 
Committee may have.
    [The prepared statement of Mr. Morrison follows:]

 Prepared Statement of Bruce Morrison, Vice President, Operations and 
                      Network Build, Ericsson Inc.
Summary of Key Points

  <bullet> At Ericsson, we believe in a ``Networked Society,'' where 
        individuals and industries are empowered to reach their full 
        potential.

  <bullet> Licensed spectrum remains the best option available today to 
        meet insatiable consumer demand.

  <bullet> Decades ago, wireless deployment served only a narrow 
        purpose for a narrow constituency. Today, it provides nearly 
        limitless ways to make life easier for all people through the 
        power of mobility.

  <bullet> With every innovation comes the need for more wireless 
        infrastructure such as small cells--low-powered radio access 
        points that mobile operators use to extend service coverage and 
        increase network capacity.

  <bullet> To help deliver the highest quality speed and service to 
        meet ever-increasing demand, Ericsson is implementing new 
        approaches like:

    <ctr-circle> Using small cells and micro-facilities;

    <ctr-circle> Upgrading existing antennas;

    <ctr-circle> Installing high-capacity fiber;

    <ctr-circle> Implementing new strategies for complex environments; 
            and

    <ctr-circle> Deploying temporary facilities to meet short-term 
            demand.

  <bullet> For its part, the Federal Government has made some important 
        strides to help remove existing barriers to broadband 
        deployment such as the Federal Communication Commission (FCC) 
        shot clock and `Connect America Fund' (CAF) funding.

  <bullet> These efforts have been effective, but there is still plenty 
        more that can be done, such as:

    <ctr-circle> Streamlining access and jurisdictional processes for 
            the installation and deployment of dark fiber and small 
            cell technology;

    <ctr-circle> Streamlining access to light and utility poles to 
            standardize deployments; and

    <ctr-circle> Standardizing the application process for the 
            deployment of wireless infrastructure on federally-owned 
            buildings and property, an idea incorporated into S. 1618, 
            ``The Wireless Innovation Act.''

  <bullet> Ericsson remains committed to delivering on the promise of a 
        networked society and looks forward to working with Congress 
        and the Federal Government to accomplish that goal.
Written Testimony of Bruce Morrison, Ericsson Inc.
    Thank you, Mr. Chairman, and good morning to all the members of the 
Committee. I want to thank you for the kind invitation to be here 
today.
    My name is Bruce Morrison and I lead the team that builds, deploys, 
and manages networks for Ericsson here in North America. That includes 
real-estate acquisition and permitting, tower construction, radio base 
station installation, and everything in between. Ericsson has thousands 
of employees and subcontractors handling the deployment of broadband 
networks in the United States, including the integration of tens of 
thousands of communication sites in the last year alone. In my fifteen 
years of infrastructure deployment, I have seen tremendous change and 
progress, and I look forward to sharing some of that experience with 
you here today.
    At Ericsson, we believe in a ``Networked Society,'' where 
individuals and industries are empowered to reach their full potential. 
Our infrastructure, services, and software enable and improve the 
efficiency of networks around the globe. Forty percent of the world's 
mobile traffic is carried over Ericsson networks.
    Those metrics indicate just how far Ericsson has come since its 
founding 139 years ago. Back then, Senator Hannibal Hamlin, Abraham 
Lincoln's Vice President, walked these very halls; the Senate was made 
up of only 76 members; and the wonder known as Mount Rushmore wouldn't 
break ground for another 50 years. As you can imagine, we have learned 
a great deal since then.
    Mr. Chairman, you understand the importance of networks driven by 
access to sufficient spectrum. And we would like to applaud your 
efforts, and those of this entire committee, to identify spectrum for 
licensed use. Licensed spectrum remains the best option available today 
to meet insatiable consumer demand. It also ensures that the networks 
we build and operate handle traffic as efficiently as possible. For 
example, underserved communities will benefit from the Federal 
Communications Commission's (FCC) upcoming 600Mhz auction, spectrum 
ideally suited for rural communities. That's where the importance of 
unfettered infrastructure deployment, the subject of today's hearing, 
comes into play.
    Decades ago, wireless deployment served only a narrow purpose for a 
narrow constituency. Today, it provides nearly limitless ways to make 
life easier for all people through the power of mobility. As we enter 
the next generation of 5G technology, we know that mobility encompasses 
more than telecommunications. It includes enhanced user experience 
through the ``Internet of Things'' and enterprise applications such as 
utility smart grids. The key to all of this, however, is connectivity 
through both access and coverage.
    Now, more than ever, we must think beyond the coverage bars on our 
phones to bandwidth capable of streaming video, supporting wireless 
applications, and connecting smart appliances. With every innovation 
comes the need for more wireless infrastructure and not simply the 300-
foot-towers-along-the-highway variety. We're talking about small 
cells--low-powered radio access points that mobile operators use to 
extend service coverage and increase network capacity--on light and 
power poles, building facades, and even bus stops, all to provide 
connectivity on each city block. With spectrum being so scarce, it is 
small-cell technology that will allow you to launch your favorite 
application or stream a video in downtown Washington in the year 2020.
    Today, Ericsson's focus is centered on delivering the highest 
quality speed and service to meet ever-increasing demand. Ericsson's 
own statistics, released in August, cited a 55 percent growth in data 
traffic year-over-year between the second quarters of 2014 and 2015 
alone. To help satisfy that need, we are implementing new approaches 
like:

  <bullet> Using small cells and micro-facilities installed on light 
        and utility poles;

  <bullet> Upgrading existing antennas with better capacity and the 
        ability to use multiple frequency ranges;

  <bullet> Replacing older T1 backhaul with higher-capacity fiber;

  <bullet> Implementing new strategies for complex environments like 
        stadiums; and

  <bullet> Deploying temporary facilities for festivals, parades, and 
        sporting events to meet short term demand.

    For its part, the Federal Government has made some important 
strides to help remove existing barriers to broadband deployment. For 
example, the FCC's shot clock has reduced to months, a zoning and 
permitting approval process that often dragged on for years. In 
addition, Federal efforts to assist local jurisdictions to expedite the 
deployment of equipment for facilities that meet certain criteria have 
been very helpful. And of course, Federal programs such as the 
``Connect America Fund'' or ``CAF,'' provide badly needed resources for 
broadband services in our rural communities.
    In addition, the Telecommunications Act of 1996 allowed 
jurisdictions to rewrite relevant rules which have allowed for cell 
site facilities. Many jurisdictions have also allowed a hierarchy for 
siting priority that streamlines deployment for facilities. Examples 
include:

  <bullet> Collocations on existing structures/buildings/water tanks 
        that were exempt from zoning requirements;

  <bullet> Exemption from public hearing and public notice requirements 
        for facilities that meet certain requirements;

  <bullet> Exemption or administrative review process for facilities in 
        commercial or industry zoning classifications;

  <bullet> Exemption or administrative review process for facilities 
        designed with stealth technology;

  <bullet> Expansion of new locations and designated contacts 
        established for cell site facilities available on Federal and 
        state land, on city and county parks, in utility districts 
        (water tanks, power poles, transmission towers, etc.), and on 
        right of ways.

    These efforts have been effective, but there is still plenty more 
that can be done by Congress and the Federal Government to help 
removing barriers to deployment. They include:

  <bullet> Streamlining access and jurisdictional processes for the 
        installation and deployment of dark fiber and small cell 
        technology;

  <bullet> Standardizing the application process for the deployment of 
        wireless infrastructure on federally owned buildings and 
        property, an idea incorporated into S. 1618, The Wireless 
        Innovation Act;

  <bullet> Streamlining access to light and utility poles to 
        standardize deployments;

  <bullet> Distinguishing process requirements so that the installation 
        of equipment on a flag pole isn't considered the same as doing 
        so at a stadium or a hospital;

  <bullet> Assisting jurisdictions to process the use of small cells;

  <bullet> Providing relief from onerous Federal requirements that lack 
        technical descriptions;

  <bullet> Advancing a regulatory approach that allows the quick 
        deployment of small cells in metropolitan jurisdictions;

  <bullet> Updating the current rules surrounding ``Local Exchange 
        Carriers'' support and deployment requirements for backhaul;

  <bullet> Improving the ``Mobility Fund'' by targeting infrastructure 
        funding to truly unserved areas. Senator Joe Manchin recently 
        sent a letter to the FCC supporting this idea;

  <bullet> Improving the ``Spectrum Relocation Fund'' to increase its 
        flexibility and to provide for new allowable uses of funds to 
        facilitate improved spectrum planning and relocation while 
        improving spectrum utilization. These reforms would hasten the 
        transition of government spectrum for commercial use which we 
        strongly endorse. Senators Jerry Moran and Mark Udall recently 
        sent a letter to the Office of Management and Budget outlining 
        areas where improvements can be made;

  <bullet> Developing requirements or support for shared infrastructure 
        and hardening. For example, at a typical cellular tower, each 
        wireless carrier has its own generator. Shared infrastructure 
        would mean that only one generator is required per site; and

  <bullet> Implementing a requirement to incorporate dark fiber or 
        green field (empty) conduit attached to all federally-funded 
        roadway projects.

    Mr. Chairman, these are just a few areas where Congress could 
assist infrastructure companies like Ericsson in carrying out your 
vision to ``reduce the cost of deploying wireless broadband services.''
    Looking ahead, the future is exciting and our mission remains 
clear--to transform networks which will in turn transform businesses 
and communities, nations and governments, and most importantly, lives. 
Ericsson remains committed to delivering on the promise of a networked 
society and looks forward to working with Congress and the Federal 
Government to accomplish that goal.
    Thank you again, Mr. Chairman, for the opportunity to be here today 
and I look forward to answering any questions the Committee has.

    The Chairman. Thank you, Mr. Morrison.
    We'll proceed to 5-minute rounds of questions.
    And I would just point out that this particular tool [holds 
up smartphone] right here, if connected, is a very powerful 
tool that can keep me, hopefully, if I know how to use it, 
somewhat productive. But, without the infrastructure and 
facilities to support it, it's really nothing more than an 
expensive paperweight. And that's why the discussion that we're 
having here today is so important in the overall goal that we 
have of further getting deployment of broadband across this 
country.
    And, with that in mind, I wanted to turn to Mr. Reed for 
just a moment. Rural America is well represented on this panel. 
And so, we understand the unique challenges that are faced in 
these areas when attempting to spur growth in and ensure the 
vitality of America's rural economies. So, as such, your 
mention of a rural technology gap is quite concerning. And you 
note that cost for infrastructure, land acquisition, and 
rights-of-way for rural broadband deployment are higher than in 
urban areas, which I have to say seems somewhat 
counterintuitive. So, could you perhaps elaborate or address 
the cause of these costs and the associated impact on our 
Nation's agricultural sector?
    Mr. Reed. Yes, I can probably best describe the demand side 
of what's driving the need, and potentially talk a little bit 
about the cost.
    On the need side, agriculture is going through a 
transformation, and the competitiveness of that industry is 
enabled through these services. Customers who in the past--and 
producers who in the past--have farmed on the average across 
their operation are today employing technologies that allow 
them to farm their fields in sub-inch level of accuracy, 
applying just the right amount of nutrient, the right amount of 
seed, the right amount of water to get the best response for 
both agricultural productivity, increase in yield, as well as 
cost management, not to mention the environmental effects. What 
this has created is an increasing demand on the infrastructure 
across rural America. That infrastructure's been met with the 
need to expand it. And along that expansion, it--a lot of the 
incentives available for carriers to do that are not available 
to them to extend their coverage areas into rural America.
    Our proposal would include including cropland as a metric 
for how we determine and use funds available to providers and 
coverage areas and understand the coverage of rural America. 
Reducing--we need to reduce the overall cost associated with 
siting new facilities for those areas. Technically, what's 
happening is, increasing numbers of machines--it's not just the 
population; the rural employment is a very small number, 
overall, of people, but the machines that are going out with 
these technologies are increasing at increasing levels. Every 
large ag piece of equipment going into the North American 
market today is going out equipped with a 3G modem. In the 
future, it'll be 4G and, in the future, 5G. There's a lot of 
talk of the auto industry's approach to this. This has been 
going on in agriculture for nearly a decade. What that's 
created is tremendous potential, but also tremendous need and 
demand on the infrastructure that doesn't always cover those 
areas of the country, because people now are the primary 
metric. And, while there are certainly people in communities 
that depend on that technology, the population is 
disproportionate to the economic impact and the drivers for 
production agriculture.
    The Chairman. So, yes, and you're primarily talking about 
government programs or forms of public assistance that are 
more----
    Mr. Reed. Universal Service Fund, the Mobility Fund, those 
types of funds that are made available for the increase and 
extension of that infrastructure to not only meet the current 
demand, but to keep up with what we expect is an increasing 
growth in demand in the rural community.
    The Chairman. It just seems that the planned acquisition, 
right-of-way, those sorts of things shouldn't be as much of a 
obstacle, you might characterize it that way, as it would be in 
a more urban setting. That was, I guess, what I was trying to 
sort of get at there.
    Mr. Adelstein, in your testimony, you stressed the need to 
alleviate roadblocks to wireless siting at the local level. And 
you have specifically proposed removing requirements that a 
provider demonstrate proof of need or show a gap in service 
when siting a wireless facility due to the subjective nature of 
these determinations. So, I guess the question is, How, 
specifically, would you propose changing the law to remove 
these deployment barriers while still preserving the right of 
localities to have a corresponding role in the siting process 
at the local level?
    Mr. Adelstein. Well, Mr. Chairman, we would propose 
eliminating the gap-in-service test in Sections 332 and 253 of 
the Act. I think that Mayor Resnick is exactly right, there is 
a major role for localities in making sure that their 
consumers' needs are met, but is that role extending to 
deciding where service is needed? In the old days, people would 
say, ``Well, there's no coverage here, so we need coverage, 
because there's no bars.'' But, we've moved from a coverage era 
to a capacity era. And now what's really driving investment is 
the need to meet that capacity. So, an extremely complex 
decision made by our radio-frequency engineers of the carriers 
and infrastructure providers that determine where there's going 
to be capacity, where there's going to be demand for it that's 
going to exceed that capacity. And it's something that's not 
really in the expertise of local communities. For them to 
second-guess and say, ``Oh, there's no business case here, 
there's no need, there's no gap in service. I see bars on the 
phone''--literally, we've heard of consultants running around 
with a phone, saying, ``You know, this phone works.'' But, they 
don't understand the complexities that go into it, nor should 
they; that's not the role of localities. There's an important 
role for them, I don't think that's one of them. And hopefully 
we could reach agreement with them on that.
    Many localities don't do this. Let's, you know, put--make 
this clear, that it's those that are the sort of bad actors, 
the ones that are dragging their heels. Many local 
communities--and Mayor Resnick has said--have really gotten on 
it. Ten states have passed laws. But, those that are using this 
kind of an excuse to delay deployment, I think, is something 
that the Act could resolve.
    The Chairman. All right, and I'll come back to some other 
questions later, but right now I'll turn to Senator Nelson 
because my time's expired.
    Senator Nelson. Mr. Reed, when you were talking, it 
occurred to me--Is John Deere planning for the future of 
driverless tractors?
    Mr. Reed. So, agriculture has gone through tremendous 
change, and that change started with mechanization. Automation 
is the next of that phase, but, ultimately, optimization 
through information systems. We've, in fact, in your home 
state, been operating autonomous vehicles in confined 
situations in orchards for a number of years. That technology 
exists today. The ability to automate at that level exists 
today. And it has enabled, through both the use of GPS 
technology, machine-to-machine communication, machine-to-farm 
and to carrier-type technologies. So, the answer is yes.
    Senator Nelson. And would the wireless technology, in 
addition to the GPS if you're operating directly off the 
satellite--does that enhance the ability for----
    Mr. Reed. It--yes--absolutely enhances the ability. They're 
complementary to one another. What wireless cannot do is give 
the level of precision of GPS. With GPS, we're able to get to 
sub-inch-level accuracy----
    Senator Nelson. Right.
    Mr. Reed.--within 2 centimeters of accuracy. What wireless 
does is allow broad access to data communications on and off of 
the machine, which supplements that and moves both machine and 
agronomic data on and off of machines to both raise production 
and lower cost.
    Senator Nelson. So, Mr. Chairman, you could be a gentlemen 
farmer. You could be plowing your field while you're sitting 
back drinking your cup of coffee in the farmhouse.
    [Laughter.]
    The Chairman. That's the kind of farming I would like, yes.
    Senator Nelson. Mr. Adelstein, what has this shift in 
technology meant for infrastructure siting? Is it more 
difficult or is it easier to get approvals for small cells?
    Mr. Adelstein. Well, we're working closely with the FCC on 
small cells to facilitate deployment of them and distribute 
antenna systems. And I think the FCC's made some progress 
trying to make sure that there's a ability to get it sited on 
poles, in particular. We find that, inside of buildings, 
there's no real regulatory issues. It's more the outside 
deployments that can run into issues. And we want to make sure 
that we respect historical and local concerns, but, at the same 
time, we need to facilitate small cells.
    So, I think that, you know, localities are increasingly 
getting it. I have to hand it to Mayor Resnick and the others 
that--they have these devices, too, and they know, as he said, 
what it means to their communities. So, we're seeing a number 
of states act to facilitate deployment. We're seeing some 
localities do it. But, there are some that don't, and that, for 
some reason, resist. And those are the ones I think we need to 
sort of bring everybody up to the excellent level of those that 
recognize that this is essential to their communities. And the 
shift to small cell and DAS is because of this capacity issue I 
was talking about. That's targeting in, particularly, urban 
areas, many of which, in your State, require more capacity in 
downtown or dense areas, where there might not be room for a 
macro tower, a smaller cell.
    Senator Nelson. Mr. Mayor, tell me, how has the 
availability of small cell technology affected the local review 
of the siting process?
    Put your microphone on, please.
    Mr. Resnick. All right, thank you.
    As Mr. Adelstein said, many local governments and states 
have amended their codes and how they process applications, 
particularly for small cells. We generally encourage and 
support co-location. And so, if small cells can co-locate on 
existing facilities, whether they're buildings or existing 
towers in the rights-of-way or towers on other property, that's 
certainly an easier review for local governments. Generally, 
it's just an administrative permitting review, and that's it. 
There's not a public hearing required for review of co-
locations in those circumstances.
    So, many local governments actually need more education as 
to how small cells work, how they're going to be deployed, and 
how they can support the communications services in their 
communities.
    Mr. Adelstein. Mr. Chairman, could I just add one point to 
that, which is that sometimes localities are telling us, ``Hey, 
you could put a DAS system or a small cell system in, when a 
macro tower might make a lot more sense.'' It's a lot more 
expensive, it doesn't provide the same level of coverage. And 
that's an area where we get a little bit concerned about it. 
They try to dictate what the technology is as most efficient. 
Frankly, there's not enough capital to go around, and we need 
to do this as efficiently as possible. Sometimes----
    Senator Nelson. Are we getting to the point, for our local 
elected officials, that the technology has advanced so much 
that the harassment and the huge controversies that would occur 
over the big tower that was so ugly, that now you've got this 
capability of putting these small cells that are almost 
undetectable--have we gotten to that point, Mr. Mayor?
    Mr. Resnick. Well, I still see, and I hear from my 
colleagues, that there still are plenty of applications for 
large towers. Yes, the small-cell technology seems to be 
growing and does offer a lot of alternatives to constructing 
these huge towers, which have a lot of issues, have a lot of 
problems, but the applications for large towers actually is not 
diminished, at least with respect to the communities that I'm 
familiar with in Florida. And NLC is indicated, as well, around 
the country. They're still--it seems, actually, to be growing 
now, the need for the industry to want to construct large 
towers, as opposed to small cells.
    Senator Nelson. Well, when you get a controversy over a 
large tower, do you have any magic solutions on this?
    Mr. Resnick. Generally--a lot of local governments do. And 
many local governments have actually been proactive in this 
matter. My city, for example, has a large tower that we rented 
park space to construct the tower on, and that worked out well, 
because it's camouflaged facility, it's actually a--it's used 
as a light structure in a ballfield, so it fits with the design 
of our facility where we rented it. It works for the three 
carriers that are on it, in terms of providing coverage. When 
we redid the park--we just spent a million and a half dollars 
to redo the park--it still fit into the plans for the park. And 
many, many communities are doing that, they're proactively 
identifying locations within their communities where they would 
like to see towers build. They're not saying, necessarily, ``If 
you apply, we're going to approve it in that area,'' but 
they're being proactive about identifying areas where they 
think it would be appropriate to construct towers, which also 
the industry likes, because it can streamline the approval 
process. Communities are identifying those locations, having a 
sense already of whether there's going to be a lot of public 
opposition. And so, it could streamline the public hearing 
process. And it often can give the carriers access to 
residential areas, where they wouldn't ordinarily be able to 
find sites. Like, for example--and you may be familiar with 
this, Senator, but Miami Dade County School District, which is 
one of the largest school districts in the country--I think 
it's the fourth-largest school district in the country--has 
made a policy decision to rent school sites for towers. The 
carriers and the infrastructure companies would not otherwise 
get access in those residential areas for towers. They're 
adjacent, for the most part, to single-family homes. But, this 
gives them access to property as well as coverage in areas 
where they ordinarily would not have coverage.
    So, yes, in answer to your question, local governments 
around the country are coming up with their own innovative ways 
to support large towers, which still need to be constructed.
    The Chairman. Thank you, Senator Nelson.
    Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you.
    Mayor Resnick, I appreciate your testimony. You mentioned 
that, as a result of a collaborative effort, there might be 
delays in wireless deployment. What is it about the 
collaborative effort that would stand in the way of wireless 
deployment?
    Mr. Resnick. I'm not sure I meant to say that collaboration 
between local governments and the industry would result in 
delays, but that delays can come from either party. I mean, 
we've seen tremendous changes in the industry side with respect 
to technology, how the industry is structured, et cetera, that 
we've seen, at the local level, result in delays in deployment. 
For example, a community I work with has had numerous 
applications from various carriers to co-locate antennas on 
existing towers in that community, and then they ask the 
community to stop processing those applications because the 
industry--that applicant--is going through a change of 
structure, ownership, whatever. And often those requests for 
delays will sit for months, years, whatever, until they 
determine what they're doing, who's acquiring them, who they're 
acquiring, and whether they still need that site, or not. So, 
it's not a collaboration between local governments and the 
industry that causes delays, but it could be delays as a result 
of different things occurring in the industry.
    Senator Wicker. Do you have any suggestions for us in that 
regard?
    Mr. Resnick. That's a great question.
    Senator Wicker. You can take that for the record.
    Mr. Resnick. All right, thank you.
    Mr. Morrison. Mr. Chairman, could I add to this subject?
    Senator Wicker. Briefly, yes.
    Mr. Morrison. The Mayor is right, there are still 
applications coming in for the larger towers. However, Mr. 
Nelson also pointed out, ``Is there a difference between the 
large towers, which everybody's familiar with, and small 
cells?'' And there is. Again, I would argue that the--or make a 
point that I did in my testimony that the jurisdictions are 
actually getting more wireless-friendly. And we have a defined 
process. It's a defined timeline. It's gone from being a 2 to, 
you know, <plus-minus>year process, it's down to months. So, we 
thank the local jurisdictions for that.
    However, when we do talk small cell, if you just go outside 
on any urban street, you'll see the light poles. You know, 
we're looking to go on every third light pole. So, what we 
would argue is that, you know, putting a, you know, less-than 
3-foot, less-than 90 pound piece of equipment shouldn't have 
the same process or timeline to put up a 300 foot site. So, 
again, it is industry's job, but we also need the Federal 
Government to help support us, you know, get that message 
across that the applications are very different, moving 
forward.
    Thank you.
    Senator Wicker. That makes sense to me.
    Mr. Kinkoph, given the challenges of achieving sufficient 
mobile broadband coverage over the Nation's vast rural areas, 
how will FirstNet assure that public safety personnel in 
smaller cities and rural communities have reasonably comparable 
access to the devices and coverage?
    Mr. Kinkoph. First, that is an independent agency within 
NTIA, and it doesn't fall within my area of responsibility, but 
I would be happy to take back your question to FirstNet.
    [Mr. Kinkoph later replied as follows:]

    Congress created FirstNet as an independent authority within NTIA 
responsible for deploying a nationwide, interoperable public safety 
broadband network. FirstNet reports that it has taken significant steps 
to meet the requirements set forth in the Middle Class Tax Relief and 
Job Creation Act of 2012, such as substantial rural coverage milestones 
in each phase of the network's deployment. These steps have included 
holding 55 state/territory consultations and collecting over 11,000 
data surveys from states and territories to learn directly from public 
safety where they need coverage, how many and what kinds of devices 
they may need, as well as their rural deployment priorities.
    Additionally, FirstNet has held numerous industry days to engage 
with rural telecommunications providers and associations to understand 
their capabilities and gauge their interest in participating in the 
deployment of the FirstNet network. These industry days are aimed at 
fostering creative solutions to public safety needs and encouraging 
partnerships among a diverse set of organizations. FirstNet has also 
taken steps to ensure that partnerships with rural telecommunications 
providers are part of the evaluation criteria for the upcoming 
nationwide Request for Proposals (RFP) that will be key to deploying 
the nationwide network.

    Senator Wicker. OK. So, we'll take that for the record.
    Let me get back to John Deere. You know, I--Mr. Reed, I've 
been trying to wrap my brain around precision agriculture for 
15 years now. It's absolutely fascinating. We're going to need 
to feed and clothe billions of more people in the world. And 
precision agriculture is part of that, don't you agree?
    Mr. Reed. It's absolutely part of it. It's one of the 
critical enablers with population growth and the needs for 
increasing productivity. We're able to use this technology to 
actually put the precise correct amount of seed, nutrients, 
water, herbicides, crop protection products down only where and 
when it's needed.
    Senator Wicker. So, Senator Thune is sitting in his air-
conditioned, huge, multiple-hundred-thousand-dollar implement 
in South Dakota, drinking his cup of coffee, and there is an 
inch of soil, I think you've said, and the first half-inch of 
that soil needs more herbicide than the second half-inch of 
soil. Is that what you're saying? Or more water or----
    Mr. Reed. Yes.
    Senator Wicker.--or less fertilizer----
    Mr. Reed. It's a continuum. Historically, most of farming's 
been done on the average across the farm--average number of 
seeds--30,000 seeds of corn or 200 pounds of nitrogen. What's 
happening is, the tools--the connectivity and the analysis 
tools and the flowing data have allowed us to prescribe to 
higher and higher levels of resolution the precise amount of 
input and need, down to the local level. And that moved from 
acre to square meter. And in institutions like Purdue or 
University of Illinois, they're working on crop-level, plant-
level sensing so that you can provide to the plant exactly what 
it needs. That's the future. Today, largely that's done at the 
acre or even square meter level. We're getting to the point 
where it's moving even higher resolution down, potentially, to 
the individual plant level.
    Senator Wicker. OK. Can you tell us, when you talk about 
these gaps, what you wish FCC would do and what you wish 
Congress would do to help us with these gaps?
    Mr. Reed. I think there are a number of things. You know, 
we mentioned earlier the cost. Often, the cost is evaluated on 
a per-capita basis, not as a lens of what's it enabling, in 
terms of the industry, and cropland being one of those. The 
opportunity to expand coverage to cropland and expand the use 
of funds to ensure that cropland is considered as one of the 
coverage factors is extremely important. To sustain and use the 
Universal Service Fund to extend support for middle-mile 
capacity, each one of these--each one of these systems in the 
geography requires a middle-mile carrier to take that 
information back and to communicate it back. The ability to 
increase the Mobility Fund--most of these--and there's a lot of 
plans that allow for wired facilities, wired broadband into 
local agricultural communities. These are roving machines. 
These are wireless machines that need the same connectivity 
you'd have in a mobile phone to be able to connect to those 
machines. The Mobility Fund is extremely important. And allow 
rural carriers to retain their support when they offer 
standalone broadband that might be decoupled from telephone 
services. This service is unique from that. And those same 
rules should apply for standalones--allow delivery to 
standalone broadband technology.
    Senator Wicker. Thank you very much.
    And thank you all.
    The Chairman. Thank you, Senator Wicker.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Let me address my question, initially, to Mr. Morrison. 
Senator Udall and I, along with a number of members of this 
committee back in April, wrote a letter to the Office of 
Management and Budget asking them about how they would suggest 
we improve the Spectrum Reallocation Fund. You've mentioned 
that letter in your testimony. Pleasing to me is, OMB responded 
in a very specific and detailed way. It appeared to me they 
didn't just treat this as a typical congressional response, and 
I value the input that they're providing. The end goal, here, 
is to introduce legislation that deals with the issues that 
they raise, and others, on the topic of spectrum.
    What I want you to do is to tell me, about Ericsson or 
others, what the industry is doing to make mobile broadband 
technologies more spectrally efficient, and what the result of 
that could mean, as far as availability of spectrum.
    Mr. Morrison. That's a very good question, Senator.
    Ericsson, like other vendors, has worked with many 
operators that have limited spectrum holdings. And that has 
forced us and the rest of the industry to come up with 
innovative technologies for maximizing spectral efficiency in 
order to keep up with mobile broadband traffic growth. For 
example, techniques such as carrier aggregation, multiple 
antenna, MIMO--which is multiple input, multiple output--
network coordination, and LTE broadcast. It allows us to 
increase LTE network capacity and to deliver high-definition 
video more efficiently without adding new spectrum or new cell 
site locations.
    Network efficiency is continually improving with each new 
software release, and there are more technology innovations to 
come. However, these technologies do have their limits, and so 
it's important that we continue to explore the ways to free up 
more spectrum for mobile broadband services even as we continue 
to introduce more efficient radio technology.
    Senator Moran. I think what you're saying is that spectrum 
efficiency is valuable, important, creates a greater 
opportunity to use less spectrum in specific applications, but 
it isn't the total solution to availability of spectrum. We 
still need access to additional spectrum. That correct?
    Mr. Morrison. That's spot on. The bottom line is that, as a 
product manufacturer, our customers expect us to be as 
efficient as possible with the equipment we provide. However, 
there are limitations. Again, we are looking towards 5G and, 
again, you know, the benefits that it will bring, from an 
efficiency perspective, but, at the end of the day, we need 
more spectrum.
    Senator Moran. Mr. Adelstein indicated he'd like to 
respond.
    Mr. Adelstein. Yes. Well, there's really three basic ways 
you can get more throughput on existing spectrum. There's 
additional spectrum. There's better technology, which Mr. 
Morrison was talking about. And there's infrastructure, a 
subject of today's hearing. Now, infrastructure, if you densify 
the network and put more cell sites in, you can reuse the same 
spectrum over and over again. So, roughly, if you put ten times 
as many cell sites in one little area, you can get ten times 
the throughput. Not exactly, but it's very roughly that way.
    If you look at the three different, basically, leverage you 
can use to get more throughput to address the fact that we have 
700-percent increase in demand over the next 5 years projected, 
technology, we expect, will be maybe 100 percent of that. We 
just sold $45 billion worth of spectrum that you enacted the 
ability of FCC to sell. Twelve percent additional spectrum went 
into that--12 percent more. So, for $45 billion, we got 12 
percent. So, there's--12 percent, you got 100 percent, we're 
still down to 588 percent of that 700 percent to deal with. 
And, largely, I think, in the next 5 years, infrastructure is 
going to play the key role for that. And I think that's why 
this hearing is so critical today.
    Senator Moran. Thank you very much.
    Mr. Kinkoph, what can you learn from the private sector, as 
far as efficiencies?
    Mr. Kinkoph. Well, I--from an NTIA standpoint, the spectrum 
area does not fall in my area of responsibility, but NTIA is 
currently working on the directive from the President to 
allocate or identify 500 more megahertz of spectrum. And I--my 
understanding is, they're about halfway to that. So, I think 
that's a critical step in ensuring that, over the--by 2020----
    Senator Moran. When is that to be concluded?
    Mr. Kinkoph. By 2020 was the directive. I'd be happy, 
though, to have our spectrum folks that are working on that 
meet----
    Senator Moran. And I may have interrupted something you 
else--something else you wanted to say.
    Mr. Kinkoph. No, I think we're good.
    Senator Moran. OK.
    Mr. Chairman, thank you very much.
    The Chairman. Thank you, Senator Moran.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you all for being here today.
    Mr. Reed, I wanted to talk a little bit more about 
agriculture broadband needs. And, you know, I can remember when 
we started in the--first with precision farming, that we would 
sell subscriptions to a satellite to try to get it if you 
didn't have a Coast Guard beacon nearby, where you could do 
some of the work on positioning. And, of course, I know in your 
testimony you stated you had a 6-month pilot study that found 
precision ag improved overall crop productivity by 15 percent. 
I would note that if you used red tractors, not green tractors, 
that would be 20 percent increase in productivity.
    [Laughter.]
    Senator Gardner. But, appreciate the willingness to--as a 
red tractor dealer, I have to continue to get my jabs in on the 
green guys. So----
    [Laughter.]
    Senator Gardner.--thank you for letting me do that. I'm 
just kidding.
    But, wanted to just maybe get a bigger picture of what--
when you pull into a field--when a farmer pulls into a field 
and they're either, you know, going in with a combine--and what 
happens to that combine, or maybe a planting is a better 
example--what happens, if you don't have adequate broadband, to 
that farmer?
    Mr. Reed. We can use either of those examples. Essentially, 
the system for communicating, if it's not available, a lot of 
the tools available to give customers a more precise use over 
the land start to get very difficult to use. It reverts to 
manual approaches of phone calls, people walking on and off of 
machines, using data sticks, providers having to drive trucks 
and infrastructure out to connect with the machines to take 
soil samples. The things that are automated today are possible 
in a manual state, they're just not scalable that way.
    So, today, as the tractor enters the field to plant, the 
prescription for seed delivery, for nutrient delivery, is 
wirelessly loaded onto the machine. They press a button, and 
it, in an automated fashion, executes that prescription across 
the field. That's the state-of-the-art today. And that's only 
available when there's communication available to sync between 
that roving machine and a network that allows it to move back 
and forth freely.
    Senator Gardner. You know, one of the highest costs, 
obviously, for a farmer are the inputs to the fertilizer and 
others that they put into the field. And before precision 
agriculture, before the ability to really prescribe 
fertilization application for your particular farm, based on 
precision farming capabilities, how many times did the co-op, 
the local co-op come out and have a tank of fertilizer, and 
that tank was always empty by the time it left the farm. Now, 
with precision agriculture, that tank isn't always empty. There 
may be some left over, which means we're doing a much better 
job of managing our inputs, managing costs, and it's better for 
the environment that way.
    Mr. Reed. I think you point out two benefits, both the cost 
of--both the economics and the environmental side of this are 
aligned, in that, when we use only the nutrients required or 
only the seed required or only the crop protection required in 
a given acre, it's both a cost effect for the production cost 
side, the competitiveness of the industry, it's also very much 
an environmental effect, which is only using what's necessary 
to grow the productivity. Not only can they use less, but, 
ultimately, by putting what's needed in the right place, they 
can grow more using those same inputs.
    Senator Gardner. Thank you, Mr. Reed.
    Mr. Kinkoph, the Wireless Innovation Act, which Senator 
Rubio introduced and I'm cosponsoring, requires NTIA, in 
consultation with the Commission and the Director of the Office 
of Management and Budget, to develop a framework for 
determining the commercial value of each Federal spectrum band. 
Further, every 5 years, the bill requires agencies that use 
Federal spectrum to compare the opportunity cost of that 
spectrum to the projected cost of relocating--co-locating, 
leasing, or contracting out their spectrum use to a commercial 
provider. Do the agencies have the tools on hand right now that 
they need to do that sort of economic analysis?
    Mr. Kinkoph. As I've indicated, spectrum does not fall into 
my area of responsibility, but I would be happy to take that 
back to our spectrum team and----
    Senator Gardner. Fantastic. If you'd do that for the 
record, that would be great.
    [Mr. Kinkoph replied as follows:]

    While NTIA is not in a position to evaluate the resources of other 
agencies, it is highly unlikely that many agencies that use Federal 
spectrum currently possess the tools, expertise, or relevant 
information needed to conduct the expansive economic analysis required 
under the proposed framework. NTIA does not currently have the 
expertise or resources to develop the framework required by the 
proposed legislation.
    There are numerous challenges in even considering the development 
of such a framework. Besides requiring a very large commitment of 
resources, one of the challenges with developing and implementing the 
proposed framework is the lack of quantifiable data necessary to 
account for the value of each Federal agency's congressionally-mandated 
mission. Under statutory changes enacted in 2012, NTIA is responsible 
for balancing ``the best possible and most efficient use of 
electromagnetic spectrum resources across the Federal Government. . 
.with the needs and missions of Federal agencies.'' (47 U.S.C. 
Sec. 902(b)(2)(U), added by Pub. L. 112-96, title VI, Sec. 6410, 126 
Stat. 234 (2012)) Determining the opportunity cost of Federal spectrum 
based on the potential commercial value of the spectrum alone would not 
adequately account for or incorporate the social value of the 
government missions or programs that rely on this spectrum. The 
economic and non-economic societal benefits from meeting the public 
interest goals that led to Congress mandating and funding an agency's 
spectrum-dependent missions are difficult to quantify in economic 
terms. Consequently, quantifying the economic value to ``the highest 
commercial alternative use'' would not provide an informative proxy for 
assessing the total social and economic value of a Federal spectrum 
assignment. Additionally, since in most cases it is not a single 
Federal agency utilizing a spectrum band, allocating economic value 
between the various agency uses would be challenging.
    Even if a framework for determining opportunity cost is developed 
and implemented for a given Federal band, it does not resolve whether 
it is possible and or practicable to make spectrum available while 
still ensuring no loss of mission or capability to the Federal 
agencies. Nearly every band used by the Federal Government is shared 
among several agencies and developing a relocation or sharing plan with 
associated costs is difficult, time consuming, and resource intensive., 
Requiring the agencies to determine potential relocation or sharing 
costs for every Federal system in every band in which the agencies 
operate is not practicable and may not lead to a scenario where a 
comparative cost analysis is possible.

    Senator Gardner. And you may or may not be able to answer 
this. OMB and NTIA currently, are they working with the 
agencies so they understand the economic value of their 
spectrum use?
    Mr. Kinkoph. I would also have to take that question back 
for you.
    [Mr. Kinkoph replied as follows:]

    As directed in a 2013 Presidential Memorandum, the Administration 
is continuing to work with the Federal agencies, through the White 
House Spectrum Policy Team and the Office of Management and Budget 
(OMB), to evaluate spectrum efficiency in procurements and market-based 
incentives for the efficient use of Federal spectrum. For years, OMB 
guidance in Circular A-11 has instructed Federal agencies to consider 
the economic value of spectrum in weighing alternative proposals for 
deploying spectrum-based services. This guidance is intended to ensure 
proper stewardship of the spectrum resource and requires a 
certification from NTIA for the development or procurement of major 
spectrum-dependent systems (and all satellite systems) using 
congressionally appropriated funds.

    Senator Gardner. Thank you.
    And another question to you. The Broadband Opportunity 
Council recommended the expediting of permitting on Federal 
lands. Was the Council able to do a comparison of Federal 
agencies and their efficiencies--or inefficiencies and 
determine why some are better than others?
    Mr. Kinkoph. No, that was not part of the review by the 
Broadband Opportunity Council. However, they are taking on and 
continuing on the 1316 616 work to ensure that we look at--and 
also the historical preservation to ensure that we kind of 
expedite the current permitting process.
    Senator Gardner. And were you able to come up with a list 
of your series of best practices as a result of that?
    Mr. Kinkoph. That would be part of the work that will be 
ongoing now that the report has been released.
    Senator Gardner. Thank you.
    And, Mr. Adelstein, as you may know, Senators Klobuchar, 
Daines, and I plan to introduce a broadband infrastructure bill 
that promises a ``dig once'' policy to couple broadband 
expansion with new highway construction and improve the 
broadband siting process on Federal lands. In your testimony, 
you described the current process of installing and improving 
broadband infrastructure on Federal lands as byzantine, and 
argue that you need predictability and consistency to encourage 
investment in this space. Do you believe our legislation would 
move us toward these goals, if you're familiar with it, and 
simplify the current process? And what does that mean for 
broadband investment and infrastructure?
    Mr. Adelstein. Absolutely. We support the Klobuchar-Gardner 
bill. I think it's a fantastic idea. It requires broadband 
conduits to be installed as part of certain highway 
construction projects. I think that's important for rural and 
urban areas alike. It's to--designed to reduce the number of 
repeated excavations that are required, lowers the costs for 
deployment by avoiding duplicative Federal reviews and the need 
for multiple permits for work performed at the same location. I 
think it assists in connecting wireless facilities to larger 
network by getting those conduits in place. As demand 
increases, we'll be able to use those to move forward, whether 
it's for macro cell towers, DAS, or small cells that we talked 
about earlier. All of these facilities require backhaul. 
Basically, the wireless antenna's got to get back to the wired 
network, and these conduits that you would enable through your 
legislation will facilitate that. So, I think it would be very 
important legislation to promote broadband deployment.
    Senator Gardner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Gardner.
    Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman.
    Couple of weeks ago, we had a high-tech job summit in my 
hometown of Bozeman. Six hundred people showed up. Couple of 
our keynote speakers--one was Dr. Craig Barrett, of Intel fame, 
joined Intel in 1974, rose, became CEO 1998, and served as CEO 
til 2005. We had Doug Burgum there, of Intel, of--which, when 
it went through the--really, the high-growth phase--we had Doug 
Burgum there, the founder of Great Plains Software, as 
keynotes. And why were they in Montana, keynoting an event? 
Because they were on their way to hunt, with their bows, elk 
and mule deer. And you have an intersection now of elk and 
electrons that are creating this revolution going on in the 
high-tech world, this high-tech ecosystem that we are seeing 
across much of western Montana.
    But, one of the challenges that we face, certainly, is 
broadband and connectivity. In fact, this year members of the 
Northern Cheyenne Indian Reservation will have, finally, access 
to 3G service for the first time. So, we're not fighting for 4G 
and 5G right now in parts of Montana, we're happy to get to 3G 
at this moment here, and the Northern Cheyenne finally will 
have access to it. But, the fact is, many of our rural 
consumers and our tribes lack access to basic service and 
access to any kind of broadband on most tribal lands in 
Montana. It's virtually nonexistent.
    And we've seen these high-tech jobs are growing ten times 
faster than other sectors in our economy, at least in Montana. 
And they're paying twice our average wages that we see in our 
state.
    So, I want to start with Mr. Adelstein. In your testimony, 
you mentioned PCIA's involvement in working with tribal 
leaders. Can you tell me specifically what PCIA has done to 
work with tribal communities? And what are the biggest barriers 
to broadband deployment on tribal lands?
    Mr. Adelstein. Yes, you're certainly correct, Senator 
Daines, that tribal areas are the most difficult to serve. I 
mean, Chairman Thune and I are from South Dakota. We've seen 
the--both the potential and the challenges in tribal areas in 
our state. They're most in need of broadband because of the 
economic challenges they face, and yet they're the most 
difficult to build in. Part of it has to do with the land law 
and the fact that those parcels are divided up, so it's very 
hard to get access to rights-of-way. PCIA has participated in 
the FCC's annual workshops on this, and the FCC's made a real 
effort to try to help. We would love to serve tribal lands, but 
these processes can be--make it very, very difficult to do so.
    We also are having issues, increasingly, with tribes in 
areas that aren't tribal areas, in getting their approval to 
site new builds because of some of the review processes that we 
think need to be streamlined somewhat. So, we'd like to work 
with tribes on both getting broadband to their communities as 
well as to all communities in the country, and respecting 
tribal sovereignty and respecting the historic preservation 
needs. At the same time, the need to get broadband out is 
essential.
    Senator Daines. Thank you.
    Mr. Kinkoph, question. Your testimony states that past 
partnerships with tribal authorities have been effective. Is 
NTIA working to form these partnerships and help facilitate 
projects in other states like Montana to connect these tribal 
communities?
    Mr. Kinkoph. Yes. We've, through our BTOP program, 
connected eight different tribal networks throughout the United 
States. And we continue to provide technical assistance, as 
needed, through Broadband USA. We're currently working with 
Merritt Networks, up in Michigan and Wisconsin area, with some 
of the tribes to help them with their current connection 
issues.
    I think the Broadband Opportunity Council, though, presents 
several options to helping move this issue forward. And one 
is--the first one is, the DOI is looking to conduct a tribal 
summit on broadband with--throughout the United States. So, 
bring in the tribes and have a sitdown and a discussion on 
broadband issues that they're facing across the United States. 
And that would be a multi-agency summit.
    Second, the DOI has stepped up and has agreed to launch an 
interagency tribal school tech initiative to help bring more 
technology into the tribal schools.
    Third, there is the DOL, which has agreed to start to 
expand tech-based job training into the tribal lands.
    And then the fourth one that is part of the BOC is that DOI 
is looking to make available the 4,000 towers that they own on 
tribal and rural land available to the private industry, which 
I think will go a long way in bringing connectivity to some of 
those areas.
    Senator Daines. Thank you. That's a good update. Appreciate 
it.
    I want to, as I close here--run out of time--Mr. Morrison, 
your testimony talked about the importance of a networked 
society. I couldn't agree more. We've seen what happens in 
places like southwest Montana, where you have a blue ribbon 
trout stream in your backyard, and you have connectivity--you 
can work where you also like to play, as we say in Montana. 
Congress needs to do away with the regulatory roadblocks, and 
helping these communities streamline investment for broadband 
infrastructure is one of the key components. Senator Gardner 
mentioned the bill he'll be introducing with Senator Klobuchar 
to address these roadblocks.
    What can Congress, the Federal Government, do to 
incentivize companies to build out rural America?
    Mr. Morrison. Senator, that's a really good question. And 
it's an important one.
    Senator, a very good question. I really believe, though, 
that the--that question would be better answered by the 
commercial carriers than by Ericsson at this time.
    Senator Daines. OK. All right.
    I'm out of time. I'm out of time, Mr. Chairman.
    The Chairman. Thank you, Senator Daines.
    Senator Manchin, followed by Senator----

                STATEMENT OF HON. JOE MANCHIN, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Mr. Chairman. Appreciate it.
    And thank you all for being here.
    This, I guess, would be to Mr. Morrison.
    Mr. Morrison. Yes, Senator.
    Senator Manchin. In preparation for the hearing, I reached 
out to the U.S. Forest Service to see if there was anything I 
could do to expedite permit approvals of the towers at 
Monongahela National Forest, which is predominantly in West 
Virginia. It turns out there are 14 towers located in the 
Forest Service property, and the Forest Service has received a 
grand total of zero applications for cellular or broadband 
installations in West Virginia. Zero.
    While I'm committed to working with my colleagues to 
streamline the Federal permitting process, we have a much more 
immediate need in West Virginia, attracting enough private 
investment to build out basic wireless infrastructure. As you 
noted in your testimony, I believe that $70 million has been 
returned to the Mobility Fund. I think you said $73 million to 
Mobility. It could be a great place to start. And I've invited 
Chairman Wheeler to come see firsthand the rural communications 
challenges that remain in rural America, mostly West Virginia.
    What can we do, in your opinion, to attract investment in 
truly unserved areas? And do you think that the Mobility Fund 
could play a role in this?
    Mr. Morrison. Senator, that actually wasn't in my 
testimony.
    [Mr. Morrison later amplified his testimony in writing 
below:]

    Ericsson supports improving the ``Mobility Fund'' by targeting 
funding allocated for infrastructure to the truly unserved areas that 
still exist in our Nation today. In our written testimony, we 
highlighted this support and acknowledged Senator Manchin's recent 
engagement with the FCC on this issue. We appreciate his leadership on 
this effort and recognize that he knows firsthand the challenges rural 
America faces with access to infrastructure. In terms of states with 
advanced wireless penetration, West Virginia ranks as one of the 
lowest, and that needs to change. Without investment by the Federal 
Government as well as incentives for private investment in such areas, 
states like West Virginia will never experience the full benefits of a 
networked society.

    Senator Manchin. Seventy million? Well, somebody's 
testimony. Which one of you want to speak up?
    [Laughter.]
    Mr. Adelstein. I can certainly address the issue, Senator 
Manchin.
    I think one of the reasons you're not seeing any 
applications for Forest Service in your State----
    Senator Manchin. I think you mentioned it, sir, but that's 
all right.
    Mr. Adelstein.--is because our members that build these 
facilities are loathe to go into Federal lands, because it's 
almost impossible to get sited. You go----
    Senator Manchin. No, we're--we have 14 towers. We've got 
nobody on them. Towers are there.
    Mr. Adelstein. But, are they available, really, for use? I 
think the Broadband----
    Senator Manchin. Sure.
    Mr. Adelstein.--Opportunity Council made it much easier to 
use those, but there's a need for----
    Senator Manchin. Well, the permitting process is tough. We 
know that.
    Mr. Adelstein. Right.
    Senator Manchin. But, we have 14 towers in the national 
forest right now, and we're not utilizing the towers to the 
extent they could be. I don't know why you're not--who--how 
come you're not wanting to get on those towers?
    Mr. Kinkoph. NTIA does----
    [Laughter.]
    Mr. Kinkoph. You know, I think the issue is----
    Senator Manchin. We just want service is all we want.
    We want just a little bit of service. Not much, just a 
little bit.
    Mr. Kinkoph. As Jonathan was going to say--is that it is 
a--the BOC is looking at ways to streamline the process and get 
it on. What of the things I do know is that agencies--the 
recent Middle-Class Tax Cut Relief Act--GSA just finished 
helping to streamline that process through master templates. 
But, even there, there's not an obligation for each Federal 
agency to adopt and use those. They're not required to. So, 
there is work to be done, and the BOC will continue to try to 
move that forward to improve efficiencies.
    Senator Manchin. Well, you all work on the map, too, don't 
you?
    Mr. Kinkoph. The map----
    Senator Manchin. Do you all do the map?
    Mr. Kinkoph. The map was actually transferred to the FCC 
the end of June. So, the FCC is now in charge of the map.
    Senator Manchin. In charge of it. I know that you're 
showing my state, West Virginia, with 97 percent coverage. I 
would say you'd better look at that map again.
    Mr. Kinkoph. We'll do that.
    Senator Manchin. Who--I mean, it doesn't--it's not 
accurate.
    Mr. Kinkoph. The map--the development of the map over time 
has evolved and become more and more accurate. The data 
collection came from--the State collects it from the providers. 
It is then provided to NTIA, and we have it uploaded by the 
FCC, historically. Now, the FCC has----
    Senator Manchin. I'm saying you had Indiana, Mississippi, 
Kansas, Illinois, and Louisiana, and Texas at 100 percent.
    Mr. Kinkoph. Yes.
    Senator Manchin. Now, whoever represents--if--I'm sure if 
Senator Wicker was here, he would tell you that--maybe good old 
Mississippi is not quite there.
    Mr. Kinkoph. Yes. Some of the----
    Senator Manchin. I know we're not at 97 percent.
    Mr. Kinkoph. Yes. Some of the verification--the states were 
obligated to do the verification, and that came down to 
resources. I know, in South Dakota, we were informed that they 
drove over 40,000 miles, literally, to check the cell-site 
reaches. So, they did it, basically, manually. That's how it's 
done. And some states have not had the resources to do that to 
the full extent.
    Senator Manchin. Final question I would have is on the 
spectrum auction that was held. And I think you mentioned, I 
think, Mr. Adelstein, you said $45 billion, and that reduced 
our deficit by $28 billion. How do you believe private 
companies can help accelerate the transition process? And what 
Federal regulations might prevent them from playing a role in 
that process, for us to be able----
    Mr. Adelstein. In terms of using the--spectrum?
    Senator Manchin. Absolutely.
    Mr. Adelstein. Yes, I think it--we need to clear that as 
quickly as possible. One of the problems with that spectrum is, 
it's encumbered by Federal users. NTIA has done a good job, I 
think, of trying to corral them, but we need to get that 
spectrum that was paid for so dearly into use as quickly as 
possible.
    Senator Manchin. What's taking it so long?
    Mr. Adelstein. Well, it----
    Senator Manchin. Why do you find that--you're stating it 
could be a 5-year transition?
    Mr. Adelstein. It--well, there are a number of reasons why 
it takes so long to implement spectrum. One of them is the need 
to relocate Federal users and get them moved, but also there's 
a need to build the infrastructure and get it all sited. 
There's a need for handsets to be changed out.
    Senator Manchin. But, the private will move a lot quicker 
and then--than what we're--the Federal. I'm saying, if we're 
the impediment, this is a committee that you should work with 
and give us an idea of what we can do to release that or kind 
of spur the Federal Government in releasing that spectrum, 
letting it go.
    Mr. Adelstein. I think it's urgent for NTIA to do 
everything they can to help move those fellow users. I know 
they're taking that responsibility very seriously and they're 
doing it. It can't be done quickly enough.
    But, there are not only, you know, Federal issues. I mean, 
it takes time to, basically, get spectrum into use. Already I 
think very shortly we'll be able to use some of the----
    Senator Manchin. Mr. Resnick, you said--Honorable Mr. 
Resnick here is shaking his head like the dickens, no.
    [Laughter.]
    Mr. Resnick. Well, we've got the--thank you, Senator. And 
I'm not the expert in this area, either, but it's----
    Senator Manchin. You've got an----
    Mr. Resnick.--known in the communications industry that 
many entities that purchase this spectrum do so not necessarily 
with the intent to use it right away, but to hold it in the 
event that their business plans change and they may need it or 
to prohibit competitors from obtaining it and boxing them in to 
not having access to it. So, there's a tremendous amount of 
spectrum out there that's held now by satellite companies 
that----
    Senator Manchin. Speculated, right? Speculation?
    Mr. Resnick. Yes.
    Senator Manchin. So, what you're saying is, when we sell 
the spectrum, it--basically, you should use it or lose it?
    Mr. Resnick. Like any other permit.
    Senator Manchin. Gotcha.
    The Chairman. The Senator from West Virginia. And I think 
the statement you were looking for was in the cloud.
    [Laughter.]
    The Chairman. That's a--you're way ahead of the rest of us, 
Senator Manchin, so----
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Chairman.
    Mr. Kinkoph, I wanted to ask you--one of the goals of the 
Broadband Opportunity Council is, of course, to modernize 
Federal programs to expand support for broadband investment. 
You've heard a number of my colleagues asking about, How do we 
do that, particularly in rural areas? New Hampshire is one of 
the states under the Universal Service Fund that continues to 
be underfunded. I think my constituents get a pretty raw deal, 
because we're receiving 41 cents for every dollar that we 
contribute. I would welcome any of you to come drive around my 
state in Coos County, in Grafton, and even areas of Cheshire, 
that you cannot get full access to broadband, which is very 
important to economic development and access in general. I also 
would ask, How do we reform this program, and what can the 
Rural Utilities Service and NTIA, along with other Federal 
agencies, do to encourage the FCC to tackle USF contribution 
reform? Because I have to say to my constituents, ``I'm sorry 
you're paying all this on your phone bills, because you're not 
getting it back.'' We still have a lot of needs. And so, I'm 
kind of like, Why are we doing this? Is there any look at 
reforming USF to make it more viable--more responsive to what 
we need in the country?
    Mr. Kinkoph. I would defer that to the FCC, who has 
jurisdiction over that program.
    I would say that the Broadband Opportunity Council has many 
options in front of it, or several options in front it, that 
could be beneficial----
    Senator Ayotte. With all respect, as the Broadband 
Opportunity Council, I would hope that you would make 
recommendations as to what the FCC could do to take this issue 
up, because it's a very important issue.
    Mr. Kinkoph. Thank you. So, on the--so, some of the issues 
that would have a benefit to your state in helping to promote 
broadband would be--the Department of Transportation is 
currently looking at pushing down the rules and clarifying 
rules to the states for providing opportunities to access the 
conduit, the pole attachments in those states today. There's a 
lot of clarity that needs to be pushed out to the states as to 
how current infrastructure related to the Department of 
Transportation could be used for broadband. I think that's 
going to go a long ways in letting people understand how to 
utilize it.
    The DOI, as I mentioned earlier, the towers that are 
throughout all the rural and Federal lands--there's 4,000 of 
them--that, you know, clarity on how the private industry can 
get access to those to provide wireless is also a critical step 
in that direction.
    And then there is the open data inventory, which--of 
Federal assets--which is one of the BOC initiatives, which is 
an inventory of all the assets that are available that external 
private industry can look at and potentially utilize to help 
leverage those to provide broadband, whether wirelessly or 
wired.
    So, I think those are three big steps for rural states and 
other states around the country that it will help expand and 
promote the use of broadband.
    Senator Ayotte. Mr. Adelstein, do you have any comment on 
USF? It seems to me this is an important issue as you look at 
opportunity to expand broadband and how we're using Federal 
resources effectively to do that, and properly.
    Mr. Adelstein. I think you're absolutely right. And we'd 
love to see the Mobility Fund--the FCC's created, but not 
funded the Mobility Fund--to make sure that there's--is funding 
for wireless systems to build the infrastructure to provide the 
business case to build that.
    It's also important that there be predictability. I used to 
head the Rural Utility Service, and some of the changes in USF, 
I think, undercut the ability of rural communities to apply for 
loans and get them repaid, because they weren't certain what 
the revenue flow would be. You know, if you take out a loan, 
you have to know what the revenue's going to be if you want to 
build a wireless system or a wired system. I think it's very 
important for there to be predictability and consistency and 
understanding, going forward, of what that's going to be.
    You know, the challenge in rural areas is one for our 
industry of trying to find the capital return on investment. 
And having these Federal programs are really essential to make 
up for the fact that you have lower densities and similar fixed 
costs.
    Senator Ayotte. It's just really hard sometimes for me to 
justify this fund to my constituents. If they could keep this 
pot of money in New Hampshire, and our Governor and legislature 
could have it to build out broadband and opportunity, they 
could get a lot more efficiency out of it and probably cover 
much greater parts of our state. That's what the challenge is, 
because we feel like we're subsidizing areas that aren't rural, 
actually, and so the fund sometimes is used to build out 
duplicative areas. Do you see that as an issue that needs to be 
addressed?
    Mr. Adelstein. Well, certainly a lot of the fund is going 
also to individual phones, called the Lifeline Program, which 
is very helpful, but there's been some abuse of the system. 
We'd like to see the funds go into infrastructure.
    Senator Ayotte. Where everyone can benefit.
    Mr. Adelstein. Right.
    Senator Ayotte. Yes.
    Thank you.
    The Chairman. Thank you, Senator Ayotte.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Thune. Thank you very 
much.
    And being from South Dakota, Chairman Thune, I know you 
understand the digital divide and the real challenge facing 
rural areas.
    Having no cell phone reception is not just an inconvenience 
for people, it can mean not being able to call 911 in an 
emergency. And I know you all realize that. And the--during the 
years, we've had many people come forward and talk about some 
of those devastating consequences, in terms of not being hooked 
up to the emergency network.
    Mobile broadband also enables innovation and new 
opportunities for job creation. And that's something we really 
want to see in New Mexico in our rural areas. Our constituents 
living in rural areas should not be left behind.
    So, I'm glad, Chairman Thune, that you're focusing the 
Committee on this subject.
    Mr. Adelstein, when you were RUS administrator--you just 
mentioned that--I had the pleasure of hosing you in Moriarty, 
New Mexico, for a broadband and smart-grid summit. And I know, 
you know, you enjoyed that. You've got a smile on your face 
still. So, I know you understand that building broadband 
infrastructure in New Mexico and other rural states can involve 
approvals from multiple Federal agencies, such as the Bureau of 
Land Management, the Forest Service. And I want to ask you 
about ways to streamline the permitting process for broadband 
deployment on Federal lands. Could you discuss potential 
changes that could reduce the cost of deployments, such as 
piggybacking on existing rights-of-way? For example, installing 
a fiber optic line along an existing powerline or other 
infrastructure where the ground has already been disturbed, 
rather than chopping it up for a new line.
    Mr. Adelstein. Yes, thank you. We--I hope we've made 
progress on broadband in New Mexico since then, but I know----
    Senator Udall. We have. We have, with your good help.
    Mr. Adelstein. And your great leadership. I know you've 
been committed to this issue for a long time. And I think 
Federal lands, which control so much of your State, are really 
critical, because those are vast rural areas that have 
virtually no coverage, because our industry is afraid to go 
there, because they get caught up in these reviews.
    There's actually a bill--I see Senator Klobuchar is here, 
that she's considering legislation on this. Senator Rubio's 
introduced legislation, S. 1618. Senator Gardner talked about 
this earlier. We think that there are things you can do. You 
can create a standard fee schedule so our people know exactly 
what the rates are going to be across different agencies, and 
have it be based on real costs. You can have fee retention by 
agency, which that bill would enable, which would allow the 
agency, basically, to take a piece of the pie to help pay for 
other cost of doing the processing of those forms so that they 
have an incentive to get these things done instead of agencies 
that, like, you know--I'm not going to name any agencies that 
are going to be mad at them--but, you know, just put it at the 
bottom of their pile, because their job is to manage Federal 
lands, not to enable broadband. I think having common forms and 
contracts would be extremely helpful. It's in that bill. Have 
an expectancy of lease renewal. Sometimes on Federal lands, we 
get very short lease periods. You want to invest a huge amount 
of capital to build, say, a tower, for example, that's got a 
30-year life, and you get a 5- or 10-year lease expectancy, 
it's very helpful if you can get a longer term. We--the bill 
calls for point of contact. And--oversee a negotiation process 
to get that done, to make sure if something gets caught up, 
that it gets moved. And regular reporting on progress to 
Congress.
    I think the Broadband Opportunity Council had a lot of 
great ideas. There are other ideas that could build upon it 
that this committee could address through legislation.
    Senator Udall. Yes. Well--no, thank you very much for that 
answer. And it's really good to see fellow Senators working on 
this, including Senator Klobuchar and Senator Gardner.
    Do--other members of other panel, do you have ideas on this 
specific area?
    Please.
    Mr. Kinkoph. The Broadband Opportunity Council will be 
addressing this issue. And we have sat down with several 
providers that have shared very similar lists as PCIA, here. 
So, I think that it goes a long ways in sharing that 
information with the Committee as we move forward to try to 
implement some of this streamlining.
    Senator Udall. Great.
    Mayor? Please.
    Mr. Resnick. Thank you, Senator. Again, it's a privilege to 
be here.
    My committee at the FCC, the Intergovernmental Advisory 
Committee, consists of mayors and State legislators and Indian 
tribe members from around the country. So, we have a broad 
perspective of the status of broadband and what needs to be 
done around the country.
    But, one of the things that we've recognized is that there 
are many Federal programs, especially dealing with 
transportation initiatives, that do not allow broadband to be 
built under the grants that are awarded under those programs. I 
have two members of my committee from Kansas, and I, as well, 
even though I'm from an urban area in Florida. We wanted to use 
grants that we receive from four transportation projects, and 
we were not--to install conduits--and we were not allowed to 
install conduits as part of those projects. So, if there are 
ways of eliminating some of those barriers under existing 
Federal programs, that would be helpful.
    Senator Udall. Great. Thank you very much.
    I've run out of time, but if you want to give a very quick 
answer, with the Chairman's permission----
    Mr. Morrison. I was just going to echo the sentiments of 
the representative from PCIA, but also add that each department 
within the Federal Government sometimes has its own processes. 
If the process was the same, it would be quicker and more 
commercially viable for commercial carriers to deploy quicker. 
You know, one checklist would be very helpful, moving forward.
    Senator Udall. Great.
    Thank you for those answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Udall.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks, Mr. Chairman. And thank you for 
having this hearing on a really important topic that has 
national implications, I think in every state in the country.
    In Connecticut, for example, a recent article by AP 
reporter Stephen Singer, which appeared widely in our state, 
entitled ``Digital Divide: Northwest Hills of Connecticut 
Struggle to Gain Broadband Access,'' demonstrated very 
graphically how the northwestern part of our state suffers from 
great gaps in coverage and laggard reception in many areas. 
This area has about 22 towns and 200,000 residents, including 
Meryl Streep and Henry Kissinger and a number of other 
boldfaced names that would be well known to you, but it is 
covered in a way that local officials and residents say is 
extremely limited--in fact, lacking--so that business growth is 
stalled, schools are undermined, not to mention ordinary 
households suffering from a lack of coverage.
    I ask that this article be placed in the record.
    The Chairman. So ordered.
    Senator Blumenthal. Thank you.
    [The information referred to follows:]

                          The Register Citizen

    Digital Divide: Northwest hills of Connecticut struggle to gain 
                            broadband access
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    (AP Photo/Jacquelyn Martin)

                 By STEPHEN SINGER, AP Business Writer

       POSTED: 10/04/15, 12:11 PM EDT      UPDATED: ON 10/04/2015

    HARTFORD >> Connecticut's Litchfield hills, which boast premier 
antique shops, vineyards and 18th century inns, also feature cellphone 
dead zones and super-slow Internet service that infuriate residents and 
frustrate businesses.
    Telecommunications companies say hilly terrain and dense woods are 
to blame and angry residents accuse the companies of refusing to wire 
the region because the investment doesn't pay in sparsely populated 
areas.
    ``We're not going under, but it's increasingly painful,'' said 
Klaus Knuth, innkeeper at the Blackberry River Inn in Norfolk.
    Guests expect to connect to the Internet on their phones, tablets 
or laptops, but Wi-Fi is only ``so-so'' in the building that houses 
most of the inn's rooms, he said. ``The rest is dead,'' Knuth said.
    Some businesses such as Founders Insurance Agency in Salisbury and 
Torrington rely on coaxial cable that transmits data, but not graphics 
or video. Frank Buonocore, a company vice president, called the service 
reliable and ``adequate for our purposes.''
    Others, such as Steve Bowen, a retired advertising executive, make 
private arrangements to secure broadband. He said he paid $5,000 to 
bring a line to his Sharon home and now advises residents and officials 
how to market their campaign for expanded broadband access.
    ``We can wait 10 years for it to come here naturally or we can jump 
the gun,'' Bowen said.
    Known for its natural beauty on the doorstep of the Berkshires in 
Massachusetts and New York's Hudson Valley, the Litchfield hills are 
home to celebrities such as Meryl Streep and Henry Kissinger and are a 
destination for tourists and New Yorkers who can afford second homes.
    But local officials and residents say limited cellphone and high-
speed Internet access stall business growth and undermine schools that 
depend on the web.
    ``It's difficult to attract people to that kind of a landscape,'' 
said state Consumer Counsel Elin Swanson Katz.
    Connecticut officials promoting an initiative for super-fast 
Internet cannot force unregulated telecommunications firms to expand 
broadband. ``We're sort of a catalyst,'' said Bill Vallee, the state's 
broadband policy coordinator.
    State Rep. Roberta Willis, D-Salisbury, accuses telecommunications 
companies of failing to do enough to build broadband networks.
    ``You just can't say it's the topography and walk away,'' she said. 
``If electricity companies were deregulated like this there would be no 
electricity in my district.''
    Comcast spokeswoman Laura Brubaker Crisco said the 
telecommunications firm has extended its network nearly 62 miles in 
northwest Connecticut since 2005 and completed nearly 100 projects 
extending fiber more than 10 miles in the past two years.
    ``However, there are some low-density areas where it is not 
economic for Comcast or other providers to build out,'' she said.
    David Snyder, vice president for engineering for the east region of 
Frontier Communications Corp., said due to the area's topography, 
``it's just natural the investment and the time become more 
challenging.''
    Frontier has connected broadband to 40,000 households in 
Connecticut, including the northwest region, since it began operations 
in the state a year ago, he said.
    How many residents in the region are without broadband is not 
known. Katz and Kim Maxwell, the technical adviser to the group of 
officials and others working to extend broadband, said about 10 percent 
of homes in rural areas are estimated to have no access. Vallee said it 
could be more.
    Closing the so-called digital divide separating those with and 
without high-speed Internet access has drawn funding from the Federal 
Communications Commission and the telecommunications industry. Alex 
Phillips, president of the Wireless Internet Service Providers 
Association, which serves rural areas, said too much money is spent on 
studies, ``but the regular guy still doesn't have adequate choice or 
adequate service.''
    Northwest Connecticut includes about 22 towns with about 200,000 
residents in 85,000 households, Maxwell said. Extending broadband in 
much of the area could be completed by 2018 at a cost of as much as 
$350 million financed by bonds, he said.
    ``People want this to happen,'' he said. ``I'd be really surprised 
if this doesn't happen.''

    Senator Blumenthal. So, let me ask you, Mr. Resnick--you've 
mentioned in your testimony, I think, some of the ways that 
Internet access can be--and wireless--can be broadened. Co-
location, I think, is one of the methods. Can you suggest some 
others that local communities can use, as a mayor?
    Mr. Resnick. Thank you, Senator.
    Yes. Many of us had--used to have access to institutional 
networks, fiber networks, that were used by the local 
governments, whether a county or a city, and we could get 
anchor institutions on those networks, as well as our own 
government facilities, so they could provide interconnection 
communications services for our police and fire, but also we 
could have schools, we could have hospitals, we could have 
other anchor institutions as part of those networks.
    Most of us lost the ability to obtain those networks when 
State cable franchising came into play. And so, that might be 
something that, as a Federal--at the Federal level, we might 
want to relook at, because State franchising doesn't provide 
for the continuation of institutional networks. And so, now 
these entities that, before, built it, had it paid for through 
their fees, are now telling us that, ``Oh, if you want to 
continue using this fiber, it's going--you're going to be under 
a managed solution, and it's going to cost us hundreds of 
thousands of dollars a year.'' So, as a result, we're now 
paying for broadband connectivity to schools and libraries, 
police stations, fire stations, hospitals, where, before, it 
was provided as an amenity as part of that process. That would 
be one solution.
    Senator Blumenthal. And the telecommunications companies 
often blame the terrain or woods. And northwestern Connecticut 
has plenty of both, hilly terrain and dense woods. Residents 
there believe that the telecommunications companies have 
avoided the investment because these areas are sparsely 
populated.
    What about other methods, such as spectrum-sharing? I don't 
know whether any of the folks who are here today have 
perspectives on that issue.
    Mr. Kinkoph?
    Mr. Kinkoph. As I've said, spectrum is not in my area of 
responsibility, but NTIA does believe spectrum-sharing is 
critical to opening up enough spectrum for the broadband--
wireless broadband community, and it is one of the ways that 
they envision--that NTIA envisions reaching the 500 megahertz 
goal by 2020. So, we do support it.
    Senator Blumenthal. And in your experience, Mr. Resnick, 
how ready and willing are the telecommunications companies to 
cooperate with you?
    Mr. Resnick. Well, as I indicated in my testimony, there's 
been a greater degree of cooperation with the industry 
associations and the local government associations. In 
particular, we issued a joint information in response to recent 
FCC regulations. So, I think--and Mr. Adelstein and I have a 
long history of working together--that there is an interest in 
cooperation. It doesn't do either of us any good to try and 
point fingers and say, ``You're the reason why infrastructure 
cannot be deployed as quickly as we would like.'' And so, I 
think the area of--the intent of cooperation would continue.
    Senator Blumenthal. There really is a common goal here.
    Mr. Resnick. Absolutely. As I indicated in my testimony, 
the communities definitely want access to advanced broadband 
services at an affordable rate throughout all of our 
communities, not just rural, but also urban. I live in a very 
urban area, and there are portions of my area that do not have 
access to advanced broadband services, either. And so, it's not 
just a rural issue, it's--there are a whole host of reasons why 
people do not subscribe to broadband services. Yes, there are 
issues with it being available, but the FCC, at least, 
according to information that was presented to my committee, 
the majority of folks that do not subscribe to broadband do so 
either because it's not affordable or because they don't see 
the value in it. They do not understand how it would improve 
their lives. And so, my city, for example, wanted to build a 
digital literacy center using CDBG funds, which we receive, and 
we were told that we're not allowed to use that Federal program 
for building a digital literacy center.
    So, there are restrictions on funds that are already out 
there that might be--and I think that's part of the Broadband 
Opportunity Council's recommendations--is to look at those 
restrictions and open things up so that these Federal programs 
can be used for broadband deployment.
    Senator Blumenthal. Thank you very much.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal.
    Next up is my neighbor and best-selling author, Senator 
Klobuchar.
    [Laughter.]

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Mr. Chairman. 
I was kind of smiling, looking knowingly at Senator Thune when 
Senator Blumenthal was talking about all the rural parts of his 
state that are sparsely populated.
    [Laughter.]
    Senator Klobuchar. Which the Mayor has acknowledged that is 
true in every state in the country. But, we just have a little 
bit more of it.
    And I appreciate your leadership, Mr. Chairman, in having 
this hearing, and also in the work that we have done to push 
the FCC to do something different with the Universal Service 
Fund and some of those requirements so we can free up more 
money.
    I've really been struck, being at home the last year 
especially, with the number of people that are raising this 
issue. I've sort of figured out what happened, is they had some 
access in the rural areas, but it now--technology has changed, 
and their work is changing, and farmers are expected to, you 
know, go in to their suppliers and tell them exactly what's 
happening every day with the temperatures where their turkeys 
are being kept and other things. And so, what's basically 
happening is that their work is changing--in schools, not just 
in businesses--so that the high-speed aspect of this and having 
high-quality Internet is becoming incredibly important.
    I've heard stories, on a reservation, of one house that had 
Wi-Fi, and the entire group of kids would be over in the yard--
just try to picture it--trying to hook up to that Wi-Fi in one 
house's yard.
    Or the story of farmers and small business owners that go 
to the McDonald's every day to be able to report back to some 
of their customers and suppliers, because they're not able to--
while they might have Internet, they're not able to send--and 
they don't have the capacity to send the kind of documents and 
videos and other things that they have to send to do their 
jobs.
    So, this is a real issue right at a time where our economy 
is stabilizing, we're seeing improvements, but we're still 
actually seeing a lot of rural poverty. We just saw some 
numbers on that. And so, this is, to me, not a crisis as much 
as an opportunity to make some improvements. And that's why I'm 
introducing the bill today, with Senator Daines and Senator 
Gardner--and I appreciate their support, and I'm sure others--
to make some changes in how we streamline and invest in the 
broadband infrastructure. And that's the ``dig once'' concept. 
When there's Federal projects, it's also requiring the GSA to 
work with Federal agencies to consolidate and streamline 
contracts and fees for deploying broadband infrastructure.
    And maybe I'll start with you, Mr. Adelstein, since you've 
been positive about this bill. And I know my colleagues have 
mentioned it, as well. Could you talk about the importance of 
doing that? And also, this issue of how population density 
drives where spectrum is built out and what more we can do to 
reframe the deployment process to get more of this going in 
rural areas.
    Mr. Adelstein. Senator Klobuchar, I'm thrilled that you're 
introducing bipartisan legislation today to address this issue, 
these many issues, actually. Your bill would take care of 
improving broadband deployment on Federal lands, which, of 
course, comprise much of Minnesota. It also helps with the 
``dig once'' policy, as I understand it, which is really 
critical to getting the backhaul that we need. Your cosponsor, 
Senator Gardner, also raised this issue, and we discussed the 
fact that every one of these antennas, which is increasingly 
where people are getting and--receiving and transmitting their 
data, has to connect back to fiber, ideally, and having that 
ability to get access to those conduits. Whenever something is 
being built in a rural area or in an urban area, we ought to 
have the opportunity to use that for broadband connectivity, 
because those are really the roads and bridges of the future. 
And so, when we're building today's roads, let's also build 
those digital highways so that we can continue to expand 
capacity to meet it.
    So, your bill, I think, really hits the right notes, both 
for urban and rural areas, to expand broadband connectivity.
    Senator Klobuchar. Could you talk about the lack of 
consistency and the resulting uncertainty that's affecting your 
member companies' ability to deploy wireless broadband? What 
else can we do about that?
    Mr. Adelstein. Do you mean on Federal lands, in particular?
    Senator Klobuchar. Uh-huh.
    Mr. Adelstein. Yes. Each agency tends to have its own 
process. We were thrilled that GSA finally completed its model 
forms that you asked them to do back in 2012. Congress had to 
put a lot of pressure on them, but they got that done. And 
that'll help, but there's a lot more that needs to be done. I 
think that, you know, negotiations with the Federal Government 
take, on average, 4 years, compared to less than 2 for the 
private sector, and sometimes it can take 10 and more. The 
Federal Government's foregoing revenue, because our members 
will literally go right next door to Federal property rather 
than use Federal lands to site, even if Federal land might be 
in a better location to get service where it's needed.
    So, I think that we need to have, like, a standard fee 
schedule that your bill proposes. We need fee retention for the 
agencies so that they can use those funds to process the 
applications. We need common forms and contracts. There's no 
reason that each agency needs to have their own separate 
process, and we have to run into all of these roadblocks that 
your bill would address.
    Senator Klobuchar. Thank you very much.
    Last, Mr. Kinkoph, could you talk about why coordinating 
broadband deployment with highway construction is important?
    Mr. Kinkoph. In the BOC, we have--there is a commitment 
from the Department of Transportation to push down and clarify 
the--that broadband should be considered a part of the 
opportunity when digging once. I mean, it is a clear benefit to 
the country to have these rules clarified to the States. A lot 
of this is run by the States, so it's really a clarification 
from the Federal level to the states that they can utilize and 
deploy conduit when they dig, et cetera. So, I agree with 
Jonathan that we should be laying conduit wherever possible.
    Senator Klobuchar. OK, thanks.
    I'm beyond my time, but I'll ask you one for the record 
later, Mr. Morrison, so we don't have to go into it, but it's 
this issue of towers being built, but the Federal permitting 
process actually slows it down. And so, it basically renders 
the tower useless if you can't get the broadband in there. So, 
I'm sure you're familiar with this.
    Mr. Morrison. Most definitely.
    I did want to answer one of the questions that you asked 
earlier about what the Federal Government could do to move 
quicker as--when we talk about application processes. And let 
me just give you an example. As a--you know, we'll call it a 
landlord at the Federal Government, if we have an opportunity 
in wireless community to go to a roof, it's a quick sale to a 
commercial rooftop owner, ``Sir, ma'am, you know, how much 
revenue is your rooftop generating?'' ``Well, it's actually 
costing me $5,000 a year to maintain.'' ``Well, you know what? 
We'll go ahead and install a commercial antenna on there, and 
we'll actually pay you double that, so you'll cover your cost 
of maintenance, plus you'll have a little bit of money left 
over.'' Those transactions can happen as quickly as in 2 weeks. 
Sometimes, on average, maybe 2-3 months. Anytime we go through 
a process with the Federal Government to lease any kind of 
property--and we're not talking about the permitting, we're 
talking about the business aspect of it, the numeration--it is 
months, if not years, to make that negotiation. So, my 
suggestion would be that the Federal Government take a look at 
what the process is from a business perspective, just to be a 
little bit more nimble.
    Senator Klobuchar. Thank you.
    The Chairman. Thank you, Senator Klobuchar.
    Next up, Senator from Massachusetts, Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you very much, Mr. Chairman.
    This hearing is about the future, obviously. This is where 
we should be the leader. And spectrum is the oxygen of the 
wireless world, and we need more oxygen so that more innovation 
can occur. And that doesn't make any difference that exists on 
this committee. If you want to be wirelessly following the 
Green Bay Packers or the Minnesota Vikings or the New England 
Patriots, you want a wireless device. And you can be out in the 
Berkshires and have bad system out there, so we need to do 
something about it.
    And I think one of the areas that we can look at is how the 
Federal Government can move more of its spectrum out into the 
private sector. That's what happened in 1993. The Defense 
Department wasn't happy about it, but we took it, and it 
created the third, fourth, fifth, and sixth cell phone 
companies in America.
    So, I've actually joined with Senator Fischer in 
introducing a bill, the Federal Spectrum Incentive Act, because 
this really does know no State boundaries. And what the bill 
does is, it incentivizes Federal agencies to give up spectrum 
by allowing them to receive a portion of the spectrum auction 
proceeds. Like 1 percent. That's all they get. But, it says to 
them, ``Start thinking now about what spectrum you can give 
up,'' and, as quickly as possible, you get your one percent 
return. And that's kind of a win-win, because you're not 
deciding which spectrum should go, but you're leaving it up to 
the agency and saying, ``You get a reward for doing it.''
    And over on the House side, that's bipartisan over there, 
as well. It's Doris Matsui and Representative Guthrie, a 
Republican from Kentucky, OK, who have introduced the same 
bill. They're having a hearing on that today. And the bill has 
been endorsed by the Consumer Electronics Association as 
something that they believe will help to telescope the time 
frame it takes in order to get that spectrum out and into the 
marketplace to reduce the crunch that exists.
    So, Mr. Morrison, maybe you could talk about that. What do 
you think about that as an idea that can help to move the 
spectrum out and into the private sector?
    Mr. Morrison. I appreciate the question, Senator, but I 
can't really provide an answer at this time. I'm happy to 
confer with appropriate parties within Ericsson and get back an 
answer that we'll submit in to the Committee for inclusion in 
the hearing. But, that's not my personal area of expertise.
    [Mr. Morrison later submitted the following for the 
record:]

    Ericsson supports the advancement of legislative efforts, including 
the ``Federal Spectrum Incentive Act,'' to clear underutilized spectrum 
currently held by the Federal Government for commercial, licensed 
broadband use. We applaud the leadership of Senators Markey and Fischer 
whose bill offers new incentives for Federal agencies to relinquish 
badly-needed spectrum. This will ultimately make our networks more 
efficient, create jobs, raise revenue at a time when budgets are 
constrained, and foster innovation.

    Senator Markey. OK.
    Mr. Adelstein, do you think we should be incentivizing the 
Federal agencies to start moving the spectrum out? And do you 
think this is a potentially workable way of accomplishing that 
goal?
    Mr. Adelstein. Absolutely. I think it's an excellent bill, 
and I think that the agencies need incentive to move it. 
They've got--they're sitting on enormous amounts of spectrum. 
NTIA is trying to get them to move. But, if you actually have 
them have a piece of the pie so that they can pay for their own 
costs of moving to new systems, also they can maybe buy new 
radio systems--some Federal systems are very antiquated--and if 
you can say, ``Look, if you'll get off the spectrum, you can 
use new equipment, use it more efficiently. Here are some funds 
to do it.''--it takes Congress to do that, because right now 
the law requires that all proceeds from spectrum auctions go 
straight to the Treasury. Why not let some go to the agencies 
that need those costs to recover the cost of them to move? I 
think that bill would help to move more spectrum into the 
commercial mobile use, which we urgently need, as we've 
discussed throughout this hearing.
    Senator Markey. Yes. I think we do need to find some way, 
Mr. Chairman, of incentivizing all these agencies to move, and 
maybe finding a little revenue stream that helps them with--pay 
for their costs.
    And so, you know, I'd like to work with you--I know my 
staff's been talking to your staff about it, but I'd love to be 
able to work with you and Senator Fischer and try to find some 
smart way of kind of replicating what we did in the past. These 
agencies have more spectrum than they need. And hopefully we 
could work together to accomplish that goal.
    Do any of the other witnesses want to speak on that bill?
    Mr. Kinkoph. From an NTIA standpoint, while it's not my 
area of expertise on the spectrum side, I do know that our 
Office of Spectrum Management is currently reviewing that. Be 
happy to put our staff in contact with yours.
    Senator Markey. That would be helpful to us.
    Thank you, Mr. Chairman.
    The Chairman. The Senator from Massachusetts is right, the 
Federal Government is sitting on a large share of that 
spectrum. We need to figure out how to break that loose. So, I 
look forward to working with you.
    The Senator who represents America's team, the Senator from 
Wisconsin.
    [Laughter.]

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you. Thank you, Mr. Chairman. I'm 
sure the Chairman would also agree with me that we obviously 
need that spectrum to broadcast Green Bay Packer games, you 
know, primarily.
    [Laughter.]
    Senator Markey. We'll see you in the Super Bowl.
    [Laughter.]
    Senator Johnson. I hope so.
    [Laughter.]
    Senator Johnson. Mr. Morrison, I want to kind of pick up 
where you left off, talking about the difficulty of negotiating 
with the government. Tell me, from your perspective, why that 
is. I mean, what is the impediment?
    Mr. Morrison. I think, first and foremost--and we talked 
about it earlier, my colleague with--from the PCIA --one, each 
Federal department has its own process. So, again, as we 
approach the Federal Government, it's, ``OK, which organization 
within the Federal Government?'' So, it's not standardized. The 
second thing is, the rules aren't the same. And then, the third 
component is that there's no set checklist. So, again, the 
Federal Government typically is good about, you know, 
providing, you know, lots of documentation on policies and 
procedures. In this particular area, we just need a simple 
checklist. We're happy to fill out all of the requirements. 
Just give us the checklist, let's stick to the checklist. And 
again, there really should be something driving the timeline--
the timeliness of this, and that would greatly help the 
industry.
    Senator Johnson. Mr. Adelstein, just last week the GSA 
indicated to my staff that it has taken steps to implement some 
of the siting provisions we included in the Spectrum Act of 
2012. From your perspective, have they taken adequate actions? 
And, if not, what do they need to do?
    Mr. Adelstein. I think they could do more. I think it was 
very helpful. You know, you talk about long it takes the 
Federal Government to do things. Congress mandated they do that 
in 2012, and here we are in 2015, almost 2016, and they got it 
done. So, you wonder what takes so long. We talked about the 
fact that you have to renegotiate sometimes every site is 
different. And we've asked, and you've talked about legislation 
that would help to improve that process. I think that there's a 
lot that the Broadband Opportunity Council could do further. I 
think they've done a lot. The report was very helpful, as far 
as it went. But, I think Congress can do more on Federal lands. 
The legislation that Senator Rubio and Senator Klobuchar talked 
about introducing with Senator Gardner today, and, I think, 
with your support, the Federal lands would be--would speed the 
deployment coming up with more standardized processes so each 
time we have to negotiate for a lease, it doesn't have to be 
reinventing the wheel every time with some bureaucrat who, 
frankly, doesn't care that much. I mean, it--to their own 
credit, they have other responsibilities, they're busy, they've 
got a big pile on their plate, and they're not thinking about 
broadband. But, the President has said, ``You should be 
thinking about broadband.'' He put together a council to talk 
about it. He issued an executive order. And GSA still took 3 
years to basically even put together a common lease form. So, 
there's a lot more that needs to be done. I think that the work 
by this committee in enacting legislation to promote that in--
with your support and leadership, I think can really help to 
expedite, at least on Federal lands, getting broadband 
deployed.
    Senator Johnson. You know, in order to get some of this 
legislation passed or some of these policies implemented, it's 
really nice to have a really good anecdotal story. Do you have 
any stories that just kind of speak to how absurd this is?
    Mr. Adelstein. Well, you know, I was talking to somebody a 
little while ago about--they were trying to get something 
through in the California area, which can be notoriously 
difficult, and it--he had planned on, ``You know, OK, it's 
going to take a while. I need 5 years.'' Ten years later, he's 
still trying to get it sited there, an area where there is no 
broadband coverage, you're going down a major highway, and 
everybody gets their calls dropped there. So, you'd think, OK, 
this is the place to do it. It's a desert, where there's really 
not a lot you need to worry about. You put a tower there, 
it's--you know, might disturb a lizard or something, but, 
basically, what is, you know, the problem, here, when people 
are trying to get work done as they're commuting or somebody 
might be in the car, traveling with them. You shouldn't be on 
your cell phone in the car, but, you know, if you're--need that 
service as you're driving down--emergencies and public safety--
why can't we get that done? Why does it take 10 years? And 
today, he still hasn't gotten that approved.
    Senator Johnson. Mr. Morrison, do you have any a example? 
Or anybody else want to offer up a good anecdote to help get 
these things implemented?
    Mr. Morrison. I would just reiterate that, again, 15 years 
in the industry, I have several examples that corroborate that, 
that what should have taken one, maybe two, years, from a 
government perspective, drag on from 5 to 10 years. That's 
absolutely not uncommon.
    Senator Johnson. Again, just basically put up a tower.
    Mr. Morrison. That's correct.
    Senator Johnson. Yes.
    I have no further questions. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johnson.
    I want to follow up. Mr. Morrison, you mentioned, in your 
testimony--you were talking about how long it takes to get this 
stuff done--how the FCC's 2009 shot clock action has 
significantly decreased the time spent on zoning and approval 
processes, and reducing a widely recognized barrier to 
deployment. And this question has to do with whether or not a 
similar shot clock applied to Federal agency decisionmakers 
could be similarly helpful.
    So, I'd like to get the opinion of the full panel, and 
start with you, Mr. Morrison, about your thoughts on a shot 
clock for other Federal agencies, and how that shot clock might 
be implemented.
    Mr. Morrison. The shot clock, in my opinion, is very 
effective. I would acknowledge that not every jurisdiction 
necessarily follows it to the letter, but it has had a 
significant impact in reducing what could have been 18-24 month 
process, in some of other bigger jurisdictions, down to 6 
months or less. So, in my opinion, though it's not 100 percent 
coverage or fully in effect, it's had a very significant 
impact, in that, yes, if the Federal Government were to adopt 
something similar, again, not just for permitting and zoning, 
but also for the lease opportunity, it would have a positive 
impact.
    The Chairman. Others on the panel? Shot clock.
    Mr. Adelstein. Yes. I think--you know, shot clocks have 
been very effective in implementing broadband deployment. One 
of the things that Congress had to do was to tell localities 
that, ``You can't require zoning again on a tower you've 
already zoned.'' That was literally what they were doing. If 
you have a shopping mall, you don't have them rezone it just 
because, you know, Kmart's moving out and somebody else is 
moving in, but that's what was happening.
    So, it took great bipartisan leadership in this committee 
to get that done. And the FCC, in its wisdom, said, ``OK, look, 
at the end of the process, if--even after all that, if you 
can't get it done within the period of the shot clock, we're 
going to deem it granted. We're going to say you've got to make 
a decision now.'' A shot clock doesn't require a decision in 
the affirmative. It just says you've got to decide within a 
reasonable period of time.
    And on a situation like a co-location, I think it made 
sense that the FCC said, ``If you're just putting something up 
to expand capacity on an existing already zoned facility, let's 
just deem it approved if you can't get it done within a certain 
period of time.'' And that's something that you might consider, 
as well.
    Senator Johnson. Mayor?
    Mr. Resnick. Mr. Chairman, just--in my testimony, I 
mentioned that Florida adopted these time frames--similar time 
frames--actually, 3 years--prior to the FCC's shot clock. And 
that--those time frames were adopted in cooperation by cities 
working with the industry and coming up with the language of 
that statute. So, this was something that we worked 
cooperatively with the industry in coming up with, and it's 
worked well.
    There are some important exceptions to those time frames 
written into the Florida statute that are not written into the 
FCC's order that you might want to think about, like, for 
example, if there's an emergency and it's impossible to have 
the meetings or whatever that has to take place to process the 
application, there's tolling of the time frames. If there's a 
hurricane hitting Florida and the Governor sets forth a state 
of emergency, the time frames are tolled. Similarly, if the 
local government cannot have their review process conducted in 
that timeframe, just because it's not possible to schedule the 
public reviews that might be necessary, the time frames are 
tolled, as well as the applicant and the local government can 
agree to extend. And, in my experience in Florida, as--even 
after the FCC shot clock was announced, most of the times the 
extensions come at the request of the applicant. They're just 
not ready to proceed with all the information needed to pursue 
the application or to address questions that are going to come 
up at a public hearing.
    So, I think if you set forth time frames for the Federal 
agencies--and I don't know how their review processes take 
place--but, you might want to build in to some of those time 
frames the exceptions to allow the time frames to toll.
    With respect to the remedy if they don't meet the time 
frames, that's important. You can't just say, ``It's deemed 
approved. Go build your tower.'' Because, one, it's going to be 
very difficult--Mr. Adelstein can talk more about this than I 
can--but, it's my understanding that it's going to be very 
difficult to get insurance to cover that construction and that 
tower if they're doing it without a permit. So, there is--
there's still value in saying, ``It's not deemed approved. You 
can go construct your tower, but you still need to get a 
permit.'' Whatever process is required for that under a Federal 
level, they should still have to go through the permit.
    The one that you might want to consider, local governments 
have gotten very swift at negotiating leases for local property 
with infrastructure providers. Maybe as a remedy, have the 
Federal property be turned over to a local government. And I'm 
sure they'd be willing to take it, and we can negotiate a lease 
much swifter than the Federal Government, apparently.
    The Chairman. That would be a reverse power grab, I guess--
--
    [Laughter.]
    The Chairman.--which I think many of my constituents would 
support.
    But, it sounds like what you're saying is, you think what 
you have done could be applied to Federal agencies in the way 
that you----
    Mr. Resnick. Right. I mean, it's worked. I'm not aware of 
any instances, really around the country, where there's been 
tremendous fights because of not meeting the time frames. 
Perhaps Mr. Morrison might have specific examples. But, for the 
most part, it has worked, and the industry and the local 
governments continue to work cooperatively on processing these 
applications in a timely fashion. And again, I'm not familiar 
with the review that's required by the Federal agencies, but 
it's worked, from the local government standpoint.
    The Chairman. OK.
    Mr. Kinkoph, you have extensive experience implementing 
coordinating programs aimed at increasing broadband deployment 
across the country. And, as you know, a broadly supported 
recommendation is to create a national data inventory of 
existing Federal property assets that may be suitable for 
facilitating broadband deployment and infrastructure. Such an 
inventory would include data on the condition, availability, 
location, and ownership of Federal property. It seems that NTIA 
is well positioned to manage such a data base, particularly 
considering the work your agency's already done on the national 
broadband map. Can NTIA, with support from Congress, obtain 
from other Federal agencies the key information needed to 
create this inventory?
    Mr. Kinkoph. NTIA is currently going to be part of a team 
that is doing that through the Broadband Opportunity Council. 
And if so, it is being led by OSCP and NEC, and NTIA will be 
part of that team to gather that information and provided it on 
an open data source so that other organizations can create 
maps, or whatever they need to do with it. But, at this time, 
I'm not in a position to say that NTIA would take that on.
    The Chairman. OK. Can't say that, but----
    Mr. Kinkoph. I would have to----
    The Chairman.--it could happen?
    Mr. Kinkoph.--back.
    [Laughter.]
    The Chairman. OK. Well, that's--I mean, if we were to give 
some direction there, you seem well suited and positioned----
    Mr. Kinkoph. Yes.
    The Chairman.--your agency does, to do that.
    Mr. Kinkoph. Resources are always an issue.
    The Chairman. Right. OK. Well, that would certainly have to 
be addressed, as well.
    In addition to the types of information that I mentioned, 
which--you know, location, availability, ownership, et cetera--
what other types of data do you think ought to be included in 
that type of an inventory? And I direct that to you, and if 
anybody else wants to take a shot at that.
    Mr. Kinkoph. It's a--you know, my view is, it's--I don't 
have a checklist, but, you know, location of towers, conduits, 
fiber, and--you know, there's other issues that have to be 
addressed that hasn't been addressed here, and I'll just raise 
it: national security, national--you know, Homeland Security's 
part in the BOC, and all those issues have to take in as you 
become--and you publish those--that type of information. But, I 
believe that it should be as broad and as sweeping as possible 
to help the industry know and be able to deploy quickly 
throughout the U.S. But, I don't have a checklist currently 
with me.
    The Chairman. OK. All right.
    All right. Well, if there are no other questions, we 
certainly appreciate your testimony today and thank you for 
your responses. There were a couple of questions for the record 
that we'll try and get, and, if you can, get those back to us 
as quickly as possible.
    Of course, the hearing record will remain open for 2 weeks. 
During this time, Senators are asked to submit any questions 
for the record. And, upon receipt, the witnesses are requested 
to submit their written answers to the Committee as soon as 
possible.
    Thank you all very much.
    This hearing is adjourned.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

   Prepared Statement of Hon. Marco Rubio, U.S. Senator from Florida
    The Internet is the greatest invention of our generation. The 
possibilities it has created--from enabling a single mom to attend 
college online, to allowing a human rights activist to make their voice 
heard on Twitter--are virtually endless. It has been a transformative 
innovation that has changed our world and brought greater 
opportunities, prosperities and freedom within reach of more people. 
None of this is assured forever, especially as policies are debated 
nationally and internationally that would fundamentally change the 
Internet as we know it.
    For example, in 2010 the Federal Communications Commission 
identified the need for additional spectrum, the finite resource that 
makes the use of the Internet and wireless broadband possible. As we 
move toward an increasingly mobile digital economy, our national demand 
for spectrum will only increase. Unfortunately, the Federal gove1nment 
is relying on 20th century governance to oversee decisions regarding 
the future of our Internet and broadband capabilities.
    Today and further into the 21st century, we will need greater 
commercial access to the infrastructure, including spectrum, that has 
made the types of innovation we have become familiar with possible. For 
this reason, I introduced the Wireless Innovation Act, which has been 
supported by five of my colleagues on the Senate Committee on Commerce, 
Science, and Transportation. This bill would release government-owned 
spectrum to increase commercial use, identify ways to increase the 
efficient and transparent use of spectrum by Federal users, and 
incentivize the deployment of broadband on federally-owned property.
    I believe this framework is vital in bringing us closer to creating 
the infrastructure necessary for greater wireless access and closer to 
a global economy supported by the Internet of Things. That is why I 
have been working with my colleagues to pass the Wireless Innovation 
Act in order to bring our Federal plan for governing these resources 
more in line with 21st century realities.
    We should be identifying federally-owned spectrum and reallocating 
those resources through an auction pipeline to commercial entities. In 
the age of our growing Internet, the Federal Government should be 
helping, not hindering, innovation and investment through this process. 
We should also recognize there is a role for unlicensed and shared 
spectrum, and approach the process of reallocating spectrum in a 
comprehensive manner that facilitates the best use of our existing 
resources, without creating an approval or authorization process that 
prohibits growth and innovation.
    This process will in turn help to create more transparency and 
analysis around the use and the value of existing spectrum held by the 
Federal Government. We should know how our spectrum is used and, where 
possible, find ways to make it even more efficient. We should also have 
a streamlined process for the deployment of wireless infrastructure on 
federally owned or controlled property. This will allow data to move 
more quickly and allow for increases in coverage and capacity. Our 
government should not be a barrier to deployment because of outdated 
regulations.
    One reason I believe the Internet has worked so well because, for 
the most part, the Government hasn't stepped in to ruin it. Let's keep 
it that way.
                                 ______
                                 
                           Competitive Carriers Association
                                      Washington, DC, July 29, 2015

Hon. John Thune,
Chairman,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    Competitive Carriers Association (CCA) respectfully submits this 
letter for the record regarding today's hearing on ``Wireless Broadband 
and the Future of Spectrum Policy.'' CCA commends the Committee for 
beginning a bipartisan process to consider ways to meet future demand 
for wireless services through a long-term legislative solution.
    Mobile broadband is a critical component of modern life, and 
spectrum is the lifeblood of mobile services. CCA represents over 100 
competitive wireless providers ranging from small, rural carriers to 
regional and nationwide providers, as well as approximately 200 
associate members consisting of small businesses, vendors, and 
suppliers that service carriers of all sizes. All CCA members depend on 
procompetitive policies that support their ability to access critical 
spectrum resources and continued growth of mobile broadband to meet 
their customer's needs.
    In addition, mobile broadband powers advanced telemedicine, 
limitless education, employment prospects, public safety, precision 
farming, and other innovative new services and opportunities, both in 
urban population centers and in rural America. Indeed, nearly half of 
all United States households are now ``wireless only'' and PEW Research 
recently found that ``nearly two-thirds of Americans are now smartphone 
owners, and for many these devices are a key entry point to the online 
world.'' While carriers continue to make impressive progress to provide 
innovative services, there is still work to be done. CCA supports the 
Committee's focus on fueling broadband investment and growth with 
additional access to spectrum and by promoting policies that remove 
barriers to competition and facilitate the next disruptive innovation.
Ensure Competitive Spectrum Policies
    Building on the Spectrum Act and the progress made implementing it, 
Congress has a key role to play in creating durable, enduring processes 
to meet our wireless nation's spectrum needs. Looking over the horizon, 
rather than focusing on a particular spectrum band or technology, 
policymakers should foster efficient spectrum management that maximizes 
utilization of this finite, taxpayer-owned resource.
    While we all must cooperatively work to identify additional 
spectrum resources for mobile broadband use, competitive principles 
currently in place should guide future spectrum policy. For example, 
spectrum must be interoperable to support open ecosystems that allow 
carriers of all sizes and technologies to maximize use of spectrum to 
unleash new services. Interoperability was required for the original 
Cellular spectrum band, and policies requiring or restoring 
interoperability in other spectrum bands provide carriers with the 
certainty that scarce spectrum resources can be used to enhance 
competition and service offerings. Future spectrum allocations must be 
interoperable to support a competitive mobile ecosystem.
    Additionally, the FCC should continue to allocate spectrum in 
smaller geographic license sizes. CCA applauds efforts to reinforce 
this principle, and commends Chairman Thune's repeated support in 
previous hearings for using smaller geographic license sizes to 
encourage interest in rural areas. Smaller geographic license sizes, 
like Cellular Market Areas or Partial Economic Areas, are necessary for 
smaller carriers to be able to compete for spectrum at auction and 
support utilization nationwide, particularly in rural areas. 
Furthermore, policymakers should consider appropriate build-out 
requirements and, as required by the Communications Act, policies that 
help to avoid excessive spectrum aggregation that impedes competition.
The Next Band: A Broad Range of Solutions Should Be Considered
    There is no one-size-fits-all solution to making more spectrum 
available for mobile carriers, and each additional spectrum band will 
have unique utilization challenges and opportunities. Congress should 
consider a broad range of ideas that collectively add up to new and 
enhanced opportunities for access to additional spectrum resources. 
Market-based proposals, like those contemplated in the Rural Spectrum 
Accessibility Act (S. 417), provide incentives for wireless carriers to 
enter into business agreements to partition or disaggregate a spectrum 
license to make unused spectrum available to small carriers or for 
carriers to serve rural areas, particularly when this spectrum may 
otherwise go unused.
    Despite recent efforts to repurpose the AWS-3 band, the Federal 
Government remains the holder of the largest amount of spectrum. While 
Federal users must retain access to resources necessary to complete 
their missions, Congress should consider policies to support 
reallocation where appropriate. A good example is the Wireless 
Innovation Act (S. 1618), which supports identifying Federal spectrum 
that can be reallocated for mobile broadband use and encourages 
deployment on Federal buildings and lands. Another example, the Federal 
Incentive Auction Act (S. 887) provides monetary incentives for Federal 
users to reallocate spectrum for commercial use in exchange for a 
percentage of the auction proceeds. These legislative efforts provide 
opportunistic uses of spectrum which encourage more efficient use. As 
FCC Commissioner Rosenworcel has articulated, carrots to incentivize 
spectral efficiency among Federal users allow the mobile broadband 
industry and the Federal Government to cooperate to identify 
opportunities to maximize use of otherwise under-utilized spectrum.
    Increasing demand for spectrum, and the limited amount of new 
spectrum resources available for license, requires policies that 
consider opportunities that unlicensed spectrum offer for innovators, 
entrepreneurs and existing mobile operators to maximize spectral 
resources. Unlicensed spectrum, as a compliment to licensed spectrum, 
helps to support enhanced services and competition. In identifying 
future spectrum bands for potential reallocation for commercial use, 
higher frequency spectrum can support on-the-spot capacity solutions, 
while continued work to identify lower frequency spectrum to support 
wide area coverage, particularly in rural areas. Progress in 
identifying spectrum for unlicensed use in the 3.5 GHz and 5 GHz bands 
provides a good example of ways to support new technologies while 
enhancing licensed carrier services. Stakeholders prefer exclusive use 
of licensed spectrum, yet facing today's realities all options should 
be on the table. Access to new frequencies and technologies, with open 
ecosystems that support the availability of devices in all spectrum 
bands, for all carriers, should be encouraged.
Role of Technology
    Spectrum availability, as vital as it is, requires sound standards-
setting to support both competition and meet growing wireless demands. 
Policymakers should continue to play a role as standards are developed 
to ensure all Americans benefit from new innovations and technology 
advancements. Establishing core competitive principles for emerging 
technology while avoiding unnecessary regulation will help bridge the 
digital divide between urban and rural areas. New technologies like 
LAA, LTE-U, smart antennas, dynamic spectrum access and cognitive radio 
may help alleviate network congestion and provide carriers with new 
avenues to offer faster, more efficient service to otherwise unserved 
areas. This is a particular focus of CCA members that do not have the 
same spectrum portfolios of their largest rivals. Ensuring the 
capabilities of future networks now will help us to meet the needs of 
urban and rural consumers alike and in turn will spur development of 5G 
services. The United States has led the world in 4G deployment. The 
same should be true of 5G deployment, and these policies will foster 
that leadership. Policymakers should keenly emphasize that new 
technologies and services are available nationwide to maximize spectrum 
utilization and make sure that rural areas are not left behind as new 
services evolve.
Infrastructure
    While spectrum is the invisible infrastructure over which mobile 
services ride, carriers also depend on towers and other physical 
network components. Wireless broadband is necessarily dependent on 
costly infrastructure to provide services. Competitive carriers depend 
on reasonable facilities siting policies to deploy critical wireless 
services. Many competitive carriers serve the most rural areas of the 
United States and often face challenges obtaining prompt collocation or 
tower construction permits or rights of way for siting on Federal 
lands. Efforts to streamline the siting process and remove unnecessary 
red tape encourage faster deployment of mobile broadband infrastructure 
and services to consumers.
    The Bureau of Land Management (BLM), National Parks Service (NPS), 
United States Forest Service (USFS) Fish and Wildlife Service (FWS) and 
other Federal agencies own, manage, or administer significant portions 
of land, particularly in western and rural states. Competitive carriers 
seeking to deploy mobile broadband in these areas face unreasonable 
delays and other impediments to constructing and siting on these lands. 
Barriers to deployment often raise a carrier's cost through onerous 
administrative, legal and regulatory requirements. Consolidating 
Federal requirements, and trimming excessive or duplicative rules when 
multiple Federal agencies are involved in approving the same 
infrastructure project would help to streamline an otherwise laborious 
process. For example, creating an application clearing house to 
coordinate all Federal permitting required for a project would reduce 
delays and utilize limited resources more efficiently.
    Similarly, carriers depend on timely responses from state and local 
governments on siting applications. Shot clocks and other defined time 
frames and parameters allow for efficient application consideration 
without creating unnecessary delays or obstacles for carriers to expand 
their facilities. The Supreme Court's ruling in T-Mobile South LLC v. 
City of Roswell, which requires local and state governments to act 
expeditiously and clearly state their objections to a tower siting 
application, is a step in the right direction. Should further disputes 
regarding state and local authority continue to arise, we encourage 
Congress and the FCC to provide additional guidance to provide clear 
rules of the road for tower siting.
Certainty Regarding Other Inputs to Wireless Broadband Supports 
        Continued Investment
    While today's hearing is focused on spectral inputs for continued 
growth of mobile broadband services, CCA would be remiss not to mention 
the need for certainty regarding access to other inputs and incentives. 
For example, carriers, non-nationwide carriers in particular, require 
access to reasonable data roaming, access to devices, and certainty 
regarding the Universal Service Fund (USF) to continue to invest to 
meet growing demands. Congress created USF to provide reasonably 
comparable services to urban and rural consumer alike, requiring that 
support be predictable and sufficient. These policies have enabled 
years of expansion of mobile wireless services in rural America. USF 
injects a healthy dose of funding to supplement and compliment 
competitive carriers' private sector investments to expand mobile 
broadband service in rural and high cost areas that are otherwise 
uneconomical to serve. Any uncertainty regarding existing and future 
support has the potential to delay or prevent deployment of broadband 
infrastructure.
    Uncertainty regarding existing and future support has the chilling 
effect of stalling deployments and forcing carriers to make difficult 
decisions regarding existing and planned mobile broadband services. In 
addition, this uncertainty has the potential to strand existing 
investments, leaving behind a legacy of rusty towers and reduced 
services. Congress must continue its oversight to ensure that USF 
support is sufficient and predictable to support wireless service 
throughout rural America.
    Similarly, uncertainty regarding the availability of devices to 
utilize new spectrum allocations or access to backhaul and roaming to 
provide services limits smaller carriers' ability to invest and provide 
services in rural and underserved areas. As the legislative process 
continues, CCA encourages the Committee to focus on providing carriers 
of all sizes with access to all inputs necessary to meet continually 
growing demands.
    In conclusion, CCA applauds and supports committee efforts to 
provide additional spectrum resources for mobile broadband and welcomes 
the opportunity to help craft a proactive approach to potential 
solutions. Enacting policies that provide competitive carriers with 
certainty while eliminating or streamlining burdensome procedures and 
creating innovative solutions to access finite spectrum resources will 
encourage investment and expansion in mobile broadband infrastructure 
and foster continued innovation and economic growth. Consumers across 
the United States, especially in rural areas, will benefit from 
Congress's continued focus on policies that support competition and 
investment in mobile broadband. CCA appreciates the opportunity to 
contribute to the record for today's hearing, and looks forward to 
continued work with the Committee, its Members, and the FCC on these 
important issues to increase mobile broadband services and support 
competition in the industry. Please do not hesitate to contact me with 
any questions.
            Sincerely,
                                           Steven K. Berry,
                                                 President and CEO.
                                 ______
                                 
                           Aerospace Industries Association
                                     Arlington, VA, October 6, 2015

Hon. John Thune,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United States Senate,
Washington, DC.

Dear Chairman Thune and Ranking Member Nelson:

    The Aerospace Industries Association (AIA) represents an industry 
that directly employs more than one million workers across the country, 
and provided $220 billion in revenue and $118 billion in exports in 
2014 alone. This industry supports a broad swath of the American 
economy, including the civil aviation industry, which contributed $1.5 
trillion to the Nation's economy in 2012. Equally importantly, our 
members design, develop and manufacture the cutting-edge aircraft, 
satellites, and weapon systems that keep our Nation safe and protect 
U.S. national interests around the globe.
    As you know, many of the technologies the aerospace and defense 
industry depends upon, develops, and delivers are spectrum-dependent. 
Without continued and reliable access to spectrum, Federal agencies and 
military service members may not be able to accomplish their missions 
effectively. Consequently, our industry is a critical stakeholder in 
the debate on spectrum policy and the management and use of spectrum by 
the Federal Government. We understand that the civilian economy demands 
increased access to additional spectrum for commercial broadband. 
However, changes in spectrum policy must take care to ensure that any 
such transition not be conducted to the detriment of our national 
security, intelligence capabilities, or new entrants to our economy 
such as the integration of unmanned aircraft into our national 
airspace.
    Existing manufactured systems should be taken into account when 
considering spectrum policy changes. Many aerospace and defense systems 
are developed in accordance with international standards to operate in 
certain frequencies. Many missions and applications require 
technologies to operate on specific frequencies given the constraints 
placed on technology by the laws of physics. Yet, as technology 
advances and subscriber usage and markets evolve, the frequencies where 
some services can operate may also change. For example, the commercial 
wireless industry has pursued higher and higher frequency bands to 
complement their existing systems, whereas it was once thought that 
only lower frequencies could be technologically or economically 
feasible. As such, AIA requests that policymakers undertake a cautious 
approach and determine the readiness of alternative technology 
solutions and associated impact to end users by working collaboratively 
with the U.S. aerospace & defense industry in formulating policy.
    The systems built by our members are primarily developed and 
manufactured in the United States. All of AIA's members are U.S. 
manufacturers. We have an established industrial base and supply chain 
that makes enormous contributions not only to our country's economy, 
but also to our Nation's safety and well being. Our ability to 
accomplish these goals relies on the continued availability of spectrum 
to support our systems and solutions.
    I respectfully request your approval, if appropriate, to place a 
copy of this letter in the hearing record of your October 7, 2015 
hearing titled ``Removing Barriers to Wireless Broadband Deployment.'' 
We greatly appreciate your expertise and leadership on spectrum issues, 
and as you pursue changes in spectrum policy in the current Congress, I 
hope you will consider the needs of our industry and consider us a 
resource in future stakeholder discussions.
            Sincerely,
                                          David F. Melcher.
                                 ______
                                 
             Aerospace Industries Association--Issue Paper

 Spectrum--Critical to U.S. Aerospace & Defense Industry Contributions 
                 to U.S. Economy and Global Leadership

AIA Recommends Spectrum Principles for U.S. Policymakers
    The Aerospace Industries Association (AIA) recommends that U.S. 
policymakers advance spectrum principles that:

  <bullet> Include the interests of all spectrum stakeholders, 
        including U.S. aerospace & defense industry.

  <bullet> Recognize that our industry contributes high-tech jobs, 
        exports, technology innovation, research and development (R&D) 
        benefiting both the U.S. economy and U.S. national security.

  <bullet> Enable the aerospace and defense industry to continue as the 
        single largest U.S. net exporter of technologically-advanced 
        systems and solutions.

  <bullet> Promote U.S. economic growth by ensuring continued safe, 
        stable and secure operation of U.S. systems and technologies--
        aeronautical, radar, satellite--that enable critical weather 
        forecasting, public safety, air traffic control, navigation, 
        flight testing, earth monitoring, and national security 
        activities.

  <bullet> Ensure our industry's ability to access critical spectrum to 
        support R&D, and safe, efficient and secure facility and 
        manufacturing operations.
Key Facts About the U.S. Aerospace and Defense Industry

  <bullet> Employs more than 1 million workers across the United 
        States.

  <bullet> In 2014 generated over $220 billion in revenue and exported 
        over $118 billion.

  <bullet> The U.S. civil aviation industry contributed $1.5 trillion 
        to the U.S. economy in 2012. Last year 848 million passengers 
        flew on U.S. domestic flights and on foreign airlines serving 
        the U.S.
Discussion
    Spectrum is vital to everything that the U.S. aerospace and defense 
industry creates, so it is critical that policymakers take the needs 
and concerns of the industry into account in debates on spectrum 
sharing, Federal spectrum repurposing, and commercial spectrum 
requirements. The performance of high-tech, advanced platforms, systems 
and solutions that we innovate, develop, manufacture, and deploy are 
dependent on spectrum preservation and access. Therefore, we have a 
vital stake in discussions about Federal spectrum policy.
Critical Spectrum Uses for Technology Operation and Development
    Spectrum is an enabler of advance aerospace and defense systems, 
solutions and services provided to commercial, Federal and 
international customers. The U.S. aerospace & defense industry invests 
substantially in new and existing technologies that rely on spectrum, 
including:

  <bullet> Civil Aviation and NextGen
  <bullet> Unmanned Aircraft Systems
  <bullet> Commercial Space Transportation
  <bullet> Critical Infrastructure Protection
  <bullet> The Global Positioning System
  <bullet> Radars
  <bullet> Earth Observation
  <bullet> Weather Forecasting
  <bullet> Secure Global Communications
  <bullet> Maritime Communications
  <bullet> Missile Launch Warning

    The U.S. aerospace and defense industry is comprised of large 
manufacturers, as well as medium and small suppliers, which rely on 
certain frequencies with specific technical characteristics in the 
manufacturing and testing process. These cutting-edge technologies must 
be safely and securely tested to ensure our systems meet the safety 
requirements of our customers. Civil aviation users include airlines, 
business aviation, and private pilots. Government users include the 
U.S. military, law enforcement, customs and immigration enforcement, 
and state agencies.
Technological Considerations
    Existing manufactured systems should be taken into account when 
considering spectrum policy changes. Many aerospace and defense systems 
are developed in accordance with international standards to operate in 
certain frequencies. Many missions and applications require 
technologies to operate in specific frequencies given the constraints 
placed on technology by the laws of physics. Therefore, it is not 
always possible to simply move technologies to new frequencies. While 
our industry is open to discussions on relocation and sharing where it 
makes technological and financial sense, sometimes it may not be 
feasible for a particular application or mission, due to the technical 
operating characteristics of specific frequency bands--including signal 
range, power requirements, signal penetration into objects like 
buildings, and interference with other systems.
    Yet, as technology advances, the frequencies where some services 
can operate may also change. For example, the commercial wireless 
industry has pursued higher and higher frequency bands for their 
systems, whereas it was once thought that only lower frequencies could 
be economically feasible. As such, AIA requests that policymakers 
undertake a cautious approach and determine the readiness of 
alternative technology solutions and associated impact to end users by 
working collaboratively with the U.S. aerospace & defense industry in 
formulating policy.
Summary
    AIA supports a long-range vision that provides reliable access to 
spectrum for the aerospace & defense industry, the wireless broadband 
industry, and government investments alike. AIA looks forward to 
engaging with U.S. policymakers, both as a stakeholder and as a 
resource to ensure the U.S. has a robust, balanced, and inclusive 
spectrum policy that preserves our Nation's civil aviation, 
communication and navigation systems, and national security.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                            Douglas Kinkoph
    Question. Earlier this year, Senator Klobuchar and I introduced the 
Rural Spectrum Accessibility Act, which would incentivize wireless 
carriers to lease unused spectrum to smaller rural carriers. Have any 
of the witnesses had an opportunity to review this proposal or others 
to incentivize spectrum sharing? Do you believe this would help expand 
access?
    Answer. NTIA manages Federal use of spectrum while the Federal 
Communications Commission (FCC) manages non-federal use. Thus, the FCC 
may be in a better position to comment on the specifics of the proposed 
Rural Spectrum Accessibility Act. The Administration has not taken a 
position on this specific proposal. However, NTIA generally supports 
appropriate initiatives to expand access to spectrum and facilitate 
efficient use of scarce spectrum resources, which are clear objectives 
of the proposed measure.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Douglas Kinkoph
    Question 1. Companies in my state that are currently trying to 
build much needed broadband infrastructure have been delayed by 
unexpected requirements in the permitting process. How can we improve 
transparency in the permitting process to avoid this?
    Answer. State, local, and Federal permitting delays often impact 
broadband construction projects, and all levels of government should 
work to increase transparency to facilitate the permitting process. At 
the Federal level, President Obama recognized the importance of 
transparency when he issued Executive Order (EO) No. 13616, 
``Accelerating Broadband Infrastructure Deployment,'' to facilitate 
wired and wireless broadband infrastructure deployment on Federal 
lands, buildings, and rights-of-way. While Federal agencies have made 
significant progress in streamlining Federal processes, the 2015 
Broadband Opportunity Council (Council) received input from 
stakeholders indicating that the Federal Government can still do more 
to help service providers obtain the necessary permits and permissions 
to build out broadband networks on Federal lands and use Federal assets 
or cross Federal rights-of-way, particularly by streamlining Federal 
permitting processes. Building on the EO 13616 actions, the Council's 
report includes agency commitments to create an online inventory of 
data on Federal assets, such as the Department of Interior (DOI) 
telecommunications towers, that can help support faster and more 
economical broadband deployments to remote areas of the country. 
Additionally, the Administration is committed to streamlining the 
applications for programs and permitting processes to facilitate 
broadband deployment and foster competition. The implementation of 
these agency actions should help to improve transparency and minimize 
delays in gaining access to Federal assets for increased broadband 
investments.

    Question 2. Companies in my state have explained that they try to 
build their infrastructure across State, private, or Alaska Native 
land, rather than deal with the problems associated with crossing 
Federal land. Do you agree that it is a problem that the private sector 
is avoiding building broadband infrastructure on Federal land, 
especially when more than 60 percent of Alaska is owned by the Federal 
Government?
    Answer. Federal lands, buildings, and assets are important conduits 
for broadband deployment and should be readily accessible for 
deployment of broadband infrastructure. The Broadband Opportunity 
Council (Council) heard from multiple stakeholders urging Federal 
agencies to take action to streamline processes and standardize 
timelines for the review and processing of permitting applications and 
make such documentation easily accessible. One of the Council's guiding 
principles is that the Federal Government should strive for uniform 
definitions and common permitting and application processes to reduce 
the burden on local government, state government, non-profit, and 
private applicants applying for Federal resources. The deployment of 
broadband requires collaboration between the public and private sectors 
and often cooperation across multiple levels of government. Federal 
agencies should work closely with the private sector and local and 
state governments to ensure Federal policies facilitate investment in 
broadband services.

    Question 3. I, along with some of my colleagues, sent a letter to 
the Co-Chairs of the Broadband Opportunity Council. In it, we asked for 
an analysis of current broadband initiatives. Can you point to any 
specific initiatives that are working particularly well? Can you point 
to any that are not?
    Answer. NTIA was responsible for implementing the broadband grants 
programs established by the American Recovery and Reinvestment Act. We 
believe this program was a resounding success. It fully delivered on 
its pledges to create jobs, stimulate economic development, spur 
private-sector investment, and open up new opportunities in employment, 
education, and healthcare. NTIA's broadband grantees deployed more than 
115,000 miles of new or upgraded network miles; connected more than 
25,500 community anchor institutions; installed or upgraded more than 
47,100 personal computers in public access centers; and prompted more 
than 670,000 people to subscribe to broadband services.
    Through the ongoing BroadbandUSA initiative, NTIA is leveraging the 
expertise gained by overseeing this broad portfolio of broadband 
infrastructure and adoption grants to help communities expand their 
broadband capacity. NTIA's technical assistance ranges from workshops 
and webinars to more personalized one-on-one community assistance. NTIA 
can help communities navigate government rules and grant programs; find 
the best way to design and deliver a broadband adoption program; and 
attract broadband investment. To date, NTIA has held four regional 
workshops to bring community and industry stakeholders together to 
discuss how best to support their broadband needs. NTIA has also 
released field-tested guides such as our Broadband Adoption Toolkit, 
Public-Private Partnership Primer, and Guide to Federal Funding of 
Broadband Projects to inform community broadband efforts. NTIA has 
received very positive feedback on its broadband initiatives and plans 
to issue additional publications on broadband topics over the next 
several months.
    Additionally, through the Broadband Opportunity Council (Council) 
all member agencies were surveyed to identify programs that could be 
modified to support or further support broadband. The Council then 
developed 36 immediate actions, with associated milestones, that the 
member agencies agreed to undertake. Once implemented, we believe that 
these recommendations will make a meaningful difference to communities 
seeking new tools and resources to promote broadband investments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                            Douglas Kinkoph
    Question 1. Mr. Kinkoph, you talked about the FCC's recommended 
download speed of 25 megabits per second and how over 50 million 
Americans' current broadband connection does not meet that standard. 
But does the average consumer really need 25 megabits per second? You 
can stream HD video at 4 megabits per second and 10 megabits per second 
is considered industrial strength. So why are we focusing on upgrading 
download speeds for Americans who already have broadband when there are 
still plenty of people--many in Montana--who have no connectivity at 
all?
    Answer. NTIA recognizes that consumers' needs for broadband speeds 
will vary depending upon their broadband usage or the types of 
applications they demand. In its February 2015 Broadband Progress 
Report, the Federal Communications Commission (FCC) updated its 
broadband benchmark speeds to 25 Mbps for downloads and 3 Mbps for 
uploads to reflect advances in technology, market offerings by 
broadband providers, and consumer demand. The FCC noted that high-speed 
broadband is essential to support video, telemedicine, distance 
learning, and other applications needed by such end users as hospitals, 
schools, and libraries. In many cases residential broadband connections 
serve multiple people as well as a variety of devices within a single 
household therefore increasing bandwidth needs and the demand for high-
speed broadband. Additionally, consumers using broadband to stream and 
download HD video will require higher speeds to ensure they receive an 
acceptable quality of service. Still, NTIA knows that there are many 
areas of our country, particularly in very rural areas and tribal 
lands, where any broadband connection would be an improvement over what 
exists today.
    NTIA has demonstrated a longstanding commitment to promoting 
broadband deployment and adoption in unserved and underserved areas, 
including parts of Montana. Through the Broadband Technology 
Opportunities Program, for example, NTIA awarded a $13.7 million grant 
in 2010 to Ronan Telephone Company (RTC) to deploy a new high-speed 
middle-mile network to expand broadband services and promote economic 
development and recovery for underserved communities of Montana, 
including the Blackfeet and the Confederated Salish and Kootenai 
Tribes. As of June 2015, the project deployed 299 miles of new fiber 
and upgraded 106 miles of existing fiber. RTC also signed agreements 
with local Internet service providers to facilitate more affordable and 
accessible broadband service for households and businesses in the area. 
To date, RTC has connected 34 Community Anchor Institutions (CAIs), 
including educational institutions, government facilities, public 
safety entities, and medical facilities. RTC also partnered with Health 
Information Exchange of Montana to facilitate telemedicine and improved 
healthcare delivery for rural residents.
    While much progress has been made, challenges still remain in 
bringing broadband to unserved areas of the country. Much of the easy 
work has been done--building out broadband infrastructure where the 
business case is compelling or encouraging broadband adoption and use 
among those who are already digitally ready. NTIA is committed to 
tackling the hard work that needs to occur to reach those communities 
where geography and economics render broadband deployment, competition, 
and adoption difficult to fully realize. NTIA is taking action through 
its BroadbandUSA initiative to offer communities the technical 
assistance and support they need to overcome their unique challenges 
hindering investment in broadband infrastructure and adoption.

    Question 2. Mr. Kinkoph, NTIA has several different programs and 
partnerships to carry out its mission with respect to broadband, as do 
dozens of other Federal agencies. In fact, as you mentioned, the 
Broadband Opportunity Council report gave recommendations to over 
twenty Federal agencies. That sounds like a lot of agencies involved in 
carrying out the one common goal to bring broadband connectivity to 
Americans. What programs and policies does NTIA have in place to ensure 
that there is no overlap or waste?
    Answer. The President created the Broadband Opportunity Council 
(Council) to provide a vehicle for strategic coordination among Federal 
agencies to promote greater broadband deployment and adoption. While 
there are several Federal agencies involved in promoting broadband use 
and adoption, many of the agencies named to the Council had never 
viewed broadband to be part of their core missions. So an initial part 
of the Council's task was for each agency to look internally at their 
existing policies and programs to explore whether there was flexibility 
to do more to promote broadband. This exercise helped raise the profile 
of broadband as a tool that these agencies could use to fulfill their 
missions and further agency goals. Council members collectively became 
more informed about barriers and issues facing stakeholders trying to 
deploy broadband and promote broadband adoption.
    NTIA will continue to co-chair the Council to promote coordination 
among Federal agencies and monitor implementation of the agency 
actions. Additionally, interagency coordination is a key component of 
NTIA's BroadbandUSA initiative. BroadbandUSA regularly receives 
requests from other Federal agencies to provide input on broadband 
policies, review proposed legislation and rulemaking on broadband 
issues, and participate in their workshops or outreach activities 
related to broadband. In this role, NTIA can strive to minimize any 
overlap or duplication in Federal agencies' various broadband 
initiatives.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                            Douglas Kinkoph
    Question. It is clear from the recent spectrum auction, which 
attracted over $44 billion in bids, and from your testimony that the 
demand for licensed wireless spectrum is growing. While Congress is 
addressing the need for licensed spectrum, we must also take seriously 
the need to expand our reserve of unlicensed spectrum for Wi-Fi and 
other purposes. Just how important is unlicensed spectrum and Wi-Fi to 
the continued expansion of mobile device communication?
    Answer. Wi-Fi, and unlicensed spectrum use more broadly, continues 
to be a tremendous innovation success story. The Administration has 
stated that both licensed and unlicensed spectrum must be part of the 
country's spectrum policy. The Federal Communication Commission's (FCC) 
upcoming incentive auction will open up bandwidth by allowing 
unlicensed wireless use in the resulting guard bands. Earlier this 
year, NTIA collaborated with the FCC to enable a three-tier licensing 
approach that includes more traditional incumbent and priority access 
as well as general authorized access licenses (which provide low-
barrier access to spectrum, much like unlicensed use) to frequencies in 
the 3.5 GHz band through the adoption of innovative mechanisms for 
sharing the spectrum with incumbent Federal systems. Even in areas 
where all priority licenses are in use, this sharing regime will make 
up to 80 megahertz of spectrum available to users who simply need 
certified equipment to operate, which could potentially help create a 
new space for innovative services to flourish. NTIA also is working 
closely with the FCC, other Federal agencies, and industry to evaluate 
and facilitate compatibility between unlicensed devices and incumbent 
systems to enable spectrum sharing in the 5 GHz band. Finally, NTIA is 
also working with the FCC on innovative approaches to increasing 
unlicensed access in the 64-71 GHz band.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                       Hon. Jonathan S. Adelstein
    Question. I've introduced The Wireless Innovation Act to free up 
more spectrum for commercial use and to streamline wireless 
infrastructure deployment, particularly on Federal property. I'd like 
to know whether within the Federal Government there are agencies that 
your members find to be particularly challenging?
    Answer. The myriad of processes and procedures among different 
Federal agencies often poses insurmountable obstacles to siting 
wireless infrastructure on Federal property. PCIA strongly supports the 
Wireless Innovation Act (``WIA'') you introduced because, among other 
important provisions, it includes a number of critical reforms to the 
Federal siting process. WIA would be a tremendous help in making the 
siting process on Federal property friendlier to wireless broadband 
buildout. A more standard approach to siting would allow easier 
interaction with agencies borne of varied histories and comprised of 
different cultures and values. The agencies have good people doing good 
work, but to date there have been bad processes or a lack of processes. 
Congress is well suited to provide direction and clarity that is 
otherwise lacking in the broadband deployment process on Federal lands 
today.
    Just recently, the GSA indicated that it has at last taken steps to 
implement some of the siting provisions included in Section 6409 of the 
2012 legislation and that would be required under the Wireless 
Innovation Act. From what you know of GSA's actions, have they acted in 
a way that will expedite the process for siting on Federal properties? 
If not, what remains to be done?
    PCIA commends GSA's recent actions to follow its statutory 
mandates, albeit they late in implementing them. Its actions are 
certainly a step in the right direction but much more needs to be done. 
For instance, all landholding Federal agencies are not currently 
mandated to use the GSA forms or contracts. Without a requirement to 
standardize these forms across agencies, GSA's actions could be for 
naught. In addition, further congressional action is necessary to 
encourage long-term leases, swift renewal processes, and publicly 
available fee schedules. Moreover, without individuals at each agency 
who understand the important Federal mandate to spur broadband 
deployment and are empowered to approve or deny applications that have 
stalled at the field level, these projects will languish or will be 
abandoned. Even in light of GSA's recent actions, many of the 
provisions contained in the Wireless Innovation Act are necessary to 
further improve the process to site wireless facilities on Federal 
lands.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                       Hon. Jonathan S. Adelstein
    Question 1. Mr. Adelstein, in your written testimony, you discussed 
challenges related to the ``wireless data crunch.'' You also provided 
several examples of how to address the challenge including spectrum 
access, efficiencies, and infrastructure. Can you please expand upon 
your comments, particularly as it relates to infrastructure solutions 
and rural consumers?
    Answer. As I mentioned in my testimony, there is today an abundance 
of choices available to network planners to address the wireless data 
crunch. Traditional tall support structures effectively provide much of 
the coverage and capacity necessary for wireless broadband. To fill 
coverage gaps and overlay capacity in high traffic markets, the 
industry is also increasingly deploying distributed antennas systems 
and small cells. Further, the networks themselves are getting smarter. 
Self-optimizing networks and the combination of intelligent software 
and hardware design allows a network to anticipate usage and provide 
greater resources to areas of need on the fly, enhancing the user 
experience. Unlicensed spectrum similarly continues to play an 
important role in this system, offloading traffic to the wired network 
and providing greater headroom for licensed mobile services. Today's 
infrastructure will provide the cornerstone of the Internet of Things, 
5G, and the applications, services, and jobs that will make up the 
economy of tomorrow. This is especially true in rural areas. As 
technology improves, it may become easier to serve rural communities. 
Now, network planners have an abundance of choices to serve a diverse 
set of areas.

    Question 2. Earlier this year Senator Klobuchar and I introduced 
the Rural Spectrum Accessibility Act, which would incentivize wireless 
carriers to lease unused spectrum to smaller rural carriers. Have any 
of the witnesses had an opportunity to review this proposal or others 
to incentivize spectrum sharing? Do you believe this would help expand 
access?
    Answer. As I mentioned in my testimony, we need as much spectrum as 
we can get, as fast as we can get it. Whether it's new spectrum or 
reusing or repurposing current spectrum allocations, it is important to 
look at all potential solutions to ensure that all Americans and all 
communities are able to enjoy the enormous benefits that comes from 
wireless broadband.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                       Hon. Jonathan S. Adelstein
    Question 1. The construction season in Alaska is shorter than most. 
This does not allow for delays caused by roadblocks in the Federal 
permitting process. How can we improve the timeliness of permitting on 
Federal lands?
    Answer. The current process for siting wireless infrastructure on 
Federal lands is fraught with complications. Each landholding agency 
has their own process for siting, with different requirements and often 
different fees. PCIA has worked closely with Members of both the House 
and Senate on legislation to streamline and expedite the process. It 
would be very helpful, for example, if all Federal landholding agencies 
were required to use a common set of forms and contracts. Further, 
providing leases with a public and transparent fee schedule would 
provide the necessary certainty when deciding whether to invest in new 
infrastructure and shorten the timeline for individual site specific 
fee negotiations. The availability of long term leases and automatic 
renewal would also improve the Federal siting process, as would fee 
retention for the landholding agency.

    Question 2. One of our carriers in Alaska experienced delays and 
increased costs in getting permission to install towers in building out 
their network. This situation involved only a few towers, with a small 
footprint, in a large national wildlife refuge. Is this a situation 
where a ``shot clock'' could help speed up the permitting process?
    Answer. Yes. Applying a reasonable time limit on siting 
applications is helpful in the build-out of wireless broadband 
infrastructure on Federal or state lands. PCIA members are often 
frustrated with unreasonable and unnecessary delays in obtaining 
permits. It is not necessary to usurp local authority, but only receive 
a timely ``yes'' or ``no'' answer from the local government or agency.

    Question 3. Alaska has some of the most remote, sparsely populated 
communities in the U.S. Access to high speed broadband Internet enables 
these communities to connect locally and globally. Given Alaska's 
topography, and the remoteness of many communities, there is a strong 
need for wireless broadband to help serve these unserved and 
underserved communities. Considering that the Wireless Infrastructure 
Association (PCIA) works with federal, state, and local governments to 
remove barriers to wireless broadband deployment, how does PCIA work 
with Alaska Native leaders to identify and overcome barriers to 
wireless broadband deployment on Alaska Native lands?
    Answer. I have visited Alaskan Native lands and leaders in your 
state, and recognize the pressing need for connectivity there. PCIA has 
consistently highlighted that wireless is the most cost-effective 
infrastructure for low-density regions. Wireless infrastructure has the 
power to provide rural areas like those in Alaska the ability to 
compete in the innovation economy. One of the barriers to deployment in 
rural areas that PCIA has emphasized is access to Federal lands and 
property. Many of them that would benefit from streamlined siting are 
by definition rural. Having better access to Federal lands and property 
will help increase broadband availability in rural areas. PCIA 
recognizes that much of Alaska is Alaska Native land. We have worked 
with Native leaders through organizing and participating in workshops 
at the FCC that provide education on tribal wireless siting review 
processes and the importance of broadband deployment on Native lands. 
PCIA has also forged relationships with Tribal Historic Preservation 
Office leaders by inviting them to attend and speak at our Wireless 
Infrastructure Show.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                       Hon. Jonathan S. Adelstein
    Question. It is clear from the recent spectrum auction, which 
attracted over $44 billion dollars in bids, and from your testimony 
that the demand for licensed wireless spectrum is growing. While 
Congress is addressing the need for licensed spectrum, we must also 
take seriously the need to expand our reserve of unlicensed spectrum 
for Wi-Fi and other purposes. Just how important is unlicensed spectrum 
and Wi-Fi to the continued expansion of mobile device communication?
    Answer. Spectrum is a critical component for economic growth, 
international competitiveness and wireless innovation. As I noted in my 
testimony, more spectrum must be made available--as much as we can get, 
as fast as we can get it--because the demand for wireless mobile data 
continues to explode. Licensed spectrum remains a top priority because 
it allows for the greatest level of certainty and quality of service. 
However, both licensed and unlicensed spectrum are needed to continue 
incentivizing the incredible amount of investment that has made the 
U.S. the global leader in wireless innovation. Unlicensed spectrum is 
an important testbed for new applications in the consumer and 
enterprise space, and as wireless data demand increases, unlicensed 
spectrum is handling more and more of the offload and backhaul 
requirements.
    In order to continue to encourage private investment in wireless 
networks, Congress needs to modernize spectrum policy for both licensed 
and unlicensed spectrum uses. This is why PCIA supports S. 424, the Wi-
Fi Innovation Act. Your bill recognizes that the U.S. faces both an 
unprecedented wireless data crunch and a digital divide that puts 
lower-income Americans at a disadvantage. This bill is a crucial step 
toward the adoption of policies that will ease the wireless data crunch 
and help bridge the digital divide.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                           Hon. Gary Resnick
    Question. Earlier this year Senator Klobuchar and I introduced the 
Rural Spectrum Accessibility Act, which would incentivize wireless 
carriers to lease unused spectrum to smaller rural carriers. Have any 
of the witnesses had an opportunity to review this proposal or others 
to incentivize spectrum sharing? Do you believe this would help expand 
access?
    Answer. I have not had an opportunity to review this proposed 
legislation and do not currently have a position on it.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Steve Daines to 
                           Hon. Gary Resnick
    Question 1. Mr. Resnick, you mention in your testimony that local 
leaders are managing many infrastructure needs and that sometimes there 
are delays to deployment. Can you expand on that and tell us what the 
sticking points are and what you, as local leaders, are up against that 
cause difficulty in moving the deployment process forward?
    Answer. Thank you for this question. As an initial matter, it is 
important to note that the industry has reduced, voluntarily, the 
number of wireless infrastructure sites between December 2013 and 
December 2014. (Source: http://www.ctia.org/your-wireless-life/how-
wireless-works/annual-wireless-industry-survey.) Moreover, according to 
informtion provided to me, the industry is not seeking to add a 
significant number of new sites in 2016. Thus, there is not a crisis in 
terms of the industry looking to add new wireless infrastructure sites 
and not being able to do so. Quite the contrary, largely because of how 
many sites have been successfully processed by local governments and 
constructed, the industry is not seeking to add as many sites as it has 
in prior years. There are certainly no issues created by local 
governments with respect to deploying new facilities.
    To expand on challenges faced by local leaders, we have many 
challenges to provide services with limited government resources. The 
vast majority of local governments nationwide do not have a large 
number of staff members to process applications, and these staff 
members review, provide comments, inspect and manage a wide variety of 
activities in response to applications and inquiries from the private 
sector, in addition to handling government initiated projects to 
improve the quality of life for citizens and economic development 
activities. These functions are in addition to processing applications 
for deployment of communications facilities that may be filed. Local 
leaders and staff manage infrastructure deployment both in the rights-
of-way and on government and private property. These management 
responsibilities include public works and utilities staff and land use 
and planning staff. Such activities range from engineering work for 
utilities and roads, land use planning and zoning compliance, drainage 
impacts, parks planning, development impacts on groundwater, hazardous 
materials, legal issues and other issues as well.
    I am not suggesting that there are deployment delays because these 
are communications facilities. Rather, I was referring to the need to 
address all of our staffs' obligations in due course, given limited 
staff and resource constraints. The industry as well has challenges and 
does not have unlimited resources to pursue the deployment of wireless 
facilities.
    Perhaps the best way to address the question is to provide an 
example using my City, Wilton Manors, FL, as an example. We have a 
population of approximately 12,000, but are fortunate to be able to 
budget significant resources to be able to pursue and respond to land 
use and planning activities than many local governments our size. 
During our budgeting process for our 2015-16 Fiscal Year, we identified 
several large-scale private development and infrastructure projects 
expected to be submitted, as well as government initiated land use and 
planning activities we determined to address. For example, we have two 
fairly large private developments that will be submitting applications 
for approvals this year that will have significant government resources 
in terms of plans review, comments, public hearings, permitting and 
inspection. IN addition, our private electric utility will be applying 
for permits for significant infrastructure utility pole replacements in 
our ROW. Further, the private railroad that bisects my city will be 
expanding its ROW and seeking permits for construction and blocking 
roadways. The staff resources for these projects are expected to be 
over 4,000 hours. We are aware of these projects because the 
corporations involved, smartly, met with my City leaders to give us a 
``heads up'' so we can plan accordingly. In addition to these private-
initiated projects, for economic development purposes we decided to 
rezone a significant portion of an area of our City. We have also 
budgeted to undertake major water and sewer system improvements. 
Further, we have obtained grants in excess of $3 million for 
significant roadway improvements that are in various stages of design, 
engineering and construction. Like any business, we budget to ensure we 
have sufficient and appropriate staff or contractors engaged to handle 
this work, but of course, will not waste taxpayer dollars by hiring 
staff and engaging contractors that may not be needed. Because of the 
level of activity for our 2015-16 Fiscal Year, we decided to hire an 
additional full-time planner at a cost to our taxpayers of 
approximately $120,000 and pursued an RFP to engage an outside planning 
firm and expanded the contracts for our City engineering firm and 
building officials.
    We also recognize that in addition to these known projects, there 
will be hundreds of other projects and applications that arise that 
cannot be anticipated. My City staff generally process 40 permit 
applications per month.
    The wireless industry generally does not alert local governments to 
applications they anticipate filing, prior to actually submitting an 
application. We are unsure if we can require pre-application filing 
meetings as we do with other development projects, or if such process 
would commence the shot clock. If a wireless infrastructure application 
is filed, we will process it in due course. Actually, because of the FL 
shot clock (which pre-dated the FCC's and actually affords less time), 
such application will force our staff to delay processing other 
applications, delaying the railroad, utility infrastructure and private 
development projects, as well as government initiated water and sewer 
and economic development. However, the FCC determined that such 
applications are more important than any other projects the City may be 
addressing. Thus, to comply with Federal requirements and avoid a 
lawsuit, we will move such wireless application to the head of the 
pack. What is further frustrating, is that often after submitting 
applications, the wireless communications industry will revise its 
needs and plans and seek to place applications on hold, or delay 
providing information needed to move applications forward. That has 
been the experience with the last three applications submitted by the 
industry. We understand that this industry is in constant flux with 
mergers, acquisitions, changed business plans and new technologies. But 
starting and stopping government processing is not an efficient use of 
limited resources.
    Of course, time is money for all these projects. If the railroad, 
electric utility or private developers complain about delays, frankly 
it's easy for local leaders to blame Congress and the FCC in deciding 
that instead of a first come, first serve, process, the wireless 
communications industry gets special treatment.
    I hope this elaborates sufficiently on what I meant that local 
leaders face many challenges.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                           Hon. Gary Resnick
    Question 1. No discussion of facilitating greater wireless 
broadband infrastructure is complete unless it addresses issues of 
local access. It has been my experience that local governments are 
often best suited to provide innovative solutions to the toughest 
challenges facing communities. Do you agree that local governments 
should be free to adopt municipal broadband networks?
    Answer. Absolutely. Local governments should have the freedom and 
flexibility to determine whether municipal broadband is an appropriate 
and viable option for their communities' technology and communications 
needs. The Intergovernmental Advisory Committee (IAC) of the FCC, which 
I have the privilege of chairing, submitted a recommendation to the 
Commission supporting local authority to adopt municipal broadband 
networks.\1\ The IAC acknowledged the many and diverse broadband 
networks provided by local governments. In many community/local 
government broadband networks, the private sector has been involved in 
helping design, build, and/or operate the network, creating new 
business opportunities and jobs in the process. We further mentioned 
that we have noticed firsthand that the private sector has provided 
better and more affordable broadband service in response to communities 
even considering deploying their own broadband networks. The IAC noted 
for example, in the case of the City of Chattanooga, which Petitioned 
the FCC to overturn Tennessee's ban on municipal broadband, it was 
offering 1 Gigabit per second broadband service for approximately $70/
month to consumers. Such local governments should be commended for 
their commitment to their residents.
---------------------------------------------------------------------------
    \1\ Intergovernmental Advisory Committee to the Federal 
Communications Commission Advisory Recommendation No. 2015-3, submitted 
February 2, 2015. (https://www.fcc.gov/encyclopedia/intergovernmental-
advisory-committee-comments)
---------------------------------------------------------------------------
    There are many areas of this country where residents and businesses 
do not have access to broadband services or where there is only one 
provider of broadband. There may be many reasons why the private sector 
decides not to invest in broadband networks in a certain community. 
When only one service provider serves a market, the quality of service, 
rates, and customer satisfaction suffer in comparison with customers 
who live in competitive markets. When the private sector does not 
create a robust competitive market, local governments, on behalf of 
their residents, should have the option of developing a broadband 
system that will serve the needs of their local residents and 
businesses.
    In addition, the National League of Cities, National Association of 
Counties, and National Association of Telecommunications Officers and 
Advisors all have policies which support local authority to adopt 
municipal broadband networks.

    Question 2. What can we do at the Federal level to enable and 
empower localities with the flexibility and tools necessary to provide 
access to broadband to their constituents?
    Answer. There are many and important actions the Federal Government 
can undertake to enable and to empower localities with the flexibility 
and tools to provide access to broadband to our residents.
    First, the Federal Government can ensure that local governments 
have a seat at the table when it comes to discussions and potential 
legislation about broadband. Often times, localities are left out of 
the discussion/consultation process, yet we are most in tune with our 
communities' broadband needs and the challenges and opportunities at 
the local level. For example, the ``Dig Once'' legislation has a lofty 
purpose, but there have been few opportunities for input from local 
governments, many of which have already adopted similar legislation and 
may be responsible ultimately for implementing components of the 
effort.
    Second, the Federal Government should support the removal of 
barriers to localities providing broadband to our constituents, either 
directly or in public private partnerships. The FCC's recent action 
overturning certain states' bans on municipal broadband is an example 
of Federal Government action that allows greater local flexibility.
    Third, other issues being addressed at the Federal level will 
affect local governments' flexibility and tools that may be available 
to address broadband access. For example, there are discussions 
underway about continuing the tax exempt status of municipal bonds, 
restricting certain local taxes, or making permanent the ban on 
taxation on Internet service. If local governments do not have access 
to financing and sufficient revenues, broadband access provided by 
local governments may be harmed. In a similar manner, Federal funding 
for transportation and infrastructure projects will enable local 
governments to consider deploying infrastructure to enable greater 
broadband access as part of such construction initiatives.
    Finally, there exists significant fiber and conduit deployed 
already in rights-of-way, which may be abandoned, unused, or used 
currently by local governments for limited purposes. Often such fiber 
and conduit may be subject to restrictions so that local governments 
are not able to use such resources to enable broadband access for their 
constituents. Many such restrictions are relics of antiquated policies 
or anticompetitive goals put in place to limit local governments' 
ability to use broadband networks. The Federal Government should 
explore measures through which such valuable, but unused and underused 
fiber and conduit resources, can be used by local governments to 
provide broadband access to residents and businesses, particularly when 
broadband service is otherwise lacking in the community. Below please 
find several examples of restrictions that limit local government 
flexibility to support broadband:

  <bullet> There are some federally funded projects, specifically 
        traffic signal automation, where many cities and counties have 
        installed conduit and other infrastructure that could be used 
        to support broadband deployment projects. However, because of 
        conditions on the Federal grant, these governments have been 
        reluctant to use conduit/fiber for wireless communications and 
        broadband or non-governmental purposes. In particular this is 
        the situation facing the City/County of San Francisco. These 
        facilities are conveniently located with mounting assets in the 
        form of traffic signals. If such restrictions were removed, it 
        could free up miles of existing assets already in place, 
        especially in urban and suburban settings, and not require 
        digging rights-of-ways and property.

  <bullet> In my City of Wilton Manors, FL, while we are a small city, 
        we have many residents who do not subscribe to broadband either 
        because of the cost or because they do not see the value in 
        their lives. We attempted to create a digital literacy center 
        using Federal CDBG funds to provide broadband for free to those 
        who could not afford it and to teach residents how to use 
        broadband effectively. Unfortunately, CDBG funds cannot be used 
        for such purpose. Removing such restrictions on Federal 
        programs would provide localities with more flexibility.

  <bullet> In Martin County, FL, the County has inventoried more than 
        90 cell towers that are within one mile of the County's 
        Community Broadband Network, which it constructed for its own 
        communications needs to avoid escalating prices for such 
        services by the private sector. The County has engaged in 
        discussions with private communications providers about 
        utilizing the County's network and aggregating providers' 
        backhaul. There are much more opportunities for DAS deployments 
        on this network as well. Unfortunately, several years ago the 
        State of Florida adopted restrictions on local governments 
        offering communications services, which calls into question the 
        viability of the County pursuing such endeavors with private 
        providers.

  <bullet> Many local governments utilize fiber INETs constructed by 
        their franchised cable operators. Cable operators imposed 
        restrictions on the use of such fiber to prohibit use for non-
        governmental purposes. Even though the cable operators have 
        been paid many times over for the costs to construct such 
        INETs, the restrictions remain in place. There are many methods 
        to remove such restrictions, allowing local governments to 
        utilize such fiber for greater purposes. One of the questions 
        asked at the hearing was what the communications industry could 
        do to remove barriers to broadband. Certainly, if the industry 
        agreed to remove such restrictions, it would allow greater 
        flexibility for governments to use industry-constructed fiber 
        networks.

    Question 3. Can municipal broadband networks be an important part 
of expanding wireless availability in cities by providing additional 
support for small cell and other wireless networks?
    Answer. Unequivocally, yes, city and county broadband networks can 
be an important part of expanding wireless broadband availability. As 
noted above, often municipal broadband networks are limited by 
antiquated restrictions, either established in state law or by 
conditions imposed by private entities that constructed such networks. 
Thus, such networks used by local governments in the U.S. cannot be 
used to their full potential. Municipalities and counties have been at 
the forefront of creating solutions for the wireless communications 
industry to expand wireless services, particularly in areas that lacked 
satisfactory coverage. Local governments control significant fiber and 
other resources that, if restrictions were eliminated, could be used to 
provide backhaul, redundancy and other vital technical support for 
small cell and other wireless systems.
    Local governments have a long history of utilizing their 
infrastructure to support wireless communications. For years, local 
governments have been leasing government owned towers erected for 
public safety communications, water towers and buildings to wireless 
providers for installation of communications antennas and related 
devices. In addition, governments with unrestricted fiber and 
infrastructure already support wireless uses. By way of example:

  <bullet> City and County-owned fiber can support wireless as a means 
        of backhaul (including DAS) and can serve as backbone or middle 
        mile for public or private last mile broadband deployment. If 
        we put a list together, it would run to hundreds of communities 
        that already do variations on both of these strategies. One 
        quick illustration: Washington, DC's own fiber supports public 
        safety wireless and a wide range of other City uses, while its 
        unrestricted fiber is offered to commercial providers that use 
        it to service the last mile.

  <bullet> In Arlington County, VA, much of the County's Public Safety 
        Ring, as it's known, co-opted the available ConnectArlington 
        conduit used for traffic and general county purposes. Arlington 
        County is completing a fiber backhaul project for its microwave 
        tower used for simulcasting emergency and public safety 
        officers handheld communications across the County.

  <bullet> The examples in response to question 2, with San Francisco 
        and Martin County, FL, further demonstrate the ability of 
        cities and counties to use infrastructure, already in place in 
        many cases, to support wireless and small cell networks.

    In conclusion, local governments support broadband deployment. We 
are not only regulators of the infrastructure installation and seek to 
ensure that our constituents have access, but we are large consumers of 
these services. In many cases, local governments can provide creative 
solutions to improve broadband access, either on their own or by 
facilitating deployment by private entities. Often local governments 
are reluctant to explore such creative solutions because of antiquated 
laws that restrict the use of funds or infrastructure, or 
anticompetitive restrictions imposed by private entities. As a result, 
much existing infrastructure owned and controlled by local governments 
that could be utilized to support broadband and communications services 
remains unused or underused. Thank you for the opportunity to respond 
to these questions.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                              Cory J. Reed
    Question 1. Mr. Reed, you stated in your testimony that John Deere 
supports allowing the Universal Service Fund to cover only broadband 
services, instead of requiring both broadband and voice. Earlier this 
year we had a letter with 61 senators that supported that proposal as 
well. Can you expand on the importance of this issue?
    Answer. Universal Service Fund support for stand-alone broadband is 
important to ensure that rural end users of communications service, 
both business and residential, have the same ability to subscribe to 
broadband-only services as end users in urban areas. The FCC's 2011 
Connect America Fund Order redirected the universal service system from 
supporting voice to supporting broadband. Until recently, however, the 
CAF provided support for broadband-only lines offered by the larger 
incumbent providers but not the smaller, rural providers. Congress 
directed that all consumers in our Nation should have access to 
advanced telecommunications services, which includes broadband 
connections that are increasingly necessary for active participation in 
the global economy. Providing CAF support for broadband-only services 
gives rural end users the same ability as urban end users to choose the 
technologies that best meet their needs for various communications 
services. Rural businesses need the flexibility to tailor their 
technology solution--whether fixed or wireless or some combination of 
both--in a way that best meets their particular needs. For example, a 
farmer that spends time in the field may prefer to ``cut the cord'' for 
voice communications, purchasing only broadband from the wireline 
provider and broadband plus voice from the wireless provider. Now that 
the FCC has amended its rules to give rural providers CAF support for 
broadband-only lines, rural consumers should have increased access to 
affordable wired broadband with or without wired voice service. This 
should help make broadband more affordable in rural areas, promoting 
greater broadband adoption. The FCC should be commended for updating 
its rules to support stand-alone broadband in all areas of the country.

    Question 2. Earlier this year Senator Klobuchar and I introduced 
the Rural Spectrum Accessibility Act, which would incentivize wireless 
carriers to lease unused spectrum to smaller rural carriers. Have any 
of the witnesses had an opportunity to review this proposal or others 
to incentivize spectrum sharing? Do you believe this would help expand 
access?
    Answer. Spectrum partitioning and/or leasing are important means of 
freeing up underutilized spectrum that has been licensed to one carrier 
to make it available for use by other providers serving users that need 
spectrum. As just one method of making better use of our finite 
spectrum resources, laws that permit and even encourage spectrum 
``disaggregation'' and leasing play an important role in meeting demand 
for wireless services and promoting innovation across multiple 
industries. Innovation in wireless services and networks is an American 
success story that includes the modern cell phone network to the 
plethora of wireless devices emerging in the Internet of Things in a 
wide variety of applications. Deere's precision ag technologies are one 
just one example. Those wireless systems incorporate GPS-enabled high 
precision agricultural equipment wirelessly transmitting real-time 
agronomic and equipment data machine-to-machine and machine-to-farm. 
Farmhouses communicate wirelessly with domestic and world market 
interfaces, suppliers, customers, government agencies. These precision 
farming technologies are now available to any producer to improve his 
or her yields, significantly lower costs, and improve environmental 
sustainability. However, rural areas where agricultural operations are 
located often lack adequate wireless coverage.
    Businesses and consumers should be able to resort to every 
available strategy to make better use of spectrum resources in urban 
and rural areas. To the extent we free up underutilized spectrum 
through spectrum portioning or leasing, we enable the development of 
new services and applications while preserving important existing 
services. Just in the past few years we have seen creative and flexible 
approaches to finding new spectrum resources through mandating greater 
channel efficiencies, repurposing spectrum, creating new sharing 
schemes, etc. The broadcast incentive auction, the AWS-3 auction, the 
FCC's 3.5 GHz Citizen's Band service and White Spaces decisions, are 
all examples of strategies to make greater use of spectrum resources 
and help expand wireless coverage.
    Ironically, evidence shows that unused spectrum in rural areas is 
actually in abundant supply but it is often not easily accessible. 
There may be multiple reasons for this that call for a broad-based 
response. Not only can the business case for building wireless 
infrastructure in lightly populated areas be challenging but, according 
to some smaller providers, the FCC's auction and licensing rules 
sometimes make it difficult for smaller rural carriers to participate 
and gain access to spectrum. Therefore, there may be lightly used or 
unused spectrum in rural areas under large wireless carrier licenses 
that could be put to great use by smaller rural carriers. The Rural 
Spectrum Accessibility Act would take a significant step toward 
addressing this imbalance by creating an incentive for wireless 
carriers to offer their unused spectrum to rural and smaller carriers 
and expand wireless coverage. This measure, and other measures, will be 
necessary to address the inadequate wireless coverage in rural areas 
that persists today.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                              Cory J. Reed
    Question. Mr. Reed, you mentioned the need to update and expand 
USF, particularly the Mobility Fund. Several Montana companies were 
beneficiaries of the Mobility Fund Phase I and were able to connect 
communities to mobile broadband for the first time. But now it appears 
as though the FCC is scaling back the Mobility Fund and pushing funding 
for fiber rather than mobile broadband. Is this trend concerning to 
your company? And how will the underserved rural farmers become 
connected without these programs?
    Answer. Thank you for asking specifically about support for 
wireless broadband and the Mobility Fund. Ag producers need access to 
all broadband technology options to reap the full benefits that new 
precision agriculture offers. John Deere customers need flexibility to 
adopt the appropriate technology solutions depending on ag equipment 
used, crops, livestock, terrain, climate, proximity to broadband 
interconnection points and population centers, and barriers to local 
land acquisition and access. However, we are concerned that the FCC's 
rural broadband support programs do not place sufficient priority on 
providing access to the full suite of technology options--wired, fixed 
and mobile wireless. Fiber, including fiber in the middle mile that 
supports last mile fiber and last mile wireless, is important to 
broadband coverage but it must not be the exclusive technology choice. 
In some circumstances, wireless access may be the best or even the only 
feasible solution.
    This is why it is so important to preserve and even expand the 
Mobility Fund. The FCC created a support fund dedicated exclusively to 
mobile services for the first time in 2011. The Mobility Fund was 
created to ensure the availability of mobile broadband networks in 
areas where a private-sector business case was not supporting needed 
wireless services. The FCC's early plans contemplated a Mobility Fund 
Phase II but today, more than 5 years later, that fund is yet to become 
a reality. The Commission has since revised the program to retarget 
funds to support 4G LTE mobile broadband and voice service and in 2014, 
the FCC asked for further input on how best to distribute Mobility Fund 
Phase II support. Now, 2 1/2 years later, the FCC has yet to adopt 
rules to implement Mobility Fund Phase II and the effort appears to be 
stalled. Instead, despite the growing demand for and importance of 
mobile services in rural areas, the Commission's current commitment to 
the Mobility Fund is in real question and the Commission has even 
suggested that it may not continue the fund.
    The Commission should confirm that expanded broadband in rural 
areas is a current priority by issuing a decision that preserves and 
even expands the Mobility Fund Phase II. While there is a need to 
update these support programs to better ensure coverage of agricultural 
areas, the Commission can and should act promptly to confirm the status 
the Mobility Fund Phase II while considering further updates.
    Another area where policy preferences for fiber over wireless 
should be overcome is in the distribution of Connect America Funds 
(CAF) support. The method by which CAF funds are distributed will 
determine whether rural families and businesses in agriculture will 
have the flexibility required to apply the technology solution--whether 
fixed, wireless, or some combination of both--that best meets their 
particular needs. The ``tiered'' approach that the Commission has 
proposed would enable only wireline providers to bid in the first round 
of an auction, thereby giving wireline an advantage over wireless 
technologies. Carriers interested in providing wireless service could 
be excluded from accessing support funds; ultimately users' flexibility 
to employ the most appropriate technology solutions to meet a wide 
variety of circumstances would be limited. If a wireless service is a 
superior option for particular users (based on the cost and other 
efficiencies that apply to the equipment, terrain, distance and other 
specific attributes of a locale to be served), then wireless providers 
should not be precluded from bidding in the first round to meet these 
needs.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                              Cory J. Reed
    Question 1. It is clear from the recent spectrum auction, which 
attracted over $44 billion dollars in bids, and from your testimony 
that the demand for licensed wireless spectrum is growing. While 
Congress is addressing the need for licensed spectrum, we must also 
take seriously the need to expand our reserve of unlicensed spectrum 
for Wi-Fi and other purposes.
    Answer. John Deere certainly agrees that there is an important need 
for additional, unlicensed spectrum to be made available for mobile 
applications. This is especially true for the development and adoption 
of current and future innovations in production agriculture.

    Question 2. Just how important is unlicensed spectrum and Wi-Fi to 
the continued expansion of mobile device communication?
    Answer. John Deere believes that unlicensed spectrum is as 
important as licensed spectrum for continued expansion of mobile device 
communication. It is true that the demand for licensed spectrum 
continues to grow, fueled by soaring consumer and business demand for 
continuous voice, data, and video connectivity. Congress and the FCC 
have acted to meet licensed spectrum demand in several ways: through 
the digital TV transition, advanced wireless auctions, and the 
impending 600 MHz incentive auction.
    Today, however, mobile technologies include a broad range of 
services and devices that operate on unlicensed as well as licensed 
spectrum. Unlicensed devices complement licensed services, and meet a 
wide range of consumer and business needs that contribute tens of 
billions of dollars to the U.S. economy each year. Unlicensed spectrum, 
made available for public use decades ago, has become an essential 
platform for a thriving ecosystem of device and service innovations 
that are now a part of everyday life.
    For example, Wi-Fi and Bluetooth are integral to many consumer, 
business, medical, industrial and other devices. Unlicensed spectrum is 
critical to the burgeoning ``Internet of Things'' in today's economy. 
This includes connected automobiles, wearable health technologies, 
remote energy monitoring, automated manufacturing, logistics and 
inventory control, and countless new applications that are still to be 
developed for commercial use.
    As applied to the agricultural sector, GPS technologies and 
unlicensed spectrum combine to connect agricultural machinery operating 
in croplands, thus enabling farmers to achieve unprecedented levels of 
productivity, as well as energy, resource and environmental 
conservation. John Deere is pioneering such innovations in modern, high 
precision, data-driven farming and believes that access to unlicensed 
spectrum will continue to spur innovations that deliver important new 
public benefits.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Marco Rubio to 
                             Bruce Morrison
    Question. Delays, needless paperwork, and moratoria mean higher 
costs for wireless infrastructure companies, correct? And would you 
agree that these factors contribute to less deployment? Would it be 
correct to conclude that many regulations ignore the realities of 
modern wireless technology--for instance, applying the same rules for 
constructing a new 200-foot tower to swapping out new antennas for 
older, existing ones?
    Answer. Yes, Senator Rubio, the cost to deploy or build facilities 
is a key consideration when determining how to provide coverage to 
certain areas. Applying the same rules, regardless of the scope of the 
facility, typically slows down deployment however. Looking at low-
impact sites (attaching antennas to existing structures, right of way 
deployment, and replacing existing equipment) under the same view as a 
full new tower site deployment typically incurs longer time frames and 
costs despite the fact that any impact on the environment or community 
is usually negligible.
    Also, due to new technologies, there is an increased need for 
smaller, low-visibility sites that need to be deployed to handle gaps 
in the network based on customer demands. These sites typically cover a 
lot less area than a typical wireless site, so the ability to deploy in 
a quick, cost-effective manner allows for a more efficient build out. 
Many jurisdictional codes and processes already account for different 
deployment methodologies outside of wireless. Policymakers could help 
industry by applying similar approaches to wireless deployment.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             Bruce Morrison
    Question 1. Mr. Morrison talked about a few new technologies that 
could change broadband infrastructure. Federal policy, however, can 
slow the implementation of these technologies or inhibit them 
altogether. Do you think there are structural changes that could be 
made to Federal agencies that would encourage the integration of new 
technologies?
    Answer. Yes Senator Fischer, Federal policy can assist technology 
implementation by continuing to improve processes as they relate to: 
local jurisdictional review timelines (so-called shot clocks), 
environmental review processes, and use in the public right of way. New 
technology typically requires the swapping out or addition of new 
wireless equipment and as a result, having a streamlined process for 
carrier site modification is very important. This is not always 
captured however in shot-clock policy as deployment can involve 
replacing existing equipment (ground and antennas for example) or the 
expansion of additional equipment for other carriers.
    Also, with new technologies comes the increased need for smaller, 
low-visibility sites that must be deployed to handle gaps in the 
network. These sites typically cover a lot less area than a typical 
wireless site, so the ability to deploy in a quick, cost-effective 
manner is very important and allows for better infrastructure build 
out. Many of these micro or small-cell sites have a minimal footprint 
and can be located in public right of ways such as rooftops and 
billboards.
    It is important to note though that small-site technology shouldn't 
be subject to the same scrutiny and processes as a full macro-site 
deployment. Many jurisdictions account for this methodology outside of 
wireless. For example, the permitting process to construct an addition 
to an existing house is much more streamlined than one for an entirely 
new construction project. Wireless broadband infrastructure should 
benefit from a similar methodology.

    Question 2. Earlier this year Senator Klobuchar and I introduced 
the `Rural Spectrum Accessibility Act,' which would incentivize 
wireless carriers to lease unused spectrum to smaller rural carriers. 
Have any of the witnesses had an opportunity to review this proposal or 
others to incentivize spectrum sharing? Do you believe this would help 
expand access?
    Answer. Ericsson believes that efforts to make broadband service 
available to unserved areas can reduce poverty, enable development, and 
foster better lives. Ericsson has the capability and capacity to 
support rural broadband infrastructure deployment at the request of our 
commercial customers, yet cost remains the biggest challenge in this 
area.
    Proposals, such as the ``Rural Spectrum Accessibility Act,'' that 
seek to incentivize major wireless carriers to collaborate with their 
smaller providers should be considered with the goal of expanding 
wireless broadband access to rural and underserved communities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Bruce Morrison
    Question 1. Thank you for providing the rural perspective at the 
Commerce Committee's broadband infrastructure hearing. While your 
testimony focused on agricultural areas, the needs and challenges are 
similar in areas where construction, forestry, and mining machines 
operate. What can we do to encourage broadband deployment in rural 
areas, not only where people are living, but also where they are 
working?
    Answer. Deere agrees that it is important to promote policies that 
foster broadband deployment to rural areas where people work and 
travel, not only where they live. This includes areas where 
construction, forestry, and mining operations are conducted. Existing 
government efforts to promote broadband deployment in rural areas have 
historically assessed broadband availability or unavailability based on 
the state of broadband coverage in population centers, namely 
residential areas, along with ``anchor institutions'' identified as 
schools and hospitals. While this approach identifies needs of people 
at their homes, it often can mask a severe lack of broadband access in 
business and commercial locations in rural areas thus overlooking the 
need for broadband access to the very locations that are the economic 
lifeblood sustaining the rural community.
    Deere is intensely interested in expediting the deployment of 
mobile broadband services to rural areas where, by definition, farming, 
ranching, and other agricultural operations are concentrated. 
Therefore, Deere respectfully suggests that U.S. government agencies 
with broadband deployment mandates, including the FCC, update the way 
they assess the need for broadband in rural communities. In particular, 
Deere recommends that agencies with deployment mandates view 
availability through an additional lens--one that incorporates 
geographic and functional usage that captures the importance of 
promoting broadband access to economic centers.
    An important example of this is the need to assess broadband 
availability in areas of agricultural operations--specifically, 
croplands and the farmhouse center that manages the farming operations. 
Broadband infrastructure and services are sorely needed to support the 
growing demand in the agricultural sector for machine-to-machine 
services to optimize efficiencies in operations, provide real time 
access to market data and transactions, and manage vendor and materials 
resources. Together, croplands and farmhouse centers represent the 
economic drivers to most rural communities in the United States. As 
such, farmhouses should be considered an ``anchor institution'' in 
those programs that provide support to specific functions. Similarly, 
existing support programs do not adequately consider broadband 
availability in rural areas where construction, forestry and mining 
operations are concentrated. Ensuring that these locations also have 
access to broadband services--in addition to population centers and 
traditional ``anchor institutions''-is essential to supporting rural 
communities today and in the future.
    In addition to treating farm institutions as ``anchor 
institutions,'' for those rural areas that are identified as needing 
support for broadband deployment, policies should ensure that 
sufficient funds exist to support mobile broadband deployment, 
including in the Mobility Fund, which is of particular value in areas 
where wireline coverage over very large areas is costly and difficult.
    Specifically, Deere supports:

  <bullet> Retention and expansion of the Mobility Fund

  <bullet> Addition of ``cropland'' as a metric to assess need and 
        funding awards

  <bullet> Treatment of farmhouses as ``anchor institutions''

  <bullet> Increased broadband speeds but not rigid performance 
        thresholds that may discourage deployment of intermediate 
        speeds or technologies that greatly improve on existing access 
        to broadband.

  <bullet> Funding of middle mile facilities for rate of return 
        carriers

  <bullet> Policies facilitating stand-alone broadband to foster 
        deployment in rural areas.

  <bullet> Eliminating barriers to infrastructure deployment, including 
        streamlined environmental review of infrastructure projects, 
        steps that make it easier to deploy infrastructure on Federal 
        lands, ``dig once'' policies, etc.

  <bullet> Use of public funds on sharable and open backhaul capacity

    Question 2. I want to emphasize how important it is for the rural 
carriers in my State that there is certainty in our funding mechanisms 
for funding broadband infrastructure. Could you elaborate on this 
point?
    Answer. All businesses, including providers of rural broadband and 
telecommunications services, need certainty to invest in new 
infrastructure to grow their business and bring cutting edge 
technologies to their customers. Understanding the rules of the road 
and knowing that they will not change mid-stream is imperative to long-
range business planning. Rate-of-return carriers still cannot receive 
universal service support for stand-alone broadband and middle mile 
backhaul four years after the FCC adopted rules governing such support 
for price cap carriers. Similarly, wireless carriers are still waiting 
for FCC rules governing ongoing support in the Mobility Fund or 
elsewhere for upgrading wireless services in rural areas to offer high-
speed broadband. The FCC needs to act, on its own or pursuant to 
legislative direction, as soon as possible to end this period of 
prolonged uncertainty so rate-of-return and wireless carriers can plan 
and execute broadband investments in rural America.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Steve Daines to 
                             Bruce Morrison
    Question. Mr. Morrison, removing barriers to broadband deployment 
doesn't guarantee that companies will invest in networks in rural 
America. From your experience, what are some incentives that can 
encourage companies to serve rural consumers?
    Answer. Thank you for the question Senator Daines. As a leader in 
the ICT industry, Ericsson aims to provide significant and measureable 
contributions to a sustainable ``Networked Society,'' a world where 
individuals and industries are empowered to reach their full potential. 
To that end, Ericsson believes that efforts to make broadband service 
available to unserved areas, including those in Montana, can reduce 
poverty, enable development, and foster better lives. Ericsson has the 
capability and capacity to support rural broadband infrastructure 
deployment at the request of our commercial customers, yet cost remains 
the biggest challenge in this area.
    Federal subsidiaries and allocation of funds to help with 
development have spurred deployment in the past. Additionally, 
facilitating the access or rights for low-band spectrum makes rural 
deployment more feasible due to signal strength. In addition, any 
incentives that can be provided to land and facility owners (public and 
private) for the placement of wireless equipment or to access utilities 
for power and backhaul needs would prove helpful as well.
    Finally, to the extent that the Federal Government can incentivize 
investment by wireless carriers, through programs such as the `Connect 
America Fund' (CAF) and the `Mobility Fund,' rural and underserved 
communities will benefit greatly.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                             Bruce Morrison
    Question 1. Mr. Morrison, there have been cases in which a tower is 
built in a rural area but the Federal permitting process slows down the 
deployment of wireline backhaul rendering the tower useless. Is it 
sometimes the case that the barrier to broadband access is the 
permitting process which slows down deployment of wireline backhaul 
infrastructure?
    Answer. To help avoid situations like the one you describe, 
wireless operators almost always develop a backhaul plan prior to the 
construction of a communications tower. The case you reference may 
occur when a tower is built for a government communication system that 
is also offered for collocation by wireless carriers. Without adequate 
backhaul from the tower location, those carriers may not have an 
interest in collocating. I don't believe that the permitting process 
renders a tower useless, but it certainly can delay and increase the 
cost of the development process significantly. Allow me to offer some 
additional insight and context into these processes.
    Any cellular facility requires a connection to an appropriate 
backhaul source with enough capacity to handle the large amount of data 
being consumed for customer needs. Typically, that can be accomplished 
with fiber or in some cases, cable. Rural deployment of a proper 
backhaul network does create a barrier to tower placement and can be 
hampered by construction requirements (locating cables underground for 
example) and franchise/right of way agreements which dictate how and 
where equipment can be deployed.
    This is the similar predicament for rural homeowners that do not 
have access to proper backhaul networks and must resort to dial-up or 
satellite options. One solution to satisfy this backhaul need is by 
utilizing a point-to-point microwave to connect to a fiber backhaul 
option. Even that option is not free of challenges however due to line-
of-site, tower structural capacity, and microwave height 
considerations.

    Question 2. What are the other barriers to deploying this 
infrastructure?
    Answer. Lack of a sound business case that allows wireless 
operators to recoup the higher costs of infrastructure development and 
deployment in rural areas is one of the most significant challenges to 
wireless broadband infrastructure deployment.
    The cost challenges to deploy in rural areas include: long 
distances, mountainous geography, shorter construction windows due to 
seasonal inclement weather, a lack of power availability, upfront 
costs/approvals for access roads, land clearing, government land 
ownership issues, and tower height limitations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                             Bruce Morrison
    Question 1. It is clear from the recent spectrum auction, which 
attracted over $44 billion in bids, and from your testimony that the 
demand for licensed wireless spectrum is growing. While Congress is 
addressing the need for licensed spectrum, we must also take seriously 
the need to expand our reserve of unlicensed spectrum for Wi-Fi and 
other purposes.
    Answer. Ericsson supports both licensed and unlicensed platforms 
and integrates both types of solutions in our product offerings to 
customers. Ericsson is a member of, and contributor to, all of the 
technological development and standards groups furthering both licensed 
and unlicensed platforms (e.g., the Third Generation Project 
(``3GPP''), the Institute of Electrical and Electronics Engineers 
(``IEEE'') and its many working groups, and the Wi-Fi Alliance 
(``WFA'')). We support the advancement of LTE-U/LAA, we support Wi-Fi, 
and we are committed to continued innovation and equitable access for 
multiple technologies using unlicensed platforms. LTE-U/LAA will allow 
a mobile network operator to combine licensed spectrum operations with 
access to unlicensed spectrum to opportunistically enhance users' data 
rates, performance, and experience. It offers a technology choice for 
offloading traffic using unlicensed resources, integrated with the 
licensed carrier's network. LTE-U/LAA is standards-based and designed 
to co-exist with other technologies using unlicensed bands, including 
802.11/Wi-Fi.

    Question 2. Just how important is unlicensed spectrum and Wi-Fi to 
the continued expansion of mobile device communication?
    Answer. The world is fast becoming what Ericsson describes as the 
``Networked Society,'' where connectivity is the linchpin for new ways 
of innovating, collaborating and socializing. The transition to this 
Networked Society represents a fundamental shift in technology 
comparable to the Industrial Revolution. In the Networked Society 
everyone and everything will be connected everywhere in real time--and 
that, of course, requires additional spectrum. Whether it is through 
solutions utilizing licensed, unlicensed (Wi-fi is one of many 
unlicensed technology innovations along with Bluetooth, an Ericsson 
invention), or shared spectrum, wireless communication is driving 
innovation and sparking new activities.
    Ericsson's most recent forecast projects that North American mobile 
data traffic will balloon many times by 2020, and U.S. policy must 
embrace a combination of licensed and unlicensed spectrum initiatives 
if industry and innovators can hope to keep up. The mobile networks of 
today and in the future will need to use multiple, evolving aspects of 
licensed and unlicensed technologies to deliver the best mobile 
experience possible in any given environment. Access to more licensed 
spectrum is a critical element, but unlicensed spectrum is also an 
integral component for meeting the growing demand for mobile broadband.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
